<html>
<title> - PASSENGER AND FREIGHT RAIL SECURITY</title>
<body><pre>[Senate Hearing 108-1031]
[From the U.S. Government Publishing Office]


                                                      S. Hrg. 108-1031

                  PASSENGER AND FREIGHT RAIL SECURITY

=======================================================================

                                 HEARING

                               BEFORE THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 23, 2004

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                             
  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           
                             
                             
                             
                       U.S. GOVERNMENT PUBLISHING OFFICE                    
27-957 PDF                     WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="81e6f1eec1e2f4f2f5e9e4edf1afe2eeecaf">[email&#160;protected]</a>                             
                             


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South 
CONRAD BURNS, Montana                    Carolina, Ranking
TRENT LOTT, Mississippi              DANIEL K. INOUYE, Hawaii
KAY BAILEY HUTCHISON, Texas          JOHN D. ROCKEFELLER IV, West 
OLYMPIA J. SNOWE, Maine                  Virginia
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              JOHN B. BREAUX, Louisiana
PETER G. FITZGERALD, Illinois        BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  RON WYDEN, Oregon
GEORGE ALLEN, Virginia               BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
                                     MARIA CANTWELL, Washington
                                     FRANK R. LAUTENBERG, New Jersey
      Jeanne Bumpus, Republican Staff Director and General Counsel
      Kevin D. Kayes, Democratic Staff Director and Chief Counsel
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 23, 2004...................................     1
Statement of Senator Allen.......................................     6
Statement of Senator Biden.......................................    13
    Prepared statement...........................................    13
Statement of Senator Boxer.......................................     8
Statement of Senator Breaux......................................     2
    Prepared statement of Hon. Ernest F. Hollings................     3
    Prepared statement...........................................     5
Statement of Senator Cantwell....................................    59
Statement of Senator Carper......................................    16
    Prepared statement...........................................    19
Statement of Senator Dorgan......................................    12
Statement of Senator Hutchison...................................    54
Statement of Senator Lautenberg..................................     7
Statement of Senator McCain......................................     1
    Prepared statement...........................................     2
Statement of Senator Snowe.......................................     9
    Prepared statement...........................................    10

                               Witnesses

Guerrero, Peter F., Director, Physical Infrastructure Issues, 
  U.S. General Accounting Office; accompanied by Norman J. 
  Rabkin, Managing Director for Homeland Security, U.S. General 
  Accounting Office..............................................    32
    Prepared statement...........................................    35
Hamberger, Hon. Edward R., President and Chief Executive Officer, 
  Association of American Railroads..............................    68
    Prepared statement...........................................    70
Hutchinson, Hon. Asa, Under Secretary for Border and 
  Transportation Security, U.S. Department of Homeland Security..    21
    Prepared statement...........................................    23
Jamison, Hon. Robert, Deputy Administrator, Federal Transit 
  Administration.................................................    28
    Prepared statement...........................................    30
Millar, William W., President, American Public Transportation 
  Association....................................................    75
    Prepared statement...........................................    77
O'Connor, John, Chief of Patrol, National Railroad Passenger 
  Corporation....................................................    82
    Prepared statement...........................................    84
Riley, Ph.D., Jack, Director of Public Safety and Justice, RAND 
  Corporation....................................................    61
    Prepared statement...........................................    63
Rutter, Hon, Allan, Administrator, Federal Railroad 
  Administration.................................................    26

                                Appendix

Mehra, Ajay, President, OSI Systems, Inc. Security Group, 
  prepared statement.............................................   102
Rockefeller IV, Hon. John D., U.S. Senator from West Virginia, 
  prepared statement.............................................   101
Response to written questions submitted to Hon. Asa Hutchinson 
  by:
    Hon. Ernest F. Hollings......................................   106
    Hon. Frank R. Lautenberg.....................................   110
    Hon. John McCain.............................................   103
    Hon. John D. Rockefeller IV..................................   110
Response to written questions submitted to Hon. Allan Rutter by:
    Hon. Ernest F. Hollings......................................   115
    Hon. Frank R. Lautenberg.....................................   119
    Hon. John McCain.............................................   112
Response to written questions submitted to Peter F. Guerrero by:
    Hon. John McCain.............................................   119
Response to written questions submitted to Jack Riley by:
    Hon. John McCain.............................................   120
Response to written questions submitted to Hon. Edward R. 
  Hamberger by:
    Hon. Ernest F. Hollings......................................   124
    Hon. Frank R. Lautenberg.....................................   125
    Hon. John McCain.............................................   121
Response to written questions submitted to William W. Millar by:
    Hon. Ernest F. Hollings......................................   126
    Hon. John McCain.............................................   125
Response to written questions submitted to John O'Connor by:
    Hon. Ernest F. Hollings......................................   128
    Hon. John McCain.............................................   126
    Hon. John D. Rockefeller IV..................................   129

 
                  PASSENGER AND FREIGHT RAIL SECURITY

                              ----------                              


                        TUESDAY, MARCH 23, 2004

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:04 a.m. in 
room SR-253, Russell Senate Office Building, Hon. John McCain, 
Chairman, presiding.

            OPENING STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    The Chairman. Good morning. The Committee meets today to 
consider the state of rail security in the United States. 
Obviously, the recent attacks on Madrid's commuter rail system 
have demonstrated all too vividly that our own transit system, 
Amtrak and the freight railroads, could be vulnerable--and I 
emphasize, could--be vulnerable to terrorist attacks. The 
attacks in Spain were carried out with horrifying precision and 
apparent ease, killing 191 and injuring more than 1,400.
    Only modest resources have been dedicated to maritime and 
land security over the past two and a half years compared to 
the investments made to secure the airways. That is a fact. The 
good news is that the Federal Transit Administration, FTA, 
individual commuter agencies, Amtrak, and the freight railroads 
have on their own initiative taken steps to safeguard 
passengers, facilities, and cargo. These efforts, accomplished 
at a very small cost to the Federal Government, have helped 
make our rail system safer.
    But rail security efforts remain fragmented. The Department 
of Homeland Security has still not signed memorandums of 
agreement with the Department of Transportation, as recommended 
by the General Accounting Office, to make clear each 
Department's roles and responsibilities with respect to rail 
security.
    Further, the Transportation Security Administration's 
Maritime and Land Security Division has yet to complete a 
threat and vulnerability assessment for the rail system and 
prepare an integrated security plan that reflects the unique 
characteristics of passenger and rail and freight rail 
operations. The Maritime and Land Division is pursuing a number 
of individual projects, but does not appear to have an overall 
strategy for improving rail security.
    We are fortunate that we are not in the position today of 
having to make decisions about rail security in the wake of a 
terrorist attack here at home. The efforts of the freight 
railroads, DHS, FTA, and the FRA can help Congress and the 
administration target additional resources that may be needed 
effectively. With our Nation facing a half trillion dollar 
deficit, we must use the taxpayers' money wisely.
    Shortly after the terrorist attacks on September 11, the 
Commerce Committee reports rail security legislation co-
sponsored by myself and Senator Hollings. That proposal was 
aimed primarily at Amtrak and included a number of projects 
that were part of Amtrak's original request that even Amtrak 
has since discredited. Unfortunately, the full Senate has not 
acted on rail security legislation.
    I hope that following this hearing the Committee can 
develop a bipartisan bill to address rail security needs and 
the fire and life safety work in the Penn Station tunnels.
    I want to welcome our witnesses. I look forward to their 
statements and hearing their recommendations about how best to 
improve our Nation's rail security.
    [The prepared statement of Senator McCain follows:]

   Prepared Statement of Hon. John McCain, U.S. Senator from Arizona
    The Committee meets today to consider the state of rail security in 
the United States. The recent attacks on Madrid's commuter rail system 
demonstrated all too vividly that our own transit system, Amtrak, and 
the freight railroads could be vulnerable to terrorist attack. The 
attacks in Spain were carried out with horrifying precision and 
apparent ease, killing 191 and injuring more than 1,400.
    Only modest resources have been dedicated to maritime and land 
security over the past two and one-half years compared to the 
investments made to secure the airways. The good news is that the 
Federal Transit Administration (FTA), individual commuter agencies, 
Amtrak, and the freight railroads have, on their own initiative, taken 
steps to safeguard passengers, facilities, and cargo. These efforts, 
accomplished at a very small cost to the Federal Government, have 
helped make our rail system safer.
    But rail security efforts remain fragmented. The Department of 
Homeland Security (DHS) has still not signed memorandums of agreement 
(M-0-As) with the Department of Transportation (DOT) as recommended by 
the General Accounting Office (GAO) to make clear each department's 
roles and responsibilities with respect to rail security. Further, the 
Transportation Security Administration's Maritime and Land Security 
Division has yet to complete a threat and vulnerability assessment for 
the rail system and prepare an integrated security plan that reflects 
the unique characteristics of passenger and freight rail operations. 
The Maritime and Land Division is pursuing a number of individual 
projects, but does not appear to have an overall strategy for improving 
rail security.
    We are fortunate that we are not in the position today of having to 
make decisions about rail security in the wake of a terrorist attack 
here at home. The efforts of the freight railroads, DHS, FTA, and FRA 
can help Congress and the Administration target additional resources 
that may be needed effectively. With our Nation facing a half trillion 
dollar deficit, we must use the taxpayers' money wisely.
    Shortly after the terrorist attacks on September 11, 2001, the 
Commerce Committee reported rail security legislation co-sponsored by 
myself and Senator Hollings. That proposal was aimed primarily at 
Amtrak and included a number of projects that were part of Amtrak's 
original request that even Amtrak has since discredited. Unfortunately, 
the full Senate has not acted on rail security legislation. I hope that 
following this hearing, the Committee can develop a bi-partisan bill to 
address rail security needs and the fire and life-safety work in the 
Penn Station tunnels.
    I want to welcome our witnesses. I look forward to their statements 
and hearing their recommendations about how best to improve our 
Nation's rail security.

    The Chairman. Senator Breaux.

               STATEMENT OF HON. JOHN B. BREAUX, 
                  U.S. SENATOR FROM LOUISIANA

    Senator Breaux. Thank you very much, Mr. Chairman.
    I have a statement from Ranking Member Senator Hollings, 
that I would like to make part of the record. He could not be 
with us. He is attending a funeral service today for a good 
friend and former Governor and Ambassador and could not be with 
us. But his statement will be made part of the record if there 
is no objection.
    The Chairman. Without objection.
    [The prepared statement of Senator Hollings follows:]

            Prepared Statement of Hon. Ernest F. Hollings, 
                    U.S. Senator from South Carolina
    The Commerce Committee has taken the lead on transportation 
security issues. We have authored legislation on aviation security and 
port security and had to push the Administration to implement the 
provisions of those laws. We are here today to push them once again, 
this time on rail security.
    Two weeks ago, I re-introduced rail security legislation similar to 
S. 1501 passed unanimously by this Committee in October 2001. It is now 
2004, and still we have not seen anything comprehensive done on rail 
security. Yesterday, the Washington Post highlighted the lack of 
commitment to rail security. (I will include a copy of the article for 
the record.)
    Transportation security is a matter of national security. 
Terrorists have made public transportation a new theater of operations. 
Algerian extremists set off bombs in the subways of Paris in 1995 and 
1996; a nerve gas attack on Tokyo's subways by members of the Aum 
Shinrikyo sect in 1995 killed 12 and injured over 5,000 people; in 1999 
a bomb injured three people at a Sydney rail station; in 2000 bomb 
threats shut down London's underground; one bomb injured nine in 
Dusseldorf's Underground; another bomb killed nine and injured 60 on 
the Metro in Manila. Earlier this month, we saw the devastation in 
Madrid, where over 200 were killed and some 1,600 injured. Security of 
our rail system is no longer a function that we can leave to the 
private sector or Amtrak and public transit operators that can barely 
cover their operating costs.
    As we have seen in Madrid, for the terrorists determined to kill 
indiscriminately, public transportation is an ideal target. Precisely 
because it is public and used by millions of people daily. Attacks on 
public transportation, the circulatory systems of urban environments, 
cause great disruption and alarm, which are the traditional goals of 
terrorism.
    We have focused a lot of attention on aviation security concerns 
following 9/11, while this has been extremely important, it is 
important to address the security needs of all modes of transportation.
    It has been reported that Undersecretary Hutchison told the House 
Homeland Security Committee last week ``the attacks in Madrid were not 
a big shock or a wake up call.'' The terrorist attacks of September 
11th were the wake up call, and now Madrid is an alarm clock that 
reminds us that we need to develop and protect ALL modes of 
transportation. Unfortunately it seems like the only way we can get the 
Department of Homeland Security to act on anything is for the Congress 
to pass legislation which mandates when and how the Administration 
should identify and begin to protect our vulnerabilities.
    I look forward to hearing from the witnesses. I understand that 
there are a number of things that have been done by Amtrak and the 
private railroads. Additionally, the Federal Transit Administration is 
widely regarded as doing an admirable job on a shoestring budget 
working with public transit operators to conduct training and public 
awareness campaigns.
    But at the end of the day, we created the Department of Homeland 
Security to improve the security of our country, that is their charge, 
it is not the function of the Federal Transit Administration's or 
Amtrak or the freight railroads. At a minimum, the Department of 
Homeland Security should have taken a comprehensive look at rail 
transportation system in this country, assessed the threats and risks 
and made recommendations for improvements. For over two years, such a 
threat assessment has been discussed, but we have nothing to show, no 
budget requests dedicated to rail security, insufficient staffing at 
the Department, and the agency has repeatedly ignored questions posed 
by this Committee.
    We cannot continue to neglect transportation sectors that are so 
vital to our economy. Transportation security requires a balanced and 
competitive system of transportation alternatives. We cannot be overly 
reliant on any single mode of transportation, therefore we need to 
ensure that we have a balanced and secure system.

    Senator Breaux. Mr. Chairman, you correctly alluded to the 
situation with the Madrid accidents. We are clearly here today 
because once again the world has seen what happens when 
terrorists target a particular means of transportation that the 
general public, innocent civilians, utilize on a day to day 
basis. We have spent billions of dollars to upgrade our 
aviation security, and appropriately so, after the 9/11 
attacks. We have pushed and had hearings in the field and here 
in Congress on port security and I think we are making progress 
on port security. Every day we see new innovative measures 
being taken to protect the ports.
    Now once again we are here to push for something that is 
equally as important, if not more so, and that is the question 
of railroad security. The budgets for rail security and funding 
have clearly lagged far behind what we are spending in these 
other areas. As an example, this year $4.5 billion is budgeted 
for aviation security while only approximately $65 million has 
been set aside for the Nation's public transit operators, even 
though daily, about five times more people use the train system 
than take airplanes in this country.
    The United States has literally thousands of miles of 
railroad and transit tracks, obviously these are very difficult 
to protect. We know this, but we also recognize that security 
is a multi-layered system, consisting of various types of 
intelligence and coordination among state, local, and federal 
officials, the rail and transit operators and a number of 
devices and techniques that are capable of reducing the risk 
and the damage of terrorist attacks.
    Mr. Chairman, we have attempted to address the question of 
rail security. In October 2001, right after the 9/11 events, I 
had the opportunity to chair a hearing on rail security. Only 
about a month after the attacks by al-Qaeda. We responded, we 
thought, in a quick fashion by reporting out a bill that would 
have required at that time, the Department of Transportation to 
perform an assessment of the risks associated with passenger 
and freight rail systems, to prioritize recommendations for 
security improvements, and also to make grants to carry out 
some of those recommendations.
    Now, two and a half years later, we have a Department of 
Homeland Security, but I still remain concerned about the lack 
of attention to the rail security system. Although now the 
Transportation Security Administration has been moved from the 
Department of Transportation to the Department of Homeland 
Security, as the Chairman said, we still do not have a 
comprehensive risk assessment identifying the rail security 
priorities and we have not been able to get a response from the 
Department of Homeland Security about the funding and the 
personnel that are going to be dedicated to rail security.
    I will close by saying, Mr. Chairman, this is a gigantic 
task, to be able to protect every person that is engaged in 
transportation in this country 24 hours a day, 7 days a week. 
But I think that we have to understand, as we saw in Madrid, 
that our rail system is really a potential target in this 
country. We have done a great deal of work in these other 
areas. We now need to focus on rail security, and that is the 
purpose of this hearing.
    [The prepared statement of Senator Breaux follows:]

 Prepared Statement of Hon. John B. Breaux, U.S. Senator from Louisiana
    Unfortunately we are here today because of the terrible tragedy in 
Madrid, which serves as a reminder of the vulnerabilities common to all 
of the world's rail transportation systems. We have spent billions of 
dollars to upgrade aviation security in the U.S. after the attacks of 
9/11. We have pushed and pushed for port security, and it is finally 
beginning to get attention. It appears we are here today to push again, 
but now for rail security.
    Budgets for rail security, and funding, clearly have lagged far 
behind our aviation programs, this year $4.5 billion is budgeted for 
aviation security, while only $65 million has been set aside for 
preparedness for the Nation's public transit operators, even though 
five times as many people take trains as planes every day.
    The U.S. has hundreds of thousands of miles of railroad and transit 
tracks, which are difficult to protect. We know this, but we also 
recognize that security is a multi-layered system, consisting of 
various types of intelligence, coordination among state, local and 
Federal officials and rail and transit operators, and a number of 
devices and techniques capable of reducing the risks and damage of 
terrorist attacks.
    With the recent attack in Spain, it has become clearer that we must 
focus our resources and efforts on all aspects of transportation 
security. Amtrak, for example has spent millions of dollars on security 
post-9/11, but the ability of organizations like Amtrak or public 
transit providers to make the necessary investment to provide 
protection from a potential attack on our rails is a matter of national 
responsibility.
    Let me be clear, we know that surface transportation cannot be 
protected in the way we protect commercial aviation. Trains and buses 
must remain readily accessible, convenient, and inexpensive. Passenger 
profiling, the elaborate deployment of metal detectors, explosive 
detection equipment, hand searches, and armed guards which are features 
of the landscape at airports, cannot be transferred easily to subway or 
train stations. The delays would be enormous and the costs prohibitive. 
Rail lines, like power lines and pipelines, are extremely difficult to 
protect.
    This does not mean, however, that nothing can be done. 
Transportation operators and security officials in areas that have been 
subjected to terrorist attacks have developed some effective 
countermeasures. Although they cannot entirely prevent terrorist 
attacks--because no security system can stop terrorists from setting 
off bombs in public places--good security measures can make terrorist 
operations more difficult, increase terrorists' likelihood of being 
detected and identified, keep casualties and disruptions to a minimum, 
reduce panic, and reassure passengers in a crisis.
    At issue today, is what has been done to address rail security? In 
October 2001, I chaired a hearing on rail security approximately one 
month after this country was attacked by al-Qaeda. We quickly reported 
out a bill that would have required at that time, the Department of 
Transportation to perform an assessment of risks associated with the 
passenger and freight rail systems, prioritize recommendations for 
security improvements, and make grants to carry out such prioritized 
recommendations. Two and a half years later, we have a Department of 
Homeland Security, but I remain concerned about the lack of attention 
on rail security. Although the Transportation Security Administration 
has moved form DOT to DHS, we still do not have a comprehensive risk 
assessment identifying rail security priorities, and we have not been 
able to get responses from the Department of Homeland Security about 
the funding and personnel dedicated to rail security. The Department of 
Transportation's modal agencies, the Federal Railroad Administration 
and Federal Transit Administration are not responsible for security nor 
are they provided the budgets to address this important issue.
    About one-third of terrorist attacks around the world reportedly 
target transportation. A lot of attention has been focused on aviation, 
but other modes are just as vulnerable, and if we only focus our 
efforts at antiterrorism to aviation, we will set ourselves up for 
disaster in one of the other modes of transportation. Last year, Amtrak 
provided passenger service for more than 24 million riders and public 
transit provided 3.5 billion passenger rail trips. We want to support 
and encourage transit use, so the issue of security is critical.
    Securing cargo from attack is also crucial. Efficient flow of 
intermodal cargo and bulk cargoes are vitally important to this nation, 
however, they also pose risks to our population. For instance, 
railroads in this Nation operate 120,000 miles of railroad tracks, many 
of them traversing, operating under, or over, large metropolitan 
centers. They carry every sort of commodity, including hazardous and 
explosive materials. In 1999, Class I railroads carried close to two 
million carloads of chemicals, and just over 500,000 carloads of 
petroleum and coke. A single train can carry over 120 carloads, and be 
over 1 mile in length. I remember, while attending law school at LSU, 
that the State of Louisiana evacuated the entire Baton Rouge area when 
a chlorine ship sank. How prepared are we to deal with a railroad 
hazmat situation? Are we any better prepared than before September 11?
    I do not bring these issues up lightly, nor do I want to infer that 
our system of rail transportation is not secure and safe. I have faith 
in our transportation system. However, we have to reevaluate our system 
of security, we cannot continue to ignore the new realities--we must 
improve now or subject ourselves to greater regrets later.
    We need to explore what steps the government and the private sector 
have taken to prevent acts of terrorism, and to explore what further 
steps could be taken to protect the public. I look forward to hearing 
from our witnesses and hope that this hearing will help advance this 
issue.

    The Chairman. Thank you very much, Senator Breaux, and 
thank you for mentioning Senator Hollings' abiding and 
longstanding interest and commitment to this issue. He is 
unable to be here because of the death of the former Governor 
of South Carolina. Thank you.
    Senator Allen.

                STATEMENT OF HON. GEORGE ALLEN, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Allen. Thank you, Mr. Chairman.
    As you stated, the recent attacks, the terrorist attacks in 
Madrid, Spain, logically make rail security the focus of the 
attention of this committee. The terrorist attacks indicate 
clearly a susceptibility of in this country our urban subway 
systems, our passenger rail, as well as our freight trains, and 
including our ports, to terrorist attack. The ports are 
diverse; so are our transportation systems. The ports in 
Virginia are different than the ports in New Orleans or in Long 
Beach.
    What we need to do, Mr. Chairman, is assess where we are 
now. We need to adapt, we need to innovate, and we need to 
improve. With you as the Chairman, I know there is always 
action as well. This hearing I think will give us an 
outstanding opportunity to assess where we are, recognize the 
steps that need to be taken as we assess the vulnerability, and 
proceed with policies to improve the security.
    The rail operations as far as freight rail, this hearing 
will I think be of some help in allowing us to recognize what 
much, many of the freight rail systems have already done at 
their own expense, not waiting for the Government to act, and 
they are to be commended. As we look at this, we have to figure 
out, as we did, and as I argued in the aviation area, is let us 
look at new technologies, let us see if there are ways of 
utilizing technologies so that we can effectuate these security 
measures in a way that is the least disruptive.
    One of the great things, our two Senators here from 
Delaware know, is about passenger rail, is it is so much easier 
and pleasant to get onto a train and not have to lug your 
luggage in some other place. We do not want to have it so 
everyone is so clogged up and unnecessarily delayed. But the 
question is are there some technologies, sensors and so forth, 
that might could be utilized as far as whether it is our subway 
systems or America or passenger rail. Aggravating delays are 
not what our goal should be.
    You get to this capital region here, Mr. Chairman, and that 
is a unique situation with the Washington Metropolitan Area 
Transit Authority, which is essential for just not citizens, 
but also the operation of government and the many employees who 
are essential in so many functions of government. We need to 
make sure there is clear communication and that we are taking 
all reasonable necessary precautions.
    In the freight rail industry, I think it is important that 
we both provide the necessary security regulations, but at the 
same time try to regulate practically, which is sometimes a 
difficult thing for the Federal Government to do. I believe the 
American public is much better served with a standard of 
security as opposed to a process that micromanages the industry 
or our ports.
    That being said, Mr. Chairman, thank you for holding this 
hearing after the tragedy and the terrorist attacks in Madrid. 
I believe we have to recognize and assess our vulnerabilities 
and address the high-risk areas of passenger rail as well as 
freight rail infrastructure and do it in a common sense way. I 
look forward to asking some questions from some of our 
witnesses where they are talking about diverting some freight 
from certain areas, which actually could make it not only harm 
commerce but actually make it a more dangerous situation.
    So again, Mr. Chairman, thank you for the hearing. I thank 
all our witnesses for appearing before us today to address this 
serious issue.
    The Chairman. Thank you.
    Senator Lautenberg.

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Thanks, Mr. Chairman. Obviously, this 
hearing could not be more opportune in the wake of what 
recently took place in Spain.
    We have made some significant progress in air travel 
security, but we do not see the same kind of commitment to our 
homeland's surface transportation systems, and I hope, Mr. 
Chairman, this hearing will steer us in the right direction.
    In my home state of New Jersey, it is practically 
impossible to travel to work without using a bridge, a tunnel, 
a railroad, or a subway, and it is imperative that we do 
everything possible to increase the security of our surface 
transportation infrastructure and systems.
    Mr. Chairman, I think we are seeing that wherever people 
gather, there is a potential target. But I do think that we 
have to approach the security problems piecemeal as we 
recognize the particular danger. Warfare has changed. I just 
came back from Iraq. Note that there no longer is a common type 
of warfare gun to gun, face to face. We have remote bombs, 
things that can be put someplace and triggered off by someone 
miles away from the scene. So it makes the problem particularly 
complicated.
    The Administration's eleventh hour announcement to do 
something about rail security was very pleasing. But, it is a 
late effort, focused more on response to terrorist acts and not 
enough in my view focused on prevention of terrorism in 
America. There are many things that we can do to improve 
security in our rail system and they require money for 
security-related capital projects as well as operations. The 
transit agencies identified $6 billion in security needs and, 
to my knowledge, to date the Administration has released only 
$35 million in grants. I am curious to hear from our witnesses 
about the status of the other $65 million that we appropriated 
to them specifically for this purpose.
    Amtrak spends tens of millions of dollars every year on 
security and yet not one dollar in the President's 2005 budget 
is specified for securing our Nation's intercity passenger rail 
service, and the 25 million riders who take Amtrak each year. 
Rather, the Administration chooses to dodge the responsibility 
of Amtrak's funding, recommending only half of what Amtrak says 
it needs to operate the Nation's intercity rail system safely 
and efficiently.
    Amtrak is not even eligible to apply for a grant under any 
Department of Homeland Security grant program. The fact of the 
matter is, the Administration needs to do much more to improve 
the security of our surface transportation systems by 
preventing terrorism up front, not operating solely in the 
reaction mode.
    The decisions we make now could very well come back to 
plague us. An ounce of prevention may save many American lives. 
No equation can tell us where we ought to be or what to do. We 
know that we need to get busy on this and we should not be 
looking for cheap security. That has been the theme of my 
campaign to keep the FAA intact, it is a very significant part 
of the security system of aviation.
    We decided to take the baggage screeners away from the 
private sector and put the 28,000 of them into the Government 
sector. The costs of operating have gone up significantly. But 
don't all of us feel better about it? I do.
    So, Mr. Chairman, I once again thank you for holding this 
hearing and I look forward to hearing from our witnesses.
    The Chairman. Thank you, sir.
    Senator Boxer.

               STATEMENT OF HON. BARBARA BOXER, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Thank you so much, Mr. Chairman. By the way, 
thank you for your testimony at the Foreign Relations 
Committee. I thought it was very important.
    I want to welcome our colleagues today. I have worked with 
them on this issue particularly Senator Biden. He and I have 
served here for a long time. One of the things people think 
about when they think about ``Amtrak'' is the East Coast. I am 
here to tell you we are very busy; there are a lot of Amtrak 
passengers in California, and I will get into that. So this is 
a key issue from East to West.
    Mr. Chairman, with your guidance, we passed an excellent 
bill right after 9/11. It is unfortunate that it did not become 
the law of the land. It dealt with many of the improvements 
that we need to make to our rail system.
    We learned from the aviation attack that if you are not 
ready, the results can be devastating. We have been working to 
improve aviation security. Senator Lautenberg discussed that. 
But, we can and should do more. We have begun to improve port 
security, but we must do more. I look forward to working with 
all of you on these issues.
    Clearly, after Madrid we have to address the vulnerability 
of our rail systems. We needed to before Madrid, now it has 
been brought home to us in stark pictures.
    I was disturbed to read a quote from the Department of 
Homeland Security Under Secretary for Border and Transportation 
Security. He said, quote: ``It is very important that we do not 
simply react to an incident that happens anywhere in the 
world,'' unquote, and that the administration was not seeking 
more funding for train security.
    And he further said, and this I found really shocking: ``An 
aircraft''--and this is a direct quote: ``An aircraft can be 
used as a weapon. A train cannot be hurled through the air in 
the same fashion,'' unquote.
    Obviously, we now see the tragedy that can come from 
attacks on rail. Let me show you a picture. Let us show the 
network of passenger lines here. All these represent different 
lines. Now let us show the freight lines. There are many 
targets of opportunity here! Look at this. This is our U.S. 
freight rail network.
    We need to take steps. I personally think the bill that 
came out of this Committee is a good first step. I would like 
to see us do that again. I have taken a small portion of and 
immediate funds for police for K-9 patrols and put it into a 
bill. I have also asked the GAO to take a look at what the 
Department is doing.
    But again, as Senator Breaux pointed out, it is hard to 
obtain information from Homeland Security. Secretary Ridge 
claims the new initiatives he is going to implement will not 
require new funding. He thinks they can absorb the costs. I am 
surprised to hear that because they were running a tight ship 
prior to the events in Madrid. I am not one who believes you 
throw money at a problem. I am one who believes you take steps, 
and if you do it on the cheap, we will pay the price 
eventually.
    I will put the rest of my statement in the record. 
California has the second highest Amtrak ridership in the 
country. This means a lot to us, and I thank you very much for 
holding this hearing.
    The Chairman. Thank you.
    Senator Snowe.

              STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. Thank you, Mr. Chairman, and thank you for 
holding this hearing today. Obviously it is very timely, very 
appropriate, in the aftermath of the tragic events in Madrid.
    Also, Mr. Chairman, I do think it is appropriate for us to 
be conducting oversight on the issue of rail security because 
of, I think frankly, the lack of a coordinated rail security 
plan. I think many of the questions that need to be raised here 
today obviously, some of them have already been raised by those 
who have spoken previously, but the lack of funding for rail 
security.
    We provide .8 percent of that that is invested in aviation 
security. We spend--certainly we have addressed this in the 
Committee since 9/11. More than $515 million worth of grants 
have been authorized by this Committee, but, regrettably, it 
has not passed Congress.
    So one is that we obviously have to have a plan on rail 
security. Second, I think, Mr. Chairman, we can take measures 
now that I think that would be very appropriate to protect the 
public, for example to have a greater police presence on trains 
and platforms, bomb-sniffing K-9 units. We could have the 
requirement of identification for passengers. Only a quarter of 
all passengers now show any kind of identification.
    I have also introduced legislation that would require a 
pilot initiative to examine X-ray explosive device techniques, 
also technology for examining passenger baggage as well on 
passenger trains. And I understand as a result of a report 
yesterday that the Department of Homeland Security will speed 
up plans for such a pilot program to test whether or not these 
explosive detection technologies can be used to screen rail 
passengers and bags, and that the technology will be tested at 
a commuter rail station.
    So I think we need to know exactly when this pilot program 
will be up and running, where it will take place, what kinds of 
technology will be used.
    In addition, Mr. Chairman, we also, as you mentioned, 
referred to the lack of coordination between TSA and the 
Department of Homeland Security. Again, I think that that is an 
issue that we also need to follow up on. When Congress created 
the TSA, it charged the agency--and I am quoting from the 
statute--``responsibility for security on all modes of 
transportation.'' TSA does have a grant program for port 
security, but it does not have a grant program for rail 
security.
    So I think that obviously we have to address that. Now, I 
understand TSA is in the process of developing an intermodal 
transportation security plan and also a rail-specific security 
plan. I think the question is where is that in this process, 
has it been completed, have we done a vulnerability assessment 
of both rail and freight systems as well? That should be done, 
Mr. Chairman. We should have a plan. In fact, it has been 
indicated, the General Accounting Office indicated last spring, 
that the Secretary of Homeland Security should work with the 
Secretary of Transportation to develop a risk-based plan to 
specifically address rail security, which should establish 
timeframes for actions to protect hazardous materials rail 
shipments.
    The question is whether or not that is being undertaken 
currently, what is being done, when will it be completed, so 
that we can move forthwith on a comprehensive, coordinated, and 
effective plan to implement rail security. I think that is 
certainly something this country deserves and all those who use 
the systems, both on the freight side as well as on the 
passenger side.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Snowe follows:]

  Prepared Statement of Hon. Olympia J, Snowe, U.S. Senator from Maine
    Thank you, Mr. Chairman, for holding a hearing on this Committee's 
oversight of passenger and freight security. And I want to thank Under 
Secretary Hutchinson and our other witnesses for coming to discuss 
issues that have taken on a great deal of urgency since the recent 
attacks in Madrid.
    Since the terrorist atrocities here in America two-and-a-half years 
ago, I have strongly believed that a critical component in our fight 
against terrorism is protecting the security of the length and breadth 
of our transportation system, including our rail system. As Madrid 
tragically reminded us, we must assume that every facet of our 
transportation system is and remains a target for violence.
    Securing our passenger rail system against terrorism is a 
tremendous challenge, an entirely different challenge than securing our 
aviation system. Some 10 million train and subway trips are taken every 
day in America, of which Amtrak carries 66,000 of those passengers -
two-thirds of them through the Northeast Corridor. The Washington Metro 
system alone moves 600,000 people daily. The key question we must 
answer at today's hearing is what--if anything--can we do to prevent 
Madrid-style attacks from occurring on a system so extensive, so open 
and carrying so many people, and what has been accomplished in this 
country since 9/11.
    What we do know is that--compared to other transportation modes--
federal investment in rail security programs since 9/11 has been 
virtually nonexistent. While about $4 billion is being spent this year 
to shore up aviation security, a grand total of $50 million was 
appropriated in domestic-preparedness grants for local transit and rail 
agencies during FY 2004. Several times since 2001, this Committee, with 
my support, has approved legislation authorizing DHS to make $515 
million in grants to upgrade security across the entire railroad 
system. Given the carnage we saw in Madrid earlier this month, it is 
clear that the amount of money we are spending on rail security -just 
0.8 percent of that invested in aviation security in FY 2004--is not 
enough to protect against this kind of an attack.
    While it's generally agreed that the cost and inconvenience of 
airport style screening of every train passenger would outweigh the 
benefits, there are several quick, relatively cheap measures that 
Amtrak, transit and commuter rail agencies can take to protect against 
such an attack that we must implement as soon as possible. These 
include increased police presence on trains and platforms; sweeps with 
bomb-sniffing K-9 units; removal of large fixtures that can hide a 
bomb, like trash cans and vending machines; and requiring picture ID 
with ticket purchase before boarding trains. I will be asking our 
witnesses what DHS and other agencies are doing to help rail 
authorities implement these security measures.
    At the same time we are underinvesting in rail security, we know 
that al-Qaeda and its allies are interested in striking the U.S. rail 
network. In late January, the Federal Bureau of Investigation (FBI) 
issued a bulletin to local law enforcement warning that terrorists 
remained interested in striking U.S. rail lines, which could result in 
a ``substantial loss of life.'' As if that weren't enough, this threat 
was underscored by Iyman Faris, the Ohio truck driver who pleaded 
guilty last May to providing material support to al-Qaeda, told 
investigators that the organization wanted to derail a train near 
Washington. So even if the recent Madrid bombings had not occurred, 
this issue would still be a vital one for Congress and the country, and 
I look forward to hearing how quickly the Homeland Security 
Department's threat and vulnerability assessments with regard to our 
rail system are moving.
    I have long been interested in what we can do to secure our rail 
system. In November 2001 and again in September 2003, I introduced two 
bills in an effort to help us ascend the steep learning curve on 
transportation security we as a country faced in the wake of the 
September 11 terrorist attacks; one that would require the General 
Accounting Office (GAO) to study security innovations and measures on 
foreign rail systems, with an eye toward applying them in the United 
States; and the second that would create a new pilot initiative to 
screen passengers and carry-on baggage on the Amtrak passenger rail 
system.
    These provisions have since been incorporated into several broader 
rail bills--the latest being Senator Hollings' Rail Transportation 
Security Act introduced just after the Madrid attacks--but have yet to 
be enacted. I am pleased that, with regard to the foreign rail security 
study, GAO met with my staff recently and is in the initial stages of a 
study, which I requested along with Representatives Castle and Quinn. 
As GAO begins its work, I suspect that our friends in Europe, Asia, and 
other regions, may be able to provide valuable insight on how we can 
improve our rail transportation security, and I look forward to hearing 
any initial observations GAO might have today.
    The bottom line is that confronting the multitude of transportation 
security challenges in this country requires a ``must-do'' attitude. We 
can't let ourselves off the hook with excuses about what ``can't be 
done.'' We can't afford to take any chances, and we can't afford to 
assume that time is on our side.
    I look forward to hearing how our witnesses intend to carry out his 
critical piece of the homeland security puzzle--securing our Nation's 
passenger and freight rail systems. Thank you, Mr. Chairman.

    The Chairman. Thank you.
    Senator Dorgan.

              STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Dorgan. Mr. Chairman, I know you want to get to the 
witnesses, and I was thinking the two Senators from Delaware 
are probably the only Members of Congress who are million 
milers on the rail.
    I will make two points. One, we have dramatically improved 
aviation security. But we are lacking with respect to trains 
and subways. 14 million people a day ride trains and subways. I 
think this hearing is a very important inquiry into what we are 
doing and how we can improve. The surface transportation 
systems with respect to security have fallen behind aviation 
security. That is what this hearing is about.
    I would like to mention one more point. In addition to 
security dealing with terrorism, we have other issues. As you 
know, in Minot, North Dakota, 2 years ago there was a train 
derailment and anhydrous ammonia cars went off the track. That 
City of nearly 50,000 people was enveloped in deadly anhydrous 
ammonia gas at 2 o'clock in the morning. One died, many were 
injured, many went to the hospital. It could have been a real 
catastrophe. It fortunately was short of that.
    I wanted to mention that the NTSB report took a little over 
2 years. It should not have taken that long, but it was 
released within the last 2 weeks. I will read one paragraph and 
then I will be done. It says: ``The tank cars were pre-1989 
non-normalized steel tank cars. They have a lower fracture 
toughness than normalized steel cars made after 1989. 60 
percent of the pressure tank cars currently in service were 
built before then and were likely constructed from non-
normalized steel.''
    So here is what they say: ``The NTSB is concerned about the 
continued transportation of Class 2 hazardous materials in the 
pre-1989 tank cars.'' They believe that using these cars to 
transport Class 2 hazardous materials under current conditions 
poses an unqualified but real risk to the public.
    I raise only to say that this is a security issue for the 
American people and we need to consider the context of this.
    Again, Mr. Chairman, thank you for holding this hearing. I 
think it is very timely.
    The Chairman. Thank you very much.
    I would like to welcome our two colleagues from Delaware, 
Senators Biden and Carper. I would like to tell them that it 
will be the intention of the Committee to mark up another bill 
before we go into recess and have it ready for floor 
consideration. This time, given the gravity of the situation, 
we would have to, if it is not brought up as a stand-alone 
bill, we would have to consider it as an amendment. I look 
forward to working with the two Senators from Delaware on this 
very important legislation.
    We usually take the oldest and the ugliest first, Senator 
Biden, so we will take you.
    [Laughter.]

                STATEMENT OF HON. JOSEPH BIDEN, 
                   U.S. SENATOR FROM DELAWARE

    Senator Biden. I appreciate that. Thank you very much, Mr. 
Chairman, and I promise that I will not say anything nice about 
you today to have Rush Limbaugh get all excited again.
    [Laughter.]
    Mr. Chairman, let me begin--I am going to break my pledge 
already. Let me begin by thanking you, no malarkey. You made a 
commitment when I was on the floor hollering immediately after 
we appropriated $15 billion to bail out the airlines without a 
lot of discussion in 4 days. I was on the floor and I was 
excited, which is not a surprise. It is something you and I 
occasionally have in common.
    You made a commitment. You are the only one that made it 
and you are the only one in the entire outfit to keep it. You 
said: Joe, do not add this to airlines, do not come up with 
your rail security bill; I promise you I will hold a hearing 
and report out an authorization immediately when we get back. 
And you did it.
    I agree with Senator Boxer. I think the 1.35 you voted out, 
we should vote out right away, flat up. But I understand that 
there is another bill that Senator Carper and I, led by 
Hollings, have introduced, and maybe there is another way you 
want to go. I will leave it to your judgment because I trust 
you.
    I want to remind everybody what happened the last time. You 
did your job. You went to the floor and fought for it. We could 
not get it cleared for discussion or debate on anything for 
over a year and a half. We could not clear it to get it on the 
floor.
    I hope that what has happened now is that we are beyond 
that. I hope we are beyond that.
    Let me ask unanimous consent that my statement be put in 
the record and summarized.
    The Chairman. Without objection.
    [The prepared statement of Senator Biden follows:]

  Prepared Statement of Hon. Joseph Biden, U.S. Senator from Delaware
    Thank you, Mr. Chairman, for the opportunity to speak here this 
morning before your committee.
    The security of our Nation's rail system, and especially our 
passenger rail system, is on everyone's mind in the wake of the 
horrific events in Madrid.
    As you listen to testimony here today, I urge you and the members 
of this committee--we cannot wait. We cannot let the perfect be the 
enemy of the good.
    There is much we can learn about how to secure the very open rail 
system in this country.
    But we do know a lot about the basics of physical security, the 
things we can do right away to make that system safer.
    More dogs to sniff for explosives. More police officers, better 
lighting, closed-circuit television surveillance, fencing--nothing 
fancy or experimental, just resources to do what we already know can 
work.
    That is one thing we can do throughout the system to make our 
citizens safer.
    But the other top priority, Mr. Chairman, has to be securing the 
most vulnerable and most valuable targets.
    We know that the targets with the highest payoff for terrorists are 
the ones that have the greatest potential for both catastrophic levels 
of casualties and stunning symbolic effect.
    And the six tunnels under New York City, heading into Penn Station, 
are just that kind of target. The newest was built in 1910, long before 
the kinds of threats we are discussing today could even be imagined.
    And such a target is the tunnel that runs right here under Capitol 
Hill--under the Senate Offices, the Supreme Court of the United States, 
and the House Office Buildings.
    It wouldn't take a high-tech explosive, it wouldn't take a dirty 
bomb, to do the kind of massive damage that terrorists want.
    It would just take a small explosion on a freight train carrying 
some everyday hazardous cargo such as chlorine, and another date would 
join December 7 and September 11 in infamy.
    So let's do what we know needs to be done to make those tunnels 
secure. We knew this years ago. To wait another day would be wrong.
    We have talked about this issue long enough.
    You and I started down this path over two years ago, in a late 
night session on the Senate floor debating fifteen billion dollars of 
assistance to the airline industry in the immediate aftermath of 9/11.
    Twelve billion for financial assistance, three billion for security 
needs.
    I came to the floor with Senator Carper and others, and we had an 
amendment to that legislation, an amendment that would have given 
Amtrak the money to begin the process of securing the system--from the 
tunnels on the Northeast Corridor to stations and yards around the 
Nation.
    You asked me to withhold that night, Mr. Chairman, not to delay 
passage of that important legislation. And I did.
    You gave me your word that you would report a bill out of this 
committee as soon as possible. And you did.
    But that was over two years ago. I don't think either one of us 
thought we would be here, at this point, still talking about rail 
security, with virtually nothing done about it.
    For all of the last Congress that bill, which simply authorized 
$1.3 billion for Amtrak security upgrades, was blocked here in the 
senate. Someone on your side of the aisle had a hold on that bill, Mr. 
Chairman, a secret hold, that blocked passage of a bill that simply 
authorized funds for Amtrak security.
    We know that passenger rail has been identified as a potential 
target. The FBI told us that last year.
    We have seen the devastation that can be wrought when passenger 
rail is hit.
    On any given day, Mr. Chairman the number of people moving in and 
out of Penn Station in New York is the equivalent of over a thousand 
Boeing 767's--if they were in airplanes instead of trains, they would 
be protected by a new security system.
    But the Congress has failed, utterly failed, in its responsibility 
to make passenger rail more secure.
    And the Administration, and the Department of Homeland Security, 
have stood quietly by, asking for no resources to protect passenger 
rail, taking no action.
    I thank you for the opportunity to speak here today, Mr. Chairman, 
and I thank you for this hearing. But I must say that I hope this is 
the last time we sit down to talk about rail security before we take 
action.
    We ought to have a passenger rail security bill rushed out the 
doors of Congress and onto the President's desk, just the way we did 
for the airlines.
    That it took another tragedy to move us to action is a sad 
commentary, Mr. Chairman.
    I am writing today to Majority Leader Frist, and asking him to make 
rail security legislation the top priority for the Senate floor when it 
comes out of this committee.
    We may not know everything there is to do, Mr. Chairman, but we 
know how to get started.
    I know we can count on you to get legislation moving so we can make 
our rail system more secure.
    Thank you, Mr. Chairman.

    Senator Biden. Mr. Chairman, you and I both know, because 
we have spent a lot of time on this issue, there is no easy 
answer to this one. It is not like sealing the cockpit doors or 
putting security folks, at a check-in points. Let us set goals 
and think about how al-Qaeda and the international terrorist 
organizations function.
    The reason they picked the Trade Towers and not a 20-story 
building in downtown Wilmington, Delaware, is because 
symbolically and practically, with non-lethal technology, they 
could render us apparently helpless at the moment and kill 
thousands upon thousands of people. That is the modus operandi, 
that is the M.O. of these guys.
    There is something we can do immediately, that would have 
the benefit of putting people to work. We can redo the tunnels. 
Now, my friend from North Dakota pointed out what happened when 
ammonium chloride, derailed in the wide-open prairie near a 
town of 50,000 people. The same exact thing happened in the 
Baltimore tunnel, built in 1869. Remember, my friend from 
Virginia, 18 months ago there was a fire in that tunnel and it 
shut down all of Baltimore. The entire Inner Harbor shut down.
    That tunnel is solid granite, no escape, no ventilation, no 
lighting, no switching, no security. As we speak today, in 
Frank Lautenberg's area 357,000 people are going to be 
underground in New York City in six tunnels, the most recent of 
which was built in 1910.
    There are tragedies and there are tragedies. Can we stop a 
Madrid occurrence somewhere between here and California over 
the road? Probably not with certainty. But can we stop an 
explosion of incredible consequence underneath the Supreme 
Court of the United States as we speak today?
    Where do you think these guys are going? If you have a 
tunnel that was built in 1904 it needs to be inspected. Tom and 
I went out to the Philadelphia Airport. It turned out that the 
guy running the security outfit there was a convicted felon. He 
also hired 37 felons who were checking people going through 
security. We went up and witnessed this.
    Literally, ask them to take you through the tunnel on a 
walk-through. What do you think would be the consequence of an 
explosion in that tunnel? It would blow up the Supreme Court of 
the United States of America or a House office building. Why do 
we think they would only send a plane into the Capitol?
    The point is this. New technologies matter and there are a 
lot of things we can and should be looking at. But certain 
things are just rock simple. We should fix the tunnels now, 
number one. You voted that out once already.
    Number two, in terms of commerce, I am less concerned about 
affecting commerce overall on the margins than I am about 
security. We shut down Reagan Airport. We do not let private 
planes fly into Reagan Airport any more.
    Senator Allen. I do not agree with that.
    Senator Biden. Well, you may not agree with that. I agree 
with that. It is above my pay grade to know whether that is 
necessary. But I want to tell you something. It will make 
sense.
    What happened when the Valdez went down? We said we need 
double hulls on tankers. Why do we not require that on new 
construction tankers, why do we not require greater safety? 
There are basic things that we have to do. I will end with 
this. Mr. Chairman, there are basic, simple things like Senator 
Snowe talked about: station dogs on the highest commuter rail 
systems, just walking up and down and sniffing. It is a 
deterrent and it may work.
    But the idea that we are going to stop everything, I hope I 
do not hear on the floor. I hope I do not hear anyone on the 
floor arguing with me when I am, or others are saying that we 
need to do something. You cannot guarantee rail security. But 
you can guarantee that a catastrophe of the proportions along 
the lines of 9/11 does not happen if we are smart.
    I know you know this and I know you believe it. The agency 
has told us for 2 years that rail is a target. Please, do what 
you did before, let all of us go to the floor and say: Act now.
    The Chairman. Thank you very much, Senator Biden. I want to 
assure you again we will mark up a bill and have it ready, with 
your and Senator Carper's input, and do everything we can to 
give it the priority.
    Senator Biden. I trust your judgment, Mr. Chairman. There 
is no right answer.
    The Chairman. I am somewhat confident that the 
Administration recognizes the need for this as well. We may 
have some differences. I hope we can work them out.
    Senator Biden, I know you have other responsibilities and 
you cannot stay. We appreciate always your enlightening and 
entertaining testimony.
    Senator Biden. Well, I know you love saying that, John. I 
find you entertaining on the floor too when you explode. But I 
want to stay for my younger, better looking colleague and hear 
what he has to say. I may learn something, and then I will 
leave. But thank you.
    The Chairman. Thank you, sir.
    Senator Carper, welcome. Thank you for your, and along with 
Senator Biden, deep involvement in this issue.

              STATEMENT OF HON. THOMAS R. CARPER, 
                   U.S. SENATOR FROM DELAWARE

    Senator Carper. Thanks, Mr. Chairman. We appreciate your 
championing this cause and holding this hearing. And to each of 
our colleagues who are here and particularly those of you who 
have spoken, we are grateful.
    Senator Biden alluded to a tunnel in Baltimore that was 
shut down last year because of a fire. He and I came through 
that tunnel today on a train to Washington, as we do many 
mornings, and we will go back home through that tunnel tonight. 
Today the number of people who will be using trains to travel 
from Washington to New York exceeds significantly the number of 
people who will be traveling by airplane between Washington and 
New York.
    Yesterday I did something I do not often do. I took the 
train and went the other way from Delaware and I went to New 
York. I could not believe the tumult of people coming in and 
out of Penn Station as I prepared to catch the 5 o'clock train 
to head for home. I am told that there are more people that are 
in and out of Penn Station to take the subways and the trains 
at any given time than in all three airports combined in New 
York City.
    I share those numbers and those thoughts with you today. 
This is a real concern. It is a concern to us because we ride 
the train a lot and we have a lot of our constituents who do. 
But in Delaware, in the Northeast Corridor, and in other places 
where train passenger service is growing, particularly 
California, the West Coast, it is a concern as well.
    In the weeks and the months after September 11, we took 
unprecedented steps to secure our Nation's airlines, and I 
think for good reason and to good effect. We all know about the 
added security, the baggage checks, the passenger screening, 
because we all see it every time we go to the airport. Let me 
say, I hope we do not end up, as we move to strengthen security 
around train stations and passenger rail, see people remove 
their shoes in order to get onto a train. But we can do better 
than we have done and we need to.
    We have not been as diligent when it comes to protecting 
our railways, which is even more alarming given the number of 
people who travel by rail. This year some 24 million people 
will ride Amtrak, 24 million. All told, there are about 3.4 
billion passenger trips in this country this year. Yet we have 
done very little to protect rail from terrorist attacks. We 
have created an Achilles heel, I believe, in the Nation's 
efforts to secure our transportation system.
    Amtrak, freight railroads, and local transit agencies are 
doing what they can, but the Federal Government--that is us--
the Federal Government has not done its fair share, and it is 
time for us to stand up and for us to assume that 
responsibility.
    We come before you today, I come before you today, as a 
member of the Government Affairs Committee, which oversees the 
Department of Homeland Security. During the creation of that 
agency a year or so ago, I along with several of my colleagues, 
including you, Senator McCain, Senator Hollings, and Senator 
Biden, tried to provide funds for Amtrak to secure its trains, 
its facilities, and its infrastructure. But the language that 
we included in the authorization bill in creating the 
Department of Homeland Security was stripped in the middle of 
the night and subsequent efforts to provide for specific 
funding for rail security have been blocked.
    At various hearings with the Homeland Security officials, 
including Secretary Ridge and Deputy Secretary Loy, I have 
consistently urged that the administration address our rail 
security needs. Time after time I have been told that the 
Department understands these needs and is looking at ways to 
secure our rail system.
    Secretary Ridge, for example, said during his confirmation 
hearing last year, and I am going to quote: ``Amtrak and 
freight rail are at considerable risk of terrorist attack,'' 
close quote. He has also stated that the Transportation 
Security Administration was working on a number of its own 
initiatives to help identify and mitigate security threats.
    Likewise, Deputy Secretary Loy in November of last year 
acknowledged the danger posed to our rail system and said rail 
would need to be a part of transportation security plans that 
his Department apparently is preparing.
    Despite these assurances, however, I have yet to see much 
progress. Maybe one of the good things coming out of this 
hearing today was an announcement yesterday from the Department 
of Homeland Security that they are at least piloting an effort. 
So something good has come out of the tragedy in Madrid and I 
think out of the holding of this hearing today.
    But in a lot of ways our Nation's rail infrastructure is 
probably as vulnerable today as it was on 9/11. To my 
knowledge, the administration has not undertaken a coordinated, 
systematic assessment of the risks to our passenger and freight 
railroads. No funds other than those granted to Amtrak to 
reimburse security costs immediately after 9/11 have been made 
available for security upgrades.
    In fact, when my staff recently asked Homeland Security 
officials about rail funding, the Administration said it was 
not sure Amtrak was even eligible for money through any 
existing grant program.
    Now, the Administration responded to the Madrid attacks by 
saying that it had provided about $115 million to address rail 
security. Going back to what I think Senator Lautenberg said, 
to my knowledge only about $35 million of that money has 
actually been made available, and then only to local transit 
agencies and not to Amtrak and not to freight railroads.
    As a member of the Banking Committee, I know we need to do 
more to protect our subways and our metro lines, too. No one is 
saying that we do less. But we should not be ignoring Amtrak, 
its passengers, or the need to secure the hazardous materials 
that travel over our freight lines, as Senator Dorgan alluded 
to before.
    Of course, President Bush's budget for this year, like 
those he has proposed in previous years, is silent on rail 
security. The budget we just passed in the Senate includes no 
specific rail security money. The Department of Homeland 
Security announced a handful of new security initiatives 
yesterday. We welcome those, but it is unclear how they will be 
funded and how aggressively they will be pursued.
    I believe the recent tragedy in Madrid has opened the eyes 
of many of our colleagues to the security risks that face our 
railways today. I would urge them and you and others and the 
Department of Homeland Security to step up our efforts to 
improve the security of our rails.
    My friend Joe Biden and I have joined Senators Lautenberg, 
Hollings, and Senator Snowe, in introducing the Rail 
Transportation Security Act, which will help us begin to 
address some of the rail security needs. I think we have seen 
this show before, but the need, the urgency, is greater than 
ever. This legislation would order the Administration to 
undertake a risk assessment of rail security threats and devise 
threats that railways can take to protect passengers, 
facilities, and infrastructures around the country.
    This is what we are asking for, assess the risk, set some 
priorities with respect to addressing those risks. Look at the 
rest of the world, what are other countries doing to address 
these kinds of concerns of their own?
    Well, there are many challenges in front of us. We all know 
that. Certainly, from a feasibility perspective we cannot 
expect to secure all the rail lines or screen all the rail 
passengers. But we should be taking a serious look at ways that 
we can help railroads, States, cities, and transit agencies to 
do what they can do to improve efforts, such as hire more 
police or those bomb-sniffing dogs. They work.
    Many rail operators, especially Amtrak, barely have enough 
resources to operate from day to day. We cannot expect them to 
shoulder 100 percent of their security costs, just as we do not 
expect the airlines to shoulder 100 percent of theirs.
    In closing, I hope the Committee today will ask tough 
questions of our witnesses and ascertain the true nature and 
status of the Administration's rail security efforts. We 
received a lot of assurances from the Administration. I am 
sorry to say we have seen very little action. But I hope 
today's hearings can help build momentum to strength the 
security of our Nation's rail system.
    [The prepared statement of Senator Carper follows:]

Prepared Statement of Hon. Thomas R. Carper, U.S. Senator from Delaware
    I'd like to thank the Commerce Committee for inviting me here today 
to discuss something that is a serious concern to millions of 
Americans, especially in light of the tragedy that occurred in Madrid, 
Spain a few weeks ago. As a daily Amtrak passenger and a former member 
of the Amtrak Board of Directors, I have known for some time about the 
unique security needs of our Nation's rail transportation system.
    Today, nearly 25 million passengers ride Amtrak each year and there 
are nearly 3.4 billion rail transit trips annually. With that in mind, 
I have worked since September 11, 2001 with a number of my colleagues, 
including you, Mr. Chairman, and Senator Hollings, to improve the 
security of our Nation's passenger, freight and commuter railroads.
    We are mindful every time we visit an airport or board an airplane 
of the work we have done in the years since September 11th to make air 
travel safer in this country. We have also made strides in other areas, 
such as port security. I firmly believe that we have an obligation to 
ensure that Americans who ride trains are as safe as those that travel 
by air or any other mode of transportation. Likewise, citizens across 
America deserve to know that the thousands of rail shipments carrying 
hazardous materials that pass through their communities on a daily 
basis are as secure as is reasonably possible. Amtrak, freight 
railroads, and local transit agencies are doing all that they can to 
strengthen the security of their systems, but the Federal Government 
must do more to help them, as we have done with other transportation 
sectors.
    I come before the Committee today as a member of the Governmental 
Affairs Committee, which has general oversight over the Department 
Homeland Security. During the creation of the Department and through 
numerous oversight hearings, I've attempted to bring the issue of rail 
security to the attention of my colleagues. In hearings with Homeland 
Security officials such as Secretary Ridge and Deputy Secretary Loy, 
I've urged that they consider the needs of rail security and have 
sought to understand what rail security efforts are ongoing at the 
Department.
    On the legislative front, I cosponsored Senator Hollings' original 
rail security measure in the 107th Congress and worked to support his 
efforts with Chairman McCain to pass the Rail Security Act of 2001. 
Following this, I successfully offered a rail security amendment to the 
bill creating the Department of Homeland Security that was reported out 
of Governmental Affairs. That language was ultimately dropped from the 
bill before final passage, despite my opposition to its removal. Since 
then, I've introduced ARRIVE-21 with Senators Hollings and Collins, a 
comprehensive rail infrastructure financing package and Amtrak 
reauthorization, which includes funding for rail security. I've also 
cosponsored a separate effort, S. 2216, the Rail Transportation 
Security Act, introduced last week.
    Time after time, I've been told that the Department understands the 
real security needs of our rail transportation system. During his 
confirmation process in January 2003, Secretary Ridge stated;

        ``I believe that Congress will need to address Amtrak and 
        freight rail security. Amtrak and freight rail are at 
        considerable risk to terrorist attack. Moreover, state and 
        local police and fire officials have confirmed their limited 
        ability to respond to a major attack. . . . I look forward to 
        working with Congress to support legitimate security 
        enhancements such as better fencing, enhanced lighting, video 
        surveillance for stations, bridges and tunnels, and 
        implementing measures to screen passengers and baggage for 
        dangerous weapons and explosives.''

    Additionally, the Secretary acknowledged the role that the 
Department has in ensuring the security of Amtrak, saying;

        ``I think there is a need for us to take a look at the 
        legitimate security enhancements with Amtrak, and obviously, 
        through whatever appropriation measure that the Congress may be 
        supportive of in the future . . . and if you don't fund it, 
        then we will have to work with you to find some other ways to 
        help them on a priority basis deal with most problematic 
        vulnerabilities. I can't tell you what they are, but we need to 
        do a vulnerability assessment and then set priorities and then 
        go about addressing them.''

    Secretary Ridge has also stated that the Transportation Security 
Administration was working on a number of its own initiatives. He said 
they were considering installing Radiological Dispersal Devices (RDD) 
at key freight rail locations and were addressing the movement of bulk 
hazardous materials through a ``chlorine initiative'' pilot project. He 
also said they had been developing a Rail Inspection Guide for use by 
rail employees in identifying security risks. I urge my colleagues to 
inquire today as to the status of these efforts.
    At his confirmation hearing this past November, Admiral Loy also 
acknowledged our Nation's rail security needs and said rail would need 
to be a part of the transportation security plan that Homeland Security 
is apparently developing. At that same hearing, however, he hinted that 
it probably is not possible to make rail as secure as the aviation 
sector, saying we should focus more on how to recover from an attack 
than on how to prevent one.
    While this statement is alarming, Admiral Loy makes a valid point. 
It is not possible, nor necessarily desirable, to implement exactly the 
same kinds of security measures at train stations as we have at 
airports. However, there is much we can do and I have not seen a 
concerted effort at Homeland Security to strengthen rail security using 
all available and reasonable means. In a lot of ways, our Nation's rail 
infrastructure is probably as vulnerable today as it was on September 
10, 2001.
    To date, the Department of Homeland Security has been unable to 
tell me the amount of resources and the number of staff that are 
specifically dedicated to rail security. To my knowledge, they have not 
undertaken a coordinated, systematic assessment of the vulnerabilities 
of our national passenger and freight railroads, beyond ad hoc local 
efforts. In addition, no funds other than those granted to Amtrak to 
reimburse security costs directly associated with 9111 have been made 
available for increased intercity passenger rail security. In fact, 
when my staff recently asked Homeland Security officials, they said 
that they were not sure if Amtrak was even eligible for funds from the 
Department through any existing grant program.
    On a related point, the $100 million for life safety improvements 
given to Amtrak through the U.S. DOT for the New York rail tunnels in 
2002 is primarily for safety improvements, not security, as the 
Administration has claimed. Indeed, we still have $775 million in unmet 
safety improvements for Amtrak's Northeast Corridor tunnels. Much has 
also been made of the $115 million Homeland Security has made available 
for transit security grants. It is my understanding, however, that only 
$35 million of this $115 million has actually made it out to local 
transit agencies. In addition, this money does nothing to address 
Amtrak and freight rail security.
    President Bush's FY 05 budget, like its predecessors, requests no 
specific funding for rail security efforts. The budget we passed just 
before recess also includes no specific rail security money. The 
Department of Homeland Security announced a handful of new rail 
security initiatives just yesterday but it is unclear right now how 
they will be funded and how aggressively they will be pursued.
    I believe the recent tragedy in Madrid has opened the eyes of many 
of my colleagues to the security risks that our railways face. I urge 
them and the Department of Homeland Security to step up efforts to 
improve the security of our railroads. The first step should be to 
begin conducting comprehensive risk assessments of our major rail 
assets, as Secretary Ridge has already endorsed. We should also have 
TSA study the possibility of selected screening of rail passengers. 
Secretary Ridge stated before the Governmental Affairs Committee that 
TSA is already engaged in such a study, saying;

        ``TSA is working with Amtrak to identify requirements for a 
        test project using screening technologies as designated 
        locations. The team's effort is focused on identifying cost 
        effective technologies that can be implemented with minimum 
        impact on the passenger flow and efficiency of rail operations. 
        . . . DHS and TSA will continue to work closely with the rail 
        carriers to implement appropriate countermeasures and 
        technologies that will ensure the security of the tunnels and 
        bridges on Amtrak's northeast corridor and in Washington, D.C. 
        area specifically.''

    However, I'm unaware of the status of this effort and understand 
that a pilot screening project at a station near Washington, D.C. has 
been indefinitely postponed.
    We need to begin a serious effort to help railroads, states, 
cities, and transit agencies pay for key rail security efforts, such as 
more police and bomb sniffing dogs. Many rail operators, especially 
Amtrak, barely have enough resources to operate from day to day. We 
can't expect them to shoulder 100 percent of their security costs, just 
as we don't expect the aviation industry to cover all of its security 
costs.
    S.2216, the Rail Transportation Security Act, incorporates many of 
these suggestions and provides dedicated resources for rail security to 
the DHS. I urge its quick review and adoption by the Senate.
    I hope the Committee today will ask tough questions of our 
witnesses and attempt to ascertain the full scope and status of the 
Department of Homeland Security's rail security efforts. We have 
received a lot of assurances, but I believe we've seen very little 
action. I hope today's hearing can help us build momentum for efforts 
to strengthen the security of our rail system.

    The Chairman. Thank you very much. I thank both of you for 
being here. Thanks again.
    Senator Biden. Thank you, Mr. Chairman.
    The Chairman. I look forward to working with you.
    Our first panel is: the Honorable Asa Hutchison, the Under 
Secretary for Border and Transportation Security, U.S. 
Department of Homeland Security; the Honorable Allan Rutter, 
who is the Administrator of the Federal Railroad 
Administration; the Honorable Robert Jamison, Deputy 
Administrator, Federal Transit Administration; and Mr. Peter 
Guerrero, who is the Director of Physical Infrastructure Issues 
at the U.S. General Accounting Office, who is accompanied by 
Mr. Norman Rabkin, who is the Managing Director for Homeland 
Security at the U.S. General Accounting Office.
    Welcome back, Secretary Hutchinson. I want to thank you for 
all your efforts on this issue. I want to thank you for 
appearing here today. I want to thank you for your visit to my 
State of Arizona. I want to thank you for your renewed 
commitment to the security of our borders. I want to thank you 
for your active commitment to that and your understanding of 
the enormous challenges that we face all along our border, and 
I appreciate the actions that the Department of Homeland 
Security and the President of the United States have been 
taking on this very humanitarian and terrible issue.
    Thank you and welcome, Secretary Hutchinson. It is nice to 
see an old friend.

       STATEMENT OF HON. ASA HUTCHINSON, UNDER SECRETARY

            FOR BORDER AND TRANSPORTATION SECURITY,

              U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Hutchinson. Thank you. May I proceed?
    Mr. Chairman----
    The Chairman. Pull that a little closer, Mr. Secretary.
    Mr. Hutchinson. Mr. Chairman, Members of the Committee: It 
is a pleasure to be here today, and thank you, Mr. Chairman, 
for your comments. I did enjoy my recent trip to Arizona and 
hope we have some great success there. I am grateful for your 
leadership and the Committee's leadership on efforts to enhance 
passenger rail and mass transit security. Obviously, the recent 
attacks against passenger rail in Madrid on March 11, but also 
in Moscow on February 6, gives us constant reminders that the 
global threat of terrorism remains and there is much to be 
done.
    I would emphasize that, as was pointed out earlier, there 
has been historical threats to rail and transit. We do not see 
any recent indicators that indicate that the threat level 
should be raised or there is enhanced possibility of an attack. 
But in the months preceding these attacks overseas the 
Department and others have continued to cooperate, taking 
significant steps to address the vulnerabilities that we see in 
the rail and transit systems.
    After the attack in Madrid, we immediately sent out two 
information bulletins that provided intelligence to our transit 
operators, our rail operators, suggested specific protective 
measures. We hosted a series of telephone conferences that 
included over 250 State and local participants and transit 
authority participants, getting both information as to what 
they were doing and the level of preparedness and also offering 
assistance and the intelligence that we had at the time.
    I also wanted to commend the mass transit and rail industry 
and the State and local governments for the immediate action 
that was taken to enhance security immediately following the 
attacks. It was a natural step to take in order to increase the 
uniform patrols, the explosive detection teams, increase 
surveillance, and the public awareness campaigns in the 
passenger rail and mass transit environment. In addition, I 
would emphasize the cargo rail companies continue to operate at 
alert level 2, which increases their security on a day by day 
basis.
    From the Department's perspective, we recognize that there 
is a Federal role to play in transit authority and this 
authority has been given by the Congress of the United States. 
Through the TSA and our Information Analysis and Infrastructure 
Protection Directorate, as well as in cooperation with the 
Department of Transportation, criticality assessments have been 
conducted in the high intensity urban transit arena. This has 
allowed us to identify and allocate $115 million in targeted 
security grants through our Office of Domestic Preparedness.
    Through TSA, we are also coordinating intelligence 
information and threat-sharing with the railroads and the 
Public Transportation Association. In the area of preparedness 
and response, we have developed a number of security exercises 
that have addressed potential gaps in anti-terrorism training 
among rail personnel. We have had an exercise at the Naval War 
College in Newport, Rhode Island, in which State and local law 
enforcement transit authorities were invited to participate.
    In addition, as was noted, yesterday Secretary Ridge 
emphasized additional steps that the Department will be taking. 
First, we intend to engage industry and State and local 
authorities to establish baseline security measures. This is 
based upon the best practices, the common sense approach that 
is taken in a higher threat environment. In addition to this 
baseline, we will have additional measures that will be taken, 
layered measures based upon threat-specific intelligence that 
we receive, or going to a higher threat level of orange.
    In addition, whenever we want to move to a higher level of 
security we can issue security directives and technical 
assistance, and this willingness to use this authority 
represents a substantial increase in the Federal leadership 
role in rail and mass transit security. We expect this baseline 
to be considered interagency within 2 weeks. The Department of 
Homeland Security will share the enforcement responsibilities, 
ensuring compliance, with the Department of Transportation.
    The second aspect of the initiative is threat response 
support capability through the development of rapid deployment 
mass transit K-9 teams that would be available whenever the 
need is there, when the threat is there, identified 
intelligence for a particular concern and that we can offer 
assistance.
    In addition, we will be deploying a transit inspection 
pilot. This is not to mirror the solution in the aviation 
industry, but it is to develop our expertise so that when we 
have a particular transit system or particular threat then we 
can have the experience to deploy a more comprehensive 
screening of luggage and carry-on bags and personnel.
    In addition, we will engage more comprehensively in 
education and public awareness. The thousands and millions of 
transit passengers each day provide us the best protection. We 
can increase to awareness and education. Through our Federal 
Law Enforcement Training Center, we are enhancing our training 
of transit authorities' and the law enforcement personnel to 
know what to look for and to assist them in their education 
awareness programs.
    Finally and very importantly is the research and 
development component. We need to have a new generation of 
technology that is applicable to the rail and transit 
environment, that is more mobile, that can look through the 
passenger areas without intense personal screening in order to 
detect the presence of explosives. Is this on the horizon? We 
will wait and see, but we are investing money in research and 
development, increasing this effort. $5 million will be going 
out in a broad area announcement very soon in order to partner 
with private industry to develop this new generation of 
technology.
    Those are some of the things that we are working on in 
addition to the traditional roles that we have at the 
Department. We look forward to working with this Committee and 
look forward to the discussion today.
    [The prepared statement of Mr. Hutchinson follows:]

 Prepared Statement of Hon. Asa Hutchinson, Under Secretary for Border 
      and Transportation Security, Department of Homeland Security
    Good morning Mr. Chairman, Senator Hollings, and Members of the 
Committee. It is my pleasure to be here today to speak with you about 
the Department's ongoing and planned efforts to enhance Passenger Rail 
and Mass Transit security.
    The tragic bombings that occurred in Madrid on March 11, and those 
that occurred in Moscow on February 6 were terrible reminders that the 
war 'on terror is not yet over and that much work remains to be done. 
Our prayers and our deepest sympathies are with the families and 
friends of the hundreds of innocents who died in these attacks, and 
with those for whom the road to recovery will be long and painful. And 
our resolution remains firm. We will not tolerate these sorts of 
cowardly acts, nor will they deter us from support of the liberties 
that make our Nation great.
    I would like to begin by stating that we do not have any specific 
indications that terrorist groups are planning such attacks in the U.S. 
Furthermore, in the months preceding the Madrid and Moscow incidents, 
the Department, in close cooperation and coordination with our partners 
at the Department of Transportation, and state and local governments 
and transit and rail operators, has taken a number of steps to respond 
to vulnerabilities in the rail and transit systems and improve our 
security posture against similar attacks.
    In the immediate aftermath of the Madrid attacks, the Department 
released two Information Bulletins on the Madrid Bombing to the 
transportation sector, state and local homeland security officials, 
public safety community, and law enforcement. The Bulletins provided 
specific indicators of such operations and suggested protective 
measures. It is important to note that over the last year, the 
Department has issued a number of such bulletins to rail and transit 
operators. We have long been aware of the possibility of such attacks 
and have sought to provide as much information as possible to those at 
the state and local level who are responsible for keeping the trains 
running on time, so to speak.
    After Madrid, the Department also hosted a National Conference Call 
with over 170 participants from federal, state and local public safety 
communities, all State and Territorial Homeland Security Advisors, and 
officials from 50 major urban areas. In addition, we hosted a 
conference call with approximately 75 participants from Association of 
American Railroads (AAR), American Public Transportation Association 
(APTA), and the Surface Transportation Information Sharing and Analysis 
Center (ST-ISAC), and representatives from the Nation's largest transit 
systems. We used these calls to communicate current information on the 
attacks, obtain an assessment of the level of preparedness of transit 
and rail systems in the U.S., and determine what short-term measures 
ought to be taken to reduce vulnerabilities across our Nation's transit 
and rail systems.
    It is also very important that we analyze carefully what happened 
in Spain two weeks ago and apply lessons learned in order to deter and 
prevent similar attacks in the United States. To that end, DHS is 
working closely with Spanish authorities to examine available 
information, and generate ``lessons learned'' on how these terrible 
attacks transpired for application here in the U.S. In addition, the 
Department continues to share intelligence and other information with 
state and local authorities, as well as with the private sector, to 
ensure vigilance in light of these incidents.
DDS Initiatives
    Prior to the attacks in Moscow and Madrid, agencies within the 
Department were already working with their Federal and state 
counterparts to bolster the security of rail and mass transit systems 
for the approximately 11.3 million passenger trips each weekday. DHS 
efforts have focused on information sharing, awareness, prevention, 
response and recovery to a potential terrorist rail attack in the 
United States.
    Over the last two years, DHS and DOT have worked with transit and 
rail operators to improve security significantly. TSA, the 
Infrastructure Protection Division of the Information Analysis and 
Infrastructure Protection (IAIP) Directorate, and DOT's FRA and FTA 
have conducted criticality assessments of rail and transit networks 
operating in high-density urban areas. As a result of these 
assessments, these systems produce robust security and emergency 
preparedness plans.
    Between FY 2003 and this year, DHS has used information from these 
assessments to allocate $115 million to high-risk transit systems 
through the Urban Area Security Initiative (UASI) in the Office of 
Domestic Preparedness. Sixty-five million dollars ($65 million) was 
allocated in Fiscal Year 2003 and $50 million was allocated in Fiscal 
Year 2004. Grantees may use these funds for such expenses as the 
installation of physical barricades, video surveillance systems, motion 
detectors, thermal/IR imagery and chemical/radiological material 
detection systems, integrated communications systems and for prevention 
planning, training and exercises, among other things.
    The Department is coordinating information and threat sharing 
through the Information Sharing and Analysis Center in partnership with 
the Association of American Railroads and American Public 
Transportation Association. As part of the significant partnership that 
the Department has developed with AAR and the ST-ISAC, TSA hosts ST-
ISAC representatives at the Transportation Security Coordination Center 
(TSCC) in Virginia.
    TSA has partnered with FTA on its ``Transit Watch'' Program, and is 
coordinating with FRA to develop a rail system inspection guide for use 
by rail law enforcement and security personnel to inspect trains for 
explosives and other threats. The BTS Federal Law Enforcement Training 
Center has provided security training to rail and transit operators; 
and TSA has distributed educational information to transit system 
employees on how to recognize and respond to potential terrorist 
attacks.
    TSA has also hosted numerous security exercises to bring together 
rail carriers, Federal and local first responders, and security 
experts, to address potential gaps in antiterrorism training among rail 
personnel. One such security exercise occurred at Union Station 
Washington, DC in July 2003 and involved stakeholders, emergency 
responders and enforcement agencies all working to implement the 
station's Emergency Response Plan. The lessons learned from this 
exercise are being utilized to enhance rail security for the entire 
Northeast corridor.
    In another security exercise, DHS, through TSA, co-partnered with 
the Naval War College Gaming Department to conduct the exercise game, 
``Operation Heartland'' at the Naval War College in Newport, Rhode 
Island on January 27-28, 2004. Operation Heartland was designed to 
exercise and evaluate security awareness, prevention, response and 
recovery of the national transportation system to a security incident. 
Participation included eleven Federal agencies, state and local 
agencies from Iowa and Illinois, Amtrak, and representatives from 
private industry including BNSF Railroad, Union Pacific Railroad, and 
Ingram Barge Company.
State/local/private sector actions
    In addition to the Federal Government's actions and initiatives, I 
would be remiss if I didn't commend the mass transit and rail industry, 
and State and local governments, for their proactive response in 
addressing homeland security issues, both pre and post-9/11, and 
following the Moscow and Madrid bombing incidents. Most recently, 
transit and rail system operators have enhanced their existing security 
plans by taking various preventive measures in cooperation with the 
Department. While specific examples should not be given in a public 
forum, significant commitments have been made in increased canine and 
uniformed patrols, increased surveillance, and reporting and awareness 
campaigns in the passenger environment. Relatedly, cargo rail companies 
are continuing their Alert Level 2, which includes increased security 
at designated facilities, security plan review, and increased spot 
identification checks.
Near Term Actions
    In the wake of Madrid, the Department immediately identified 
additional measures that could be implemented in the near term to 
further strengthen our rail and transit systems. A working group 
comprised of senior members of my staff, officials from the 
Transportation Security Administration (TSA), the Information Analysis 
and Infrastructure Protection (IAIP) Directorate; the Department of 
Transportation's (DOT) Federal Railroad Administration (FRA) and 
Federal Transit Administration (FTA), identified several such measures. 
Yesterday, Secretary Ridge and I met with rail and transit officials 
and announced the following measures to provide additional Federal 
leadership and guidance in the rail and transit security arena:
Leadership
    The Department will build on many of the security measures 
recommended during the past two years for implementation to mass 
transit and passenger rail authorities by DHS, the Federal Transit 
Administration (FTA) and the Federal Railroad Administration (FRA). The 
Department will engage the industry and state and local authorities to 
establish base-line security measures based on current industry 'best 
practices'. This includes all existing security measures currently 
being implemented consistently in the mass transit system and the 
commuter rail environment. These base-line measures could be adjusted 
in consultation with transit and rail system owners and operators in 
response to higher threat levels or specific threats in the future. 
Additional measures could be achieved through the use of security 
directives or technical assistance, which would specifically target 
mitigation of identified vulnerabilities. DHS, in coordination with 
DOT, will ensure compliance with security standards for commuter and 
rail lines
Threat Response Support Capability
Mass Transit K-9 Program
    The Department will develop a rapid deployment Mass Transit K-9 
program by utilizing existing Homeland Security explosive K-9 
resources. These mobile DHS response teams will be prepared to assist 
local law enforcement teams. Federal Protective Services K-9 teams 
would also be cross-trained for utilization in the rail and transit 
environment. Building upon TSA's work in the aviation context, DHS will 
partner with local authorities to provide additional training and 
assistance for local K-9 teams. The mobile program would predominantly 
be used in special threat environments and provide additional Federal 
resources to augment state and local transit and rail authorities 
security measures.
Transit Inspection Pilot
    TSA will implement a pilot program to test the feasibility of 
screening luggage and carry on bags for explosives at rail stations and 
aboard trains. The initial program will be implemented at one station 
with commuter rail service in conjunction with Amtrak and the Federal 
Railroad Administration. The pilot program would not resemble an 
aviation type solution to transit and rail, but rather provide the 
Department with a venue to test new technologies and screening 
concepts. The lessons learned from .the pilot could allow transit 
operators to deploy targeted screening in high threat areas or in 
response to specific intelligence.
Education and Awareness
    DHS will integrate existing passenger and rail education and 
awareness programs that have been developed by industry, TSA and FTA. 
Where necessary, the Department will create new programs to increase 
passenger, rail employee, and local law enforcement awareness through 
public awareness campaigns and security personnel training. A number of 
training templates and rider education materials are currently in 
development by TSA and FTA allowing the Department to leverage existing 
efforts to generate additional public awareness. The Department's 
Federal Law Enforcement Training Center will also accelerate current 
security training programs for transit law enforcement personnel.
Future Technological Innovations
    The Department's Science and Technology division is focusing on 
development of a number of homeland security technologies. Many of 
these could or are being used in the mass transit environment including 
chemical and biological countermeasures.
High Explosives Countermeasures
    The Department's Homeland Security Advanced Research Project Agency 
is developing a Broad Agency Announcement on bomb interdiction for 
truck and suicide threats with approximately $5 million in funding that 
will be released in the coming months. This program will focus on 
research and development of next generation technology for High 
Explosives Countermeasures. In the future, these countermeasures could 
address the threat that terrorists might use explosives in attacks on 
buildings, critical infrastructure, and the civilian population of the 
United States. The goal of the program will be to develop and test 
field equipment, technologies and procedures to interdict suicide 
bombers and car and truck bombs before they can reach their intended 
targets while minimizing the impact on the American way of life. This 
effort will be closely coordinated with the activities ongoing in TSA 
to ensure that research and development activities are complementary 
and allow potential future testing be carried out through TSA's Transit 
Inspection Pilot.
    Thank you again for the opportunity to appear before you on this 
important topic. I look forward to answering any questions you may 
have.

    The Chairman. Thank you very much.
    Welcome back, Mr. Rutter.

STATEMENT OF HON. ALLAN RUTTER, ADMINISTRATOR, FEDERAL RAILROAD 
                         ADMINISTRATION

    Mr. Rutter. Thank you, sir. Chairman McCain, Members of the 
Committee: I appreciate the opportunity to appear today to 
discuss the prospects for rail security in the United States. I 
have submitted testimony to the Committee that goes into detail 
about what the Federal Railroad Administration has been doing 
on security in addition to our work in advancing rail safety. I 
request that this statement be included in the record of this 
proceeding and I will be happy to entertain questions at the 
conclusion of opening statements.
    The Chairman. Without objection, your full statement will 
be made a part of the record.
    Mr. Rutter. The Federal Railroad Administration has 
advanced the cause of security by using many of the methods we 
use in improving rail safety. We have acted as a partner, a 
catalyst, an adviser, a facilitator, a technician, and an 
inspector. In the past, rail safety and security were 
intertwined. September 11 made it clear, however, that more 
attention and resources for security issues was going to be 
required in all modes of transportation.
    Creation of the Department of Homeland Security catapulted 
security to the forefront of the Federal Government's 
priorities, and the primary responsibility for rail security 
was designated to that Department. Yet, since many of the basic 
functions will continue to be intertwined, FRA works closely 
with DHS on security issues, while on a daily basis we use the 
skills and knowledge of FRA professionals to help make 
railroads more secure for passengers, for rail employees, and 
for communities served.
    Allow me to summarize some of the activities we have 
participated in since September 11, as described in my 
testimony. We have assisted Mr. Jamison's colleagues at FTA in 
conducting security assessments of the ten largest commuter 
railroads, contributing our technical expertise and some modest 
funding. After the Madrid bombing, FRA conducted on-site 
inspections of terminals, stations, passenger equipment, and 
facilities on Amtrak and the 18 commuter railroads under our 
safety jurisdiction. The purpose of these inspections was to 
monitor the implementation of enhanced security measures.
    FRA and RSPA have worked extensively with DHS to develop 
options to enhance the security of railroad tank cars that 
carry hazardous materials. And the FRA has hired the RAND 
Corporation to work with Amtrak to develop a comprehensive 
strategic security plan to coordinate security across the 
entire Amtrak system.
    Let me make three additional points to accompany my written 
statement. First, while I have read many comments about the 
challenges facing rail security since the Madrid bombings and I 
certainly expect that many on your second panel will not be shy 
about asking for more financial assistance, I do not want the 
Committee or the American public to ignore the substantial 
accomplishments and activity of this industry since and before 
and after 9/11.
    Much the excellent progress has been made as a result of 
the hard work of rail system owners and operators. While we 
remain vigilant in sensing the need for additional statutory, 
regulatory, and financial steps to advance security, I remain 
impressed by how much has been accomplished.
    Second, I think we need to be conscious of the differences 
between passenger rail operations and aviation, as the security 
regimes for both need to be different. One small example. In 
commercial aviation we have extensive systems for detecting 
metal objects that can be used as a weapon to hijack a plane. 
Since control of a moving train in most cases takes place by 
people not accessible to the passengers, metal detection is not 
as important as explosives detection. DHS continues to research 
portable explosion detection technologies that could be used 
aboard trains or for random checks of persons boarding trains, 
operating in the challenging environmental conditions that 
commuter rail passengers face all around the country. This, 
coupled with increased K-9 patrols, may be a more effective 
security strategy than screening all passengers and bags at 
every train station.
    Third, I continue to believe that one of the major 
contributions our agency and I can make in security discussions 
is to remind people of the importance of the functionality of 
our rail transportation system. For example, in order to guard 
against the possible effects of terrorist acts against rail 
shipments of hazardous materials, it might be tempting to 
simply suggest re-routing such shipments around major 
metropolitan areas. But we would have to consider the 
operational consequences on major cities, for which the 
shipments of critical products that contain highly hazardous 
materials are destined. Most major cities must have chlorine to 
purify water supplies. Anhydrous ammonia is critical for 
agricultural production. Many citizens in rural areas depend on 
liquefied petroleum gas for home heating.
    Considering the consequences of even significant delays in 
transit, much less a ban on these substances, we are working 
with DHS to consider the operational issues in considering 
HAZMAT security strategies.
    My point is this: Security is a very important function of 
the Federal Government, but it is not its only purpose. The 
promotion of domestic tranquility and the promotion of the 
common defense is balanced in our Constitution's preamble with 
the purpose of securing the blessings of liberty for our 
citizens and our posterity. The Nation's rail transportation 
system is an important link to how people build, make, and sell 
things and how they get to their jobs. We at the FRA will 
continue to advocate for a balance between security and 
economic liberty so that our citizens can be protected from 
those who wish to do us harm as we continue to offer 
opportunities for personal and economic freedom.
    Thank you. I look forward to responding to your questions.
    The Chairman. Thank you very much.
    Mr. Jamison.

STATEMENT OF HON. ROBERT JAMISON, DEPUTY ADMINISTRATOR, FEDERAL 
                     TRANSIT ADMINISTRATION

    Mr. Jamison. Mr. Chairman and Members of the Committee: 
Thanks for this opportunity to provide you with information 
about Federal Transit Administration's efforts to deter, 
detect, and respond to terrorism on our Nation's rail transit 
systems. Some form of rail transit serves 30 cities and 22 
states. Many cities have more than one form of rail transit, 
including commuter rail, heavy rail, or subway systems and 
light rail systems.
    As you are aware, transit is designed and operated in an 
open environment. It is a potential high visibility, high 
consequence target that, if attacked, could have a significant 
economic impact on the community and the Nation. Rail transit 
carries over 11 million passengers each day. In one week 
transit moves more passengers than Amtrak carries in a year. In 
one month transit carries more passengers than U.S. airlines 
transport in a year. The majority of transit riders are in 
dense urban environments that run under or near major 
employment centers, government operations, or cultural icons.
    Our challenge is to ensure that we maintain robust mobility 
and transportation options that support the economic and 
mobility needs of our citizens, while making our transit 
systems as safe and secure as possible. In fact, as the 
experience of September 11 has demonstrated, public transit 
systems are essential to our national security. Transit trains 
and buses were key to the swift evacuation of affected areas 
and were used to transport emergency workers and supplies to 
the rescue and recovery sites and they served as emergency 
triage centers and temporary shelters.
    Prior to September 11, most transit agencies focused their 
security programs primarily on routine crime and vandalism. The 
situation has changed. The industry has responded. FTA began 
conducting counterterrorism threat and vulnerability 
assessments at 37 of the Nation's largest transit systems 
within 60 days of September 11. We employed an aggressive 
nationwide transit security program with the full cooperation 
and support of every transit agency.
    In addition to the counterterrorism readiness assessment, 
FTA has awarded 83 grants for emergency drills conducted by 
transit agencies in conjunction with police, fire, and 
emergency responders, provided onsite counterterrorism 
technical assistance to 29 transit agencies, with plans to 
reach all the top 50 transit agencies, conducted 18 regional 
emergency preparedness forums, completed 4 regional transit 
terrorist war games in conjunction with the American Public 
Transportation Association, provided employee awareness 
training to more than 46,000 transit employees, developed and 
distributed standard protocols and guidelines for responding to 
chemical and biological incidents in rail, tunnel, and vehicle 
environments, championed transit agency participation in FBI's 
Joint Terrorism Task Forces, funded and worked on a daily basis 
with the transit-specific intelligence sharing and analysis 
center, in which 160 agencies now participate, launched Transit 
Watch, a nationwide emergency response passenger awareness 
program, provided and actively monitored the largest 50 
agencies' actions with respect to FTA's top 20 security action 
items list, funded research to identify and adapt security 
technologies such as chemical weapon detection to a transit 
environment, developed and issued to transit agencies specific 
recommended action steps to take at each homeland security 
advisory system threat level.
    Mr. Chairman, we recognize that intelligence is our 
Nation's first line of defense in transit environments and we 
rely on the Department of Homeland Security and the FBI for 
such information. We also recognize that, while we must 
continue to pursue technology solutions, there is no 
technological quick fix for security concerns, nor is there a 
substitute--and I will repeat--nor is there a substitute for an 
alert and well-prepared transit workforce and passenger 
community.
    Therefore, FTA continues to focus its primary efforts and 
three key priorities: employee training, public awareness, and 
emergency preparedness. FTA's top 20 action items has helped to 
institutionalize these security programs, focusing on 
management and accountability, security problem and 
identification, employee selection, employee training, security 
audits and emergency response drills, document control, and 
access control.
    The 30 largest transit agencies accounted for at least 80 
percent of these action items in Fiscal Year 2003. In Fiscal 
Year 2004, FTA is focused on maintaining this success and 
expanding it to the next 20 largest transit agencies.
    Mr. Chairman, we must keep our communities safe and moving, 
maintaining the important balance among security demands, 
mobility needs, and economic viability that transit provides to 
every community it serves.
    I would be pleased to answer the questions the Committee 
may have.
    [The prepared statement of Mr. Jamison follows:]

   Prepared Statement of Hon. Robert Jamison, Deputy Administrator, 
                     Federal Transit Administration
    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to testify today on behalf of the Federal Transit 
Administration (FTA) regarding security on America's rail transit 
systems.
    America has some form of rail transit (i.e., some combination of 
subway, light rail and/or commuter rail systems) in 30 cities and 22 
states. These systems provide 11.3 million passenger trips each 
weekday. In fact, of the 3.5 million rail trips taken annually, 77 
percent are on heavy rail systems, more commonly known as subways. All 
rail transit systems are locally operated and controlled, and it is 
important to note that FTA does not provide operating funds for these 
systems.
    As you know, public transportation is inherently an open, 
accessible system intended to help people move rapidly and efficiently 
between home and work, shopping, medical care, and other community 
activities on a daily basis. Let me put the challenges of securing 
these environments in perspective:

  <bullet> Prior to their destruction on September 11, the World Trade 
        Center and Fulton Street subway stations alone handled over 
        380,000 people each day--the equivalent of the entire 
        population of Miami, Sacramento, or Pittsburgh..

  <bullet> Over 1,600 people per minute hurry through dozens of access 
        points into New York's Penn Station during a typical rush hour.

  <bullet> Every weekday, the people of Chicago take over 1.5 million 
        trips on the elevated railway's 222 miles of track, compared to 
        the approximately 100,000 passengers who board planes at the 
        Chicago O'Hare Airport.

  <bullet> In Washington DC, Metrorail operates a fleet of over 840 
        railcars on 103 miles of track in two states and the District 
        of Columbia. In 2002, 181 million trips were taken on 
        Metrorail, 25 times more than the 7 million trips originating 
        at Washington's Reagan National Airport.

    As both the Department of Homeland Security and the Department of 
Transportation recognize, our Nation's approach to security must be 
necessarily different in the fast-paced, congested environment of rail 
transit than in the relatively closed environment of airlines and 
airports. Nevertheless, we have pursued increased rail transit security 
no less vigorously than air travel security.
    Since September 11, 2001, FTA has undertaken an aggressive 
nationwide security program with the full cooperation and support of 
every transit agency involved. In each of these important rail cities, 
FTA has, in concert with the transit agencies, conducted risk and 
vulnerability assessments; deployed, at no cost to the transit agency, 
expert technical assistance teams to help strengthen security and 
emergency preparedness plans; and, as part of a $3 million program 
involving 83 transit agencies, funded emergency response drills 
conducted in conjunction with local fire, police and other emergency 
responders.
    Based on the full complement of threat and vulnerability 
assessments that have been conducted, as well as consultations with 
security experts around the world, FTA has pursued a consistent 
strategy of promoting emergency preparedness planning, employee 
training, and public awareness as the best way to prevent and mitigate 
the consequences of a terrorist attack. Among other important steps, 
FTA has done the following:

  <bullet> Issued a list of the Top 20 Action Items for transit 
        agencies, identifying the most important elements to 
        incorporate into their Security System Programs. These elements 
        formed the basis of one of four FTA Core Accountabilities for 
        Senior Executives in Fiscal Year 2003, and I am pleased to 
        report that the 30 largest transit agencies accomplished at 
        least 80 percent of these action items. This year, our goal is 
        to ensure that those agencies complete 90 percent of the action 
        items and to help the next 20 largest transit agencies complete 
        at least 80 percent.

  <bullet> Developed the ability to communicate instantaneously with 
        the general managers and heads of security of the 100 largest 
        transit agencies. This communications system is tested and used 
        on a regular basis to provide updates on incidents, as well as 
        security information bulletins and advisories.

  <bullet> Funded and worked on a daily basis with the public transit 
        Information Sharing and Analysis Center (ISAC) operated under 
        the auspices of the American Public Transportation Association 
        (APTA), to provide two-way communication between the 
        intelligence community and the transit industry, as well as 
        transit-specific intelligence analysis.

  <bullet> Developed and launched ``Transit Watch'' in the fall of 
        2003. Transit Watch is a nationwide emergency response 
        passenger awareness program, developed and implemented in 
        partnership with the APTA, Community Transportation Association 
        of America (CTAA), the American Transit Union (ATU), and the 
        Transportation Security Administration (TSA).

  <bullet> Developed and will deliver this spring, Security Design 
        Criteria for use by transit agencies as they design or redesign 
        infrastructure, communications, access control systems, and 
        other transit system components.

  <bullet> Developed and delivered new security courses through the 
        National Transit Institute (NTI), including Counterterrorism 
        Strategies for Transit Police, Conducting Emergency Drills, and 
        Passenger Monitoring and Awareness, as well as updated versions 
        of transit security courses and security needs assessments.

  <bullet> Developed and will deliver this spring, a web-based training 
        tool for use by communities to conduct table-top emergency 
        preparedness drills to test agency procedures, share best 
        practices, and identify needs.

  <bullet> Tested and provided targeted manufacturers and key transit 
        agencies with information on the costs and benefits of chemical 
        and biological detection systems.

  <bullet> Developed, in conjunction with Argonne National 
        Laboratories, and distributed to transit agencies standard 
        protocols and guidelines for responding to chemical and 
        biological incidents in rail, tunnel and transit vehicle 
        environments.

  <bullet> Issued to transit agencies specific guidelines outlining 
        steps to take at each Homeland Security Advisory Level.

  <bullet> Have substantially completed development and will soon 
        deliver, a passenger behavioral monitoring course that 
        incorporates the latest in international counter terrorism 
        techniques. This course will heighten the effectiveness of the 
        transit industry's awareness training portfolio.

    During the recent ``Orange Alert,'' the 30 largest transit agencies 
provided, at PTA's request, information about the specific actions they 
were taking as a result. These actions include the following:

  <bullet> Assigning bomb-sniffing dogs to patrol bus yards and train 
        repair facilities.

  <bullet> Maintaining all police specialty vehicles in a state of 
        operational readiness.

  <bullet> Conducting more frequent Operational Control Center critical 
        system backup checks.

  <bullet> Sending reminders to all transit employees, including bus 
        and rail operators, about what to look for and how to respond 
        to suspicious packages and individuals.

  <bullet> Assigning transit police to the local police department 
        command center.

  <bullet> Participating in conference calls with the FBI and emergency 
        management personnel from the region.

  <bullet> Notifying rapid response team members of potential for call-
        up.

  <bullet> Issuing pager and text message alerts to operators and 
        police.

  <bullet> Checking all security systems, including lighting and 
        intruder alarms.

    Consistent with the current alert level, most transit agencies are 
now operating under ``Yellow Alert'' guidelines. However, based on 
specific intelligence information, several large systems continue to 
operate at the higher ``Orange Alert'' level.
    The President's FY 2005 budget also reflects a continued commitment 
to making our public transportation systems as safe and secure as 
possible. In FY 2005, we have requested $37.8 million for security 
initiatives, which remain a high priority. This reflects the one-
percent of Urbanized Formula Grant funding that grantees are required 
by statute to use to increase the security and safety of an existing or 
planned mass transportation system, as well as FTA investments in 
security training for transit system employees, emergency preparedness 
and response activities, and public awareness efforts.
    Finally, I would note that we continue to work directly with the 
Department of Homeland Security (DHS) on a daily basis, particularly in 
the area of intelligence analysis. We are confident that DRS, as it 
prioritizes all of our Nation's security needs, threats and 
vulnerabilities, can and does take into account these issues with 
respect to transit.
    Despite the complete devastation of three subway stations and over 
1,500 feet of track in Lower Manhattan on September 11, no passengers 
or subway personnel lost their lives in the attacks, thanks to the 
training and quick thinking of train operators, dispatchers, and 
transit managers. Today, we are proud to say that America's subways, 
light rail systems, and commuter trains are even better prepared to 
help prevent and respond to such emergencies.
    We appreciate the Committee's continued interest in and concern 
about rail transit security, and I would be pleased to respond to any 
questions you may have.

    The Chairman. Thank you very much.
    Mr. Guerrero.

       STATEMENT OF PETER F. GUERRERO, DIRECTOR, PHYSICAL

         INFRASTRUCTURE ISSUES, U.S. GENERAL ACCOUNTING

       OFFICE; ACCOMPANIED BY NORMAN J. RABKIN, MANAGING

          DIRECTOR FOR HOMELAND SECURITY, U.S. GENERAL

                       ACCOUNTING OFFICE

    Mr. Guerrero. Thank you, Mr. Chairman.
    We appreciate the opportunity to provide testimony on the 
security of our Nation's rail systems. Terrorist attacks around 
the world, including the recent attacks in Spain, have shown 
that rail systems, like all modes of transportation, are 
potential targets of attack. Passenger and freight rail 
services are critical to our economic well-being. Transit 
agencies provide an average of 1.2 million passenger trips each 
weekday and Amtrak operates a 22,000-mile network providing 
service to 64,000 passengers each day. The Nation's freight 
network also handles 42 percent of domestic intercity freight, 
everything from lumber to vegetables to hazardous materials.
    Even before the recent terrorist attacks in Spain, rail 
systems have been the target of terrorist attacks worldwide. 
The first large-scale attack using a chemical weapon occurred 
in 1995 on the Tokyo subway system. It killed 11 people and 
injured about 5,000. According to the Mineta Institute, surface 
transportation systems were the target of more than 195 
terrorist attacks from 1997 through the year 2000. Rail systems 
accounted for over one-third of these attacks.
    Passenger and freight rail providers face significant 
challenges in improving the security of their systems. 
Challenges include the funding of security improvements, the 
interconnectivity of the rail system with other transportation 
modes and with our economy, and coordination among the large 
number of stakeholders involved in rail security.
    A key challenge faced by all rail systems is that of 
funding security enhancements. For example, eight of the ten 
transit agencies we visited estimated security enhancements 
would cost $700 million and one transit agency alone estimated 
that a closed circuit TV system would cost them $250,000. That 
amount is equal to at least a quarter of the capital budget of 
a majority of the transit agencies we surveyed.
    The economic environment at the time we did our work made 
it difficult for private industry or State and local 
governments to make security investments. The weak economy had 
decreased ridership and revenues and large State and local 
budget deficits had forced difficult tradeoffs between security 
investments and other needs, such as service expansion and 
equipment upgrades.
    In addition to these broad challenges, certain 
characteristics of mass transit systems make them inherently 
vulnerable to terrorist attacks and difficult to secure. Mass 
transit systems are open and designed to move large numbers of 
people quickly. It is difficult to secure these systems and to 
monitor and control who enters or leaves the systems. Transit 
and rail agencies must balance security concerns with 
accessibility, convenience, and affordability.
    The size and diversity of the freight rail system also 
makes it difficult to adequately secure. The freight rail 
system's extensive infrastructure crisscrosses the Nation and 
extends beyond our borders to move millions of tons of freight 
each day. There are over 100,000 miles of rail in the United 
States and the extensiveness of this infrastructure creates an 
infinite number of targets for terrorists.
    The transportation of hazardous materials by rail is a 
particular concern because serious incidents involving these 
materials have the potential to cause widespread disruption or 
injury. In 2001, over 83 million tons of hazardous materials 
were shipped by rail. We visited a number of local communities 
to obtain their views about their ability to respond to 
hazardous material incidents involving rail and to determine 
what concerns they might have about the transportation of these 
materials through their communities. A number of issues 
emerged, including:
    The need for measures to better safeguard hazardous 
materials temporarily stored in rail cars while awaiting 
delivery to their ultimate destination, a practice the rail 
industry refers to as ``storage in transit'';
    The advisability of requiring companies to notify local 
communities of the types and quantities of materials stored in 
transit and the appropriate amount of information rail 
companies should be required to provide to local officials 
regarding hazardous materials shipments that pass through their 
communities.
    Since September 11, passenger and rail freight providers 
have worked to strengthen security. Although security was a 
priority before September 11, the terrorist attacks elevated 
its importance and urgency. Passenger and rail freight 
providers, as you heard this morning, have taken a number of 
actions, including: conducting vulnerability and risk 
assessments; increasing the frequency of emergency drills; 
revising and updating security plans; and providing additional 
employee training.
    The Federal Government has also taken steps to enhance rail 
security. As you also heard this morning, the Federal Transit 
Administration has provided grants, emergency drills, offered 
security training, conducted assessments, and provided 
technical assistance. We reported last summer that TSA was 
moving forward with efforts to secure the entire transportation 
system, such as developing standard risk assessment tools and 
establishing security standards.
    Mr. Chairman, although steps have been taken to enhance 
passenger and freight security since September 11, the recent 
terrorist attacks in Spain naturally focuses our attention and 
what more can be done. In our previous work on transportation 
security, we identified future actions that could be taken. In 
our December 2002 report on mass transit, we recommended that 
the Secretary of Transportation seek a legislative change to 
allow mass transit agencies more flexibility in using Federal 
grants for security-related expenses. We have also advocated 
using a risk management approach to direct Federal resources to 
areas of highest priority, where threats, critical assets, and 
vulnerabilities intersect.
    Finally, we reported in June 2003 that the roles and 
responsibilities of TSA and DOT in transportation security, 
including rail security, were not clearly delineated, creating 
the potential for duplication and conflicting efforts as both 
entities work to enhance security. To clarify the roles and 
responsibilities of TSA and DOT in transportation security, we 
recommended that the Secretary of Transportation and the 
Secretary of Homeland Security use a mechanism such as a 
Memorandum of Agreement to clearly delineate their respective 
roles and responsibilities. This is especially important in 
light of DOT's continuing responsibility for transportation 
safety and its potential overlap with DHS's role in security.
    This concludes my statement and we would be pleased to 
answer any questions.
    [The prepared statement of Mr. Guerrero and Mr. Rabkin 
follow:]

                             GAO Highlights
Rail Security
Some Actions Taken to Enhance Passenger and Freight Rail Security, but 
        Significant Challenges Remain
Why GAO Did This Study
    Passenger and freight rail services are important links in the 
Nation's transportation system. Terrorist attacks on passenger and/or 
freight rail services have the potential to cause widespread injury, 
loss of life, and economic disruption. The recent terrorist attack in 
Spain illustrates that rail systems, like all modes of transportation, 
are targets for attacks. GAO was asked to summarize the results of its 
recent reports on transportation security that examined (1) challenges 
in securing passenger and freight rail systems, (2) actions rail 
stakeholders have taken to enhance passenger and freight rail systems, 
and (3) future actions that could further enhance rail security.
What GAO Recommends
    In our previous report on transportation security (GAO-03-843), we 
recommended that the Department of Homeland Security and Transportation 
use a mechanism, such as a memorandum of agreement, to clarify and 
delineate TSA's and DOT's roles and responsibilities in transportation 
security matters. DHS and DOT generally agreed with the report's 
findings; however, they disagreed with the recommendation. We continue 
to believe our recommendation has merit and would help address security 
challenges.
What GAO Found
    Securing the passenger and freight rail systems are fraught with 
challenges. Some of these challenges are common to passenger and 
freight rail systems, such as the funding of security improvements, the 
interconnectivity of the rail system, and the number of stakeholders 
involved in rail security. Other challenges are unique to the type of 
rail system. For example, the open access and high ridership of mass 
transit systems make them both vulnerable to attack and difficult to 
secure. Similarly, freight railroads transport millions of tons of 
hazardous materials each year across the United States, raising 
concerns about the vulnerability of these shipments to terrorist 
attack.
    Passenger and freight rail stakeholders have taken a number of 
steps to improve the security of the Nation's rail system since 
September 11, 2001. Although security received attention before 
September 11, the terrorist attacks elevated the importance and urgency 
of transportation security for passenger and rail providers. 
Consequently, passenger and freight rail providers have implemented new 
security measures or increased the frequency or intensity of existing 
activities, including performing risk assessments, conducting emergency 
drills, and developing security plans. The Federal Government has also 
acted to enhance rail security. For example, the Federal Transit 
Administration has provided grants for emergency drills and conducted 
security assessments at the largest transit agencies, among other 
things.
    Implementation of risk management principles and improved 
coordination could help enhance rail security. Using risk management 
principles can help guide Federal programs and responses to better 
prepare against terrorism and other threats and to better direct finite 
national resources to areas of highest priority. In addition, improved 
coordination among Federal entities could help enhance security efforts 
across all modes, including passenger and freight rail systems. We 
reported in June 2003 that the roles and responsibilities of the 
Transportation Security Administration (TSA) and the Department of 
Transportation (DOT) in transportation security, including rail 
security, have yet to be clearly delineated, which creates the 
potential for duplicating or conflicting efforts as both entities work 
to enhance security.
                                 ______
                                 
   Statement of Peter F. Guerrero, Director, Physical Infrastructure 
Issues; and Norman J. Rabkin, Managing Director, Homeland Security and 
        Justice Issues, United States General Accounting Office
    Mr. Chairman and Members of the Committee:

    We appreciate the opportunity to provide testimony on the security 
of our Nation's rail systems. Although most of the early attention 
following the September 11 attacks focused on aviation security, 
emphasis on the other modes of transportation has since grown as 
concerns are voiced about possible vulnerabilities, such as introducing 
weapons of mass destruction into this country through ports or 
launching chemical attacks on mass transit systems. Moreover, terrorist 
attacks around the world, such as the recent terrorist attack in Spain, 
have shown that rail systems, like all modes of transportation, are 
potential targets of attack.
    As you requested, our testimony today focuses on (1) challenges in 
securing rail systems, (2) steps rail stakeholders have taken to 
enhance security since September 11, and (3) future actions that could 
further enhance rail security. Our comments are based on our reports 
and testimonies on the security of the entire transportation system, 
the security of mass transit systems, and railroad safety and security 
\1\ as well as a body of our work undertaken since September 11 on 
homeland security and combating terrorism.
---------------------------------------------------------------------------
    \1\ U.S. General Accounting Office, Transportation Security: 
Federal Action Needed to Help Address Security Challenges, GAO-03-843 
(Washington, D.C.: June 30, 2003); Rail Safety and Security: Some 
Actions Already Taken to Enhance Rail Security, but Risk-based Plan 
Needed, GAO-03-435 (Washington, D.C.: April 30, 2003); and Mass 
Transit: Federal Action Could Help Transit Agencies Address Security 
Challenges, GAO-03-263 (Washington, D.C.: December 13, 2002).
---------------------------------------------------------------------------
Summary

  <bullet> Securing passenger and freight rail systems is fraught with 
        challenges. Some security challenges are common to passenger 
        and freight rail systems, such as the funding of security 
        improvements, the interconnectivity of the rail system, and the 
        number of stakeholders involved in rail security. For instance, 
        government agencies at the federal, state, and local levels and 
        private companies share responsibility for rail security. The 
        number of stakeholders involved in transportation security can 
        lead to communication challenges, duplication, and confusion. 
        Other security challenges are unique to the type of rail 
        system. For example, the transport of hazardous materials by 
        rail is of particular concern because serious incidents 
        involving these materials have the potential to cause 
        widespread disruption or injury. We recommended in April 2003 
        that DOT and DHS develop a plan that specifically addresses the 
        security of the Nation's freight rail infrastructure.\2\ DHS 
        has informed us that this plan is in progress.
---------------------------------------------------------------------------
    \2\ GAO-03-435.

  <bullet> Passenger and freight rail providers have acted to enhance 
        security since September 11. For example, passenger and freight 
        rail providers have implemented new security measures or 
        increased the frequency or intensity of existing activities, 
        such as performing risk assessments, conducting emergency 
        drills, and developing security plans. The Federal Government 
        has also taken steps to try to enhance rail security. In the 
        wake of September 11, Congress created the Transportation 
        Security Administration (TSA) and gave it responsibility for 
        the security of all modes of transportation. As TSA worked to 
        establish itself and improve the security of the aviation 
        system during its first year of existence, the Department of 
        Transportation's (DOT) modal administrations acted to enhance 
        passenger and freight rail security. For example, the Federal 
        Transit Administration provided grants for emergency drills to 
        mass transit agencies and the Federal Railroad Administration 
        assisted commuter railroads with the development of security 
        plans. With the immediate crisis of meeting many aviation 
        security deadlines behind it, TSA has been able to focus more 
        on the security of all modes of transportation, including rail 
        security. We reported in June 2003 that TSA was moving forward 
        with efforts to secure the entire transportation system, such 
        as developing standardized criticality, threat, and 
        vulnerability assessment tools, and establishing security 
---------------------------------------------------------------------------
        standards for all modes of transportation.

  <bullet> Although actions have been taken to enhance passenger and 
        freight security since September 11, the recent terrorist 
        attack on a rail system in Spain naturally focuses our 
        attention on what more could be done to secure the Nation's 
        rail systems. In our previous work on transportation security, 
        we identified future actions that the Federal Government could 
        take to enhance security of individual transportation modes as 
        well as the entire transportation system. Two recurring themes 
        cut across our previous work in transportation security--the 
        need for the Federal Government to utilize a risk management 
        approach and improve coordination of security efforts. Using 
        risk management principles can help guide Federal programs and 
        responses to better prepare against terrorism and other threats 
        and to better direct finite national resources to areas of 
        highest priority. A risk management approach can help inform 
        funding decisions for security improvements within the rail 
        system and across modes. We reported in June 2003 that TSA 
        planned to adopt a risk management approach for its efforts to 
        enhance the security of the Nation's transportation system. In 
        addition, improved coordination among rail stakeholders could 
        help enhance security efforts across all modes, including 
        passenger and freight rail systems. We reported in June 2003 
        that the roles and responsibilities of TSA and DOT in 
        transportation security, including rail security, have yet to 
        be clearly delineated, which creates the potential for 
        duplicating or conflicting efforts as both entities work to 
        enhance security. To clarify the roles and responsibilities of 
        TSA and DOT in transportation security matters, we recommended 
        that the Secretary of Transportation and the Secretary of 
        Homeland Security use a mechanism, such as a memorandum of 
        agreement, to clearly delineate their roles and 
        responsibilities. To date, this recommendation has not been 
        implemented.
Background
    Passenger and freight rail services help move people and goods 
through the transportation system, which helps the economic well-being 
of the United States. Passenger rail services can take many forms. Some 
mass transit agencies, which can be public or private entities, provide 
rail services, such as commuter rail and heavy rail (e.g., subway) in 
cities across the United States.\3\ Through these rail services, mass 
transit agencies serve a large part of the commuting population. For 
example, in the third quarter of 2003, commuter rail systems provided 
an average of 1.2 million passenger trips each weekday. The National 
Railroad Passenger Corporation (Amtrak) provides intercity passenger 
rail services in the United States. Amtrak operates a 22,000-mile 
network, primarily over freight railroad tracks, providing service to 
46 states and the District of Columbia. In Fiscal Year 2002, Amtrak 
served 23.4 million passengers, or about 64,000 passengers per day. The 
nation's freight rail network carries 42 percent of domestic intercity 
freight (measured by ton miles) in 2001--everything from lumber to 
vegetables, coal to orange juice, grain to automobiles, and chemicals 
to scrap iron.
---------------------------------------------------------------------------
    \3\ Commuter rail is characterized by passenger trains operating on 
railroad tracks and providing regional service (e.g., between a central 
city and adjacent suburbs). Heavy rail is an electric railway that can 
carry a heavy volume of traffic. Heavy rail is characterized by high 
speed and rapid acceleration, passenger rail cars operating singly or 
in multicar trains on fixed rails, separate rights-of-way from which 
all other vehicular and foot traffic is excluded, sophisticated 
signaling, and high-platform loading. Most subway systems are 
considered heavy rail.
---------------------------------------------------------------------------
    Prior to September 11, 2001, DOT--namely, the Federal Railroad 
Administration (FRA), Federal Transit Administration (FTA), and 
Research and Special Programs Administration (RSPA)--was the primary 
Federal entity involved in passenger and freight rail security matters. 
However, in response to the attacks on September 11, Congress passed 
the Aviation and Transportation Security Act (ATSA), which created TSA 
within DOT and defined its primary responsibility as ensuring security 
in all modes of transportation.\4\ The act also gives TSA regulatory 
authority over all transportation modes. With the passage of the 
Homeland Security Act, TSA, along with over 20 other agencies, was 
transferred to the new Department of Homeland Security (DHS).\5\
---------------------------------------------------------------------------
    \4\ P.L. No. 107-71, 115 Stat. 597 (2001).
    \5\ P.L. No. 107-296, 116 Stat. 2135 (2002).
---------------------------------------------------------------------------
    Throughout the world, rail systems have been the target of 
terrorist attacks. For example, the first large-scale terrorist use of 
a chemical weapon occurred in 1995 on the Tokyo subway system. In this 
attack, a terrorist group released sarin gas on a subway train, killing 
11 people and injuring about 5,500. In addition, according to the 
Mineta Institute,\6\ surface transportation systems were the target of 
more than 195 terrorist attacks from 1997 through 2000. (See fig. 1.)
---------------------------------------------------------------------------
    \6\ The Mineta Transportation Institute was established by Congress 
as part of the Intermodal Surface Transportation Efficiency Act of 1991 
(ISTEA). The Mineta Institute focuses on international surface 
transportation policy issues as related to three primary 
responsibilities: research, education, and technology transfer.
---------------------------------------------------------------------------
Figure 1: Targets of Attacks on Public Surface Transportation Systems 
        Worldwide, 1997 to 2000
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        
        
    Source: Based on information from the Mineta Transportation 
Institute.
Numerous Challenges Exist in Securing Rail Systems
    Passenger and freight rail providers face significant challenges in 
improving security. Some security challenges are common to passenger 
and freight rail systems; others are unique to the type of rail system. 
Common challenges include the funding of security improvements, the 
interconnectivity of the rail system, and the number of stakeholders 
involved in rail security. The unique challenges include the openness 
of mass transit systems and the transport of hazardous materials by 
freight railroads.
Common Security Challenges Confront Passenger and Freight Rail Systems
    A challenge that is common to both passenger and freight rail 
systems is the funding of security enhancements. Although some security 
improvements are inexpensive, such as removing trash cans from subway 
platforms, most require substantial funding. For example, as we 
reported in December 2002, one transit agency estimated that an 
intrusion alarm and closed circuit television system for only one of 
its portals would cost approximately $250,000--an amount equal to at 
least a quarter of the capital budgets of a majority of the transit 
agencies we surveyed.\7\ The current economic environment makes this a 
difficult time for private industry or state and local governments to 
make additional security investments. As we noted in June 2003, the 
sluggish economy has further weakened the transportation industry's 
financial condition by decreasing ridership and revenues. Given the 
tight budget environment, state and local governments and 
transportation operators, such as transit agencies, must make difficult 
trade-offs between security investments and other needs, such as 
service expansion and equipment upgrades. Further exacerbating the 
problem of funding security improvements are the additional costs the 
passenger and freight rail providers incur when the Federal Government 
elevates the national threat condition. For example, Amtrak estimates 
that it spends an additional $500,000 per month for police overtime 
when the national threat condition is increased.
---------------------------------------------------------------------------
    \7\ GAO-03-263.
---------------------------------------------------------------------------
    Another common challenge for both passenger and freight rail 
systems is the interconnectivity within the rail system and between the 
transportation sector and nearly every other sector of the economy. The 
passenger and freight rail systems are part of an intermodal 
transportation system--that is, passengers and freight can use multiple 
modes of transportation to reach a destination. For example, from its 
point of origin to its destination, a piece of freight, such as a 
shipping container, can move from ship to train to truck. The 
interconnective nature of the transportation system creates several 
security challenges. First, the effects of events directed at one mode 
of transportation can ripple throughout the entire system. For example, 
when the port workers in California, Oregon, and Washington went on 
strike in 2002, the railroads saw their intermodal traffic decline by 
almost 30 percent during the first week of the strike, compared with 
the year before. Second, the interconnecting modes can contaminate each 
other--that is, if a particular mode experiences a security breach, the 
breach could affect other modes. An example of this would be if a 
shipping container that held a weapon of mass destruction arrived at a 
U.S. port where it was placed on a train. In this case, although the 
original security breach occurred in the port, the rail or trucking 
industry would be affected as well. Thus, even if operators within one 
mode established high levels of security, they could be affected by the 
security efforts, or lack thereof, in the other modes. Third, 
intermodal facilities where passenger and freight rail systems connect 
and interact with other transportation modes--such as ports--are 
potential targets for attack because of the presence of passengers, 
freight, employees, and equipment at these facilities.
    An additional common challenge for both passenger and rail systems 
is the number of stakeholders involved. Government agencies at the 
federal, state, and local levels and private companies share 
responsibility for rail security. For example, there were over 550 
freight railroads operating in the United States in 2002. In addition, 
many passenger rail services, such as Amtrak and commuter rail, operate 
over tracks owned by freight railroads. For instance, over 95 percent 
of Amtrak's 22,000-mile network operates on freight railroad tracks.\8\ 
The number of stakeholders involved in transportation security can lead 
to communication challenges, duplication, and conflicting guidance. As 
we have noted in past reports, coordination and consensus-building are 
critical to successful implementation of security efforts.\9\ 
Transportation stakeholders can have inconsistent goals or interests, 
which can make consensus-building challenging. For example, from a 
safety perspective, trains that carry hazardous materials should be 
required to have placards that identify the contents of a train so that 
emergency personnel know how best to respond to an incident. However, 
from a security perspective, identifying placards on vehicles that 
carry hazardous materials make them a potential target for attack.
---------------------------------------------------------------------------
    \8\ Freight railroads and commuter rail agencies also operate 
between Boston Massachusetts, and Washington, D.C., on the Northeast 
Corridor, which is primarily owned by Amtrak.
    \9\ U.S. General Accounting Office, Mass Transit: Challenges in 
Securing Transit Systems, GAO-02-1075T (Washington, D.C.: Sept. 18, 
2002); U.S. General Accounting Office, Homeland Security: Effective 
Intergovernmental Coordination Is Key to Success, GAO-02-1011T 
(Washington, D.C.: Aug. 20, 2002); and, U.S. General Accounting Office, 
National Preparedness: Integration of Federal, State, Local, and 
Private Sector Efforts Is Critical to an Effective National Strategy 
for Homeland Security, GAO-02-621T (Washington, D.C.: Apr. 11, 2002).
---------------------------------------------------------------------------
Passenger and Freight Rail Systems Also Face Unique Challenges
    In addition to the common security challenges that face both 
passenger and rail systems, there are some challenges that are unique 
to the type of rail system. In our past reports, we have discussed 
several of these unique challenges, including the openness of mass 
transit systems and the size of the freight rail network and the 
diversity of freight hauled.
    According to mass transit officials and transit security experts, 
certain characteristics of mass transit systems make them inherently 
vulnerable to terrorist attacks and difficult to secure. By design, 
mass transit systems are open (i.e., have multiple access points and, 
in some cases, no barriers) so that they can move large numbers of 
people quickly. In contrast, the aviation system is housed in closed 
and controlled locations with few entry points. The openness of mass 
transit systems can leave them vulnerable because transit officials 
cannot monitor or control who enters or leaves the systems. In 
addition, other characteristics of some transit systems--high 
ridership, expensive infrastructure, economic importance, and location 
(e.g., large metropolitan areas or tourist destinations)--also make 
them attractive targets because of the potential for mass casualties 
and economic damage. Moreover, some of these same characteristics make 
mass transit systems difficult to secure. For example, the number of 
riders that pass through a mass transit system--especially during peak 
hours--make some security measures, such as metal detectors, 
impractical. In addition, the multiple access points along extended 
routes make the costs of securing each location prohibitive.
    Further complicating transit security is the need for transit 
agencies to balance security concerns with accessibility, convenience, 
and affordability. Because transit riders often could choose another 
means of transportation, such as a personal automobile, transit 
agencies must compete for riders. To remain competitive, transit 
agencies must offer convenient, inexpensive, and quality service. 
Therefore, security measures that limit accessibility, cause delays, 
increase fares, or otherwise cause inconvenience could push people away 
from mass transit and back into their cars.
    The size and diversity of the freight rail system make it difficult 
to adequately secure. The freight rail system's extensive 
infrastructure crisscrosses the Nation and extends beyond our borders 
to move millions of tons of freight each day (see fig. 2.). There are 
over 100,000 miles of rail in the United States. The extensiveness of 
the infrastructure creates an infinite number of targets for 
terrorists.
Figure 2: Map of Class I Rail Lines
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    Source: GAO.

    Note: Class I railroads are the largest railroads, as defined by 
operating revenue. Class I railroads represent the majority of rail 
freight activity.

    Protecting freight rail assets from attack is made more difficult 
because of the tremendous variety of freight hauled by railroads. For 
example, railroads carry freight as diverse as dry bulk (grain) and 
hazardous materials.\10\ The transport of hazardous materials is of 
particular concern because serious incidents involving these materials 
have the potential to cause widespread disruption or injury. In 2001, 
over 83 million tons of hazardous materials were shipped by rail in the 
United States across the rail network, which extends through every 
major city as well as thousands of small communities. (Figure 3 is a 
photograph of a rail tanker car containing one of the many types of 
hazardous materials commonly transported by rail.) For our April 2003 
report on rail security, we visited a number of local communities and 
interviewed Federal and private sector hazardous materials 
transportation experts.\11\ A number of issues emerged from our work:
---------------------------------------------------------------------------
    \10\ Federal hazardous material transportation law defines a 
hazardous material as a substance or material that the Secretary of 
Transportation has determined is capable of posing an unreasonable risk 
to health, safety, and property when transported in commerce (49 U.S.C. 
Sec. 5103). It includes hazardous substances such as ammonia, hazardous 
wastes from chemical manufacturing processes, and elevated temperature 
materials such as molten aluminum.
    \11\ GAO-03-435.

  <bullet> the need for measures to better safeguard hazardous 
        materials temporarily stored in rail cars while awaiting 
        delivery to their ultimate destination--a practice commonly 
---------------------------------------------------------------------------
        called ``storage-in-transit,''

  <bullet> the advisability of requiring companies to notify local 
        communities of the type and quantities of materials stored in 
        transit, and

  <bullet> the appropriate amount of information rail companies should 
        be required to provide local officials regarding hazardous 
        material shipments that pass through their communities.
Figure 3: Hazardous Material Rail Tank Car
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    Source: Department of Homeland Security.

    We recommended in April 2003 that DOT and DHS develop a plan that 
specifically addresses the security of the Nation's freight rail 
infrastructure.\12\ This plan should build upon the rail industries' 
experience with rail infrastructure and the transportation of hazardous 
materials and establish time frames for implementing specific security 
actions necessary to protect hazardous material rail shipments. DHS has 
informed us that this plan is in progress.
---------------------------------------------------------------------------
    \12\ GAO-03-435.
---------------------------------------------------------------------------
Rail Stakeholders Have Taken Steps to Improve Security
    Since September 11, passenger and freight rail providers have been 
working to strengthen security. Although security was a priority before 
September 11, the terrorist attacks elevated the importance and urgency 
of transportation security for passenger and rail providers. According 
to representatives from the Association of American Railroads, Amtrak, 
and transit agencies, passenger and freight rail providers have 
implemented new security measures or increased the frequency or 
intensity of existing activities, including:

  <bullet> Conducted vulnerability or risk assessments: Many passenger 
        and freight rail providers conducted assessments of their 
        systems to identify potential vulnerabilities, critical 
        infrastructure or assets, and corrective actions or needed 
        security improvements. For example, the railroad industry 
        conducted a risk assessment that identified over 1,300 critical 
        assets and served as a foundation for the industry's security 
        plan.

  <bullet> Increased emergency drills: Many passenger rail providers 
        have increased the frequency of emergency drills. For example, 
        as of June 2003, Amtrak had conducted two full-scale emergency 
        drills in New York City. The purpose of emergency drilling is 
        to test emergency plans, identify problems, and develop 
        corrective actions. Figure 4 is a photograph from an annual 
        emergency drill conducted by the Washington Metropolitan Area 
        Transit Authority.
Figure 4: Emergency Drill in Progress
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

        At a planned emergency drill, firefighters practice rescuing 
        passengers from a Washington Metropolitan Transit Authority 
        subway car.

    Source: GAO.

  <bullet> Developed or revised security plans: Passenger and freight 
        rail providers developed security plans or reviewed existing 
        plans to determine what changes, if any, needed to be made. For 
        example, the Association of American Railroads worked jointly 
        with several chemical industry associations and consultants 
        from a security firm to develop the rail industry's security 
        management plan. The plan establishes four alert levels and 
        describes a graduated series of actions to prevent terrorist 
        threats to railroad personnel and facilities that correspond to 
        each alert level.

  <bullet> Provided additional training: Many transit agencies have 
        either participated in or conducted additional training on 
        security or antiterrorism. For example, many transit agencies 
        attended seminars conducted by FTA or by the American Public 
        Transportation Association.

    The Federal Government has also acted to enhance rail security. 
Prior to September 11, DOT modal administrations had primary 
responsibility for the security of the transportation system. In the 
wake of September 11, Congress created TSA and gave it responsibility 
for the security of all modes of transportation. In its first year of 
existence, TSA worked to establish its infrastructure and focused 
primarily on meeting the aviation security deadlines contained in ATSA. 
As TSA worked to establish itself and improve the security of the 
aviation system, DOT modal administrations, namely FRA, FTA, and RSPA, 
acted to enhance passenger and freight rail security (see tab. 1.). For 
example, FTA launched a multipart initiative for mass transit agencies 
that provided grants for emergency drills, offered free security 
training, conducted security assessments at 36 transit agencies, 
provided technical assistance, and invested in research and 
development. With the immediate crisis of meeting many aviation 
security deadlines behind it, TSA has been able to focus more on the 
security of all modes of transportation, including rail security. We 
reported in June 2003 that TSA was moving forward with efforts to 
secure the entire transportation system, such as developing 
standardized criticality, threat, and vulnerability assessment tools; 
and establishing security standards for all modes of 
transportation.\13\
---------------------------------------------------------------------------
    \13\ GAO-03-843.

 
 
------------------------------------------------------------------------
 


 Table 1.--Key Actions Taken by DOT Modal Administrations to Help Secure
               the Rail System, September 2001 to May 2003
------------------------------------------------------------------------
 DOT modal  administration                Security efforts
------------------------------------------------------------------------
Federal Railroad              <bullet> Shared threat information with
 Administration              railroads and rail labor.
                              <bullet> Reviewed Association of American
                             Railroads' and Amtrak's security plans.
                              <bullet> Assisted commuter railroads with
                             their security plans.
                              <bullet> Provided funding for security
                             assessments of three commuter railroads,
                             which were included in FTA's assessment
                             efforts.
                              <bullet> Reached out to international
                             community for lessons learned in rail
                             security.
------------------------------------------------------------------------
Federal Transit               <bullet> Awarded $3.4 million in grants to
 Administration              over 80 transit agencies for emergency
                             response drills.
                              <bullet> Offered free security training to
                             transit agencies.
                              <bullet> Conducted security assessments at
                             the largest 36 transit agencies.
                              <bullet> Provided technical assistance to
                             19 transit agencies on security and
                             emergency plans and emergency response
                             drills.
                              <bullet> Increased funding for security
                             research and development efforts.
------------------------------------------------------------------------
Research and Special          <bullet> Established regulations for
 Programs Administration     shippers and transporters of certain
                             hazardous materials to develop and
                             implement security plans and to require
                             security awareness training for hazmat
                             employees.
                              <bullet> Developed hazardous materials
                             transportation security awareness training
                             for law enforcement, the industry, and the
                             hazmat community.
                              <bullet> Published a security advisory,
                             which identifies measures that could
                             enhance the security of the transport of
                             hazardous materials.
                              <bullet> Investigated the security risks
                             associated with placarding hazardous
                             materials, including whether removing
                             placards from certain shipments improves
                             shipment security, and whether alternative
                             methods for communicating safety hazards
                             could be deployed.
------------------------------------------------------------------------
Source: GAO presentation of information provided by DOT modal
  administrations.

Risk Management and Coordination Key to Enhancing Security
    Although steps have been taken to enhance passenger and freight 
security since September 11, the recent terrorist attack on a rail 
system in Spain naturally focuses our attention on what more could be 
done to secure the Nation's rail systems. In our previous work on 
transportation security, we identified future actions that the Federal 
Government could take to enhance security of individual transportation 
modes as well as the entire transportation system. For example, in our 
December 2002 report on mass transit security, we recommended that the 
Secretary of Transportation seek a legislative change to give mass 
transit agencies more flexibility in using Federal funds for security-
related operating expenses, among other things.\14\ Two recurring 
themes cut across our previous work in transportation security--the 
need for the Federal Government to utilize a risk management approach 
and the need for the Federal Government to improve coordination of 
security efforts.
---------------------------------------------------------------------------
    \14\ GAO-03-263. DOT agreed to carefully consider our 
recommendations as it moved forward with its efforts to improve transit 
security.
---------------------------------------------------------------------------
    Using risk management principles to guide decision-making is a good 
strategy, given the difficult trade-offs the Federal Government will 
likely have to make as it moves forward with its transportation 
security efforts. We have advocated using a risk management approach to 
guide Federal programs and responses to better prepare against 
terrorism and other threats and to better direct finite national 
resources to areas of highest priority.\15\ As figure 5 illustrates, 
the highest priorities emerge where threats, vulnerabilities, and 
criticality overlap. For example, rail infrastructure that is 
determined to be a critical asset, vulnerable to attack, and a likely 
target would be at most risk and therefore would be a higher priority 
for funding compared with infrastructure that was only vulnerable to 
attack. The Federal Government is likely to be viewed as a source of 
funding for at least some rail security enhancements. These 
enhancements will join the growing list of security initiatives 
competing for Federal assistance. A risk management approach can help 
inform funding decisions for security improvements within the rail 
system and across modes.
---------------------------------------------------------------------------
    \15\ U.S. General Accounting Office, Homeland Security: A Risk 
Management Approach Can Guide Preparedness Efforts, GAO-02-208T 
(Washington, D.C.: October 31, 2001); and Combating Terrorism: Threat 
and Risk Assessments Can Help Prioritize and Target Program 
Investments, GAO/NSIAD-98-74 (Washington, D.C.: April 9, 1998).
---------------------------------------------------------------------------
Figure 5: Representation of Risk
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    Source: GAO.

    A risk management approach entails a continuous process of 
managing, through a series of mitigating actions, the likelihood of an 
adverse event happening with a negative impact. Risk management 
encompasses ``inherent'' risk (i.e., risk that would exist absent any 
mitigating action), as well as ``residual'' risk (i.e., the risk that 
remains even after mitigating actions have been taken). Figure 6 
depicts the risk management framework. Risk management principles 
acknowledge that while risk cannot be eliminated, enhancing protection 
from known or potential threats can help reduce it. (Appendix I 
provides a description of the key elements of the risk management 
approach.) We reported in June 2003 that TSA planned to adopt a risk 
management approach for its efforts to enhance the security of the 
Nation's transportation system. According to TSA officials, risk 
management principles will drive all decisions--from standard-setting, 
to funding priorities, to staffing.
Figure 6: Risk Management Framework
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Source: GAO analysis.

    Coordination is also a key action in meeting transportation 
security challenges. As we have noted in previous reports, coordination 
among all levels of the government and the private industry is critical 
to the success of security efforts. The lack of coordination can lead 
to such problems as duplication and/or conflicting efforts, gaps in 
preparedness, and confusion. Moreover, the lack of coordination can 
strain intergovernmental relationships, drain resources, and raise the 
potential for problems in responding to terrorism. The administration's 
National Strategy for Homeland Security and the National Strategy for 
the Physical Protection of Critical Infrastructures and Key Assets also 
emphasize the importance of and need for coordination in security 
efforts. In particular, the National Strategy for the Physical 
Protection of Critical Infrastructures and Key Assets notes that 
protecting critical infrastructure, such as the transportation system, 
``requires a unifying organization, a clear purpose, a common 
understanding of roles and responsibilities, accountability, and a set 
of well-understood coordinating processes.''
    We reported in June 2003 that the roles and responsibilities of TSA 
and DOT in transportation security, including rail security, have yet 
to be clearly delineated, which creates the potential for duplicating 
or conflicting efforts as both entities work to enhance security. 
Legislation has not defined TSA's role and responsibilities in securing 
all modes of transportation. ATSA does not specify TSA's role and 
responsibilities in securing the maritime and land transportation modes 
in detail as it does for aviation security. Instead, the act simply 
states that TSA is responsible for ensuring security in all modes of 
transportation. The Act also did not eliminate DOT modal 
administrations' existing statutory responsibilities for securing the 
different transportation modes. Moreover, recent legislation indicates 
that DOT still has security responsibilities. In particular, the 
Homeland Security Act of 2002 states that the Secretary of 
Transportation is responsible for the security as well as the safety of 
rail and the transport of hazardous materials by all modes.
    To clarify the roles and responsibilities of TSA and DOT in 
transportation security matters, we recommended that the Secretary of 
Transportation and Secretary of Homeland Security use a mechanism, such 
as a memorandum of agreement to clearly delineate their roles and 
responsibilities. The Department of Homeland Security (DHS) and DOT 
disagreed with our recommendation, noting that DHS had the lead for the 
Administration in transportation security matters and that DHS and DOT 
were committed to broad and routine consultations. We continue to 
believe our recommendation is valid. A mechanism, such as a memorandum 
of agreement, would serve to clarify, delineate, and document the roles 
and responsibilities of each entity. This is especially important 
considering DOT responsibilities for transportation safety overlap with 
DHS' role in securing the transportation system. Moreover, recent 
pieces of legislation give DOT transportation security responsibilities 
for some activities, including the rail security. Consequently, the 
lack of clearly delineated roles and responsibilities could lead to 
duplication, confusion, and gaps in preparedness. A mechanism would 
also serve to hold each entity accountable for its transportation 
security responsibilities. Finally, it could serve as a vehicle to 
communicate the roles and responsibilities of each entity to 
transportation security stakeholders.
Observations
    Securing the Nation's passenger and freight rail systems is a 
tremendous task. Many challenges must be overcome. Passenger and 
freight rail stakeholders have acted to enhance security, but more work 
is needed. As passenger and freight rail stakeholders, including the 
Federal Government, work to enhance security, it is important that 
efforts be coordinated. The lack of coordination could lead to 
duplication and confusion. More importantly, it could hamper the rail 
sector's ability to prepare for and respond to attacks. In addition, to 
ensure that finite resources are directed to the areas of highest 
priority, risk management principles should guide decision-making. 
Given budget pressures at all levels of government and the sluggish 
economy, difficult trade-offs will undoubtedly need to be made among 
competing claims for assistance. A risk management approach can help 
inform these difficult decisions.
    This concludes our prepared statement. We would be pleased to 
respond to any questions you or other Members of the Committee may 
have.
         Appendix I: Key Elements of a Risk Management Approach
    Threat Assessment. Threat is defined as potential intent to cause 
harm or damage to an asset (e.g., natural environment, people, man-made 
infrastructures, and activities and operations). A threat assessment 
identifies adverse events that can affect an entity and may be present 
at the global, national, or local level.
    Criticality assessment. Criticality is defined as an asset's 
relative worth. A criticality assessment identifies and evaluates an 
entity's assets based on a variety of factors, including importance of 
a function and the significance of a system in terms of national 
security, economic activity, or public safety. Criticality assessments 
help to provide a basis for prioritizing protection relative to limited 
resources.
    Vulnerability assessment. Vulnerability is defined as the inherent 
state or condition of an asset that can be exploited to cause harm. A 
vulnerability assessment identifies the extent that these inherent 
states may be exploited, relative to countermeasures that have been or 
could be deployed.
    Risk Assessment. Risk assessment is a qualitative and/or 
quantitative determination of the likelihood of an adverse event 
occurring and the severity, or impact, of its consequences. It may 
include scenarios under which two or more risks interact, creating 
greater or lesser impacts, as well as the ranking of risky events.
    Risk characterization. Risk characterization involves designating 
risk on a categorical scale (e.g., low, medium, and high). Risk 
characterization provides input for deciding which areas are most 
suited to mitigate risk.
    Mitigation Evaluation. Mitigation evaluation is the identification 
of mitigation alternatives to assess the effectiveness of the 
alternatives. The alternatives should be evaluated for their likely 
effect on risk and their cost.
    Mitigation Selection. Mitigation selection involves a management 
decision on which mitigation alternatives should be implemented among 
alternatives, taking into account risk, costs, and the effectiveness of 
mitigation alternatives. Selection among mitigation alternatives should 
be based upon pre-considered criteria. There are as of yet no clearly 
preferred selection criteria, although potential factors might include 
risk reduction, net benefits, equality of treatment, or other stated 
values. Mitigation selection does not necessarily involve prioritizing 
all resources to the highest risk area, but in attempting to balance 
overall risk and available resources.
    Risk mitigation. Risk mitigation is the implementation of 
mitigating actions, depending upon an organization's chosen action 
posture (i.e., the decision on what to do about overall risk). 
Specifically, risk mitigation may involve risk acceptance (taking no 
action), risk avoidance (taking actions to avoid activities that 
involve risk), risk reduction (taking actions to reduce the likelihood 
and/or impact of risk), and risk sharing (taking actions to reduce risk 
by sharing risk with other entities). As shown in figure 6, risk 
mitigation is best framed within an integrated systems approach that 
encompasses action in all organizational areas; including personnel, 
processes, technology, infrastructure, and governance. An integrated 
systems approach helps to ensure that taking action in one or more 
areas would not create unintended consequences in another area.
    Monitoring and evaluation. Monitoring and evaluation is a 
continuous repetitive assessment process to keep risk management 
current and relevant. It should involve reassessing risk 
characterizations after mitigating efforts have been implemented. It 
also includes peer review, testing, and validation.

    The Chairman. Thank you very much, Mr. Guerrero.
    Secretary Hutchinson, GAO's concern here is the fact that 
the responsibilities of the Transportation Security 
Administration, the Department of Transportation in 
transportation security, including rail security, have yet to 
be clearly delineated, which creates a potential for 
duplicating or conflicting efforts.
    They have been many recommendations, including more 
flexibility and use of risk management. But can you respond to 
that particular recommendation of theirs?
    Mr. Hutchinson. Certainly. And I believe that the 
recommendation for an MOU has really been overtaken by the 
issuance of a Presidential Directive No. 7 that delineates the 
responsibilities on critical infrastructure, including 
transportation. So that sets the parameters for it. Within that 
context, there may be some narrowly targeted MOU's that may be 
adopted, such as TSA has one with the FAA, and we w look at 
others on an as-needed basis.
    I would point out that we have a very good relationship. 
Whenever we set up a working group to look at additional steps 
that can be taken in rail and mass transit, the Department of 
Transportation at every level was very much a partner in that 
effort.
    The Chairman. It is my understanding that you plan to 
develop a national transportation system security plan. What is 
the timetable for this initiative?
    Mr. Hutchinson. That hopefully will be completed by the end 
of the year. Obviously, in every different mode there is a 
different timetable, but that is an ongoing effort, not just 
with our efforts at TSA, but also working with the IAIP 
Directorate.
    The Chairman. I think we need that plan as quickly as 
possible, because I do not think--I think it is extremely 
difficult to determine whether there are requirements for 
additional funding and in what areas without the comprehensive 
plan. Would you agree with that, Mr. Guerrero?
    Mr. Guerrero. Absolutely.
    The Chairman. So I hope you will give that a high priority.
    Mr. Secretary, we all react to events. We would not be 
having this hearing if it were not for Madrid. Maybe we are all 
guilty of reacting rather than acting in anticipation of 
events, but I believe that a fundamental is a national 
transportation system security plan and I hope we can--that you 
would give that a very high priority.
    Mr. Jamison, how much do you estimate the FTA and the 
transit authorities have spent on security since September 11?
    Mr. Jamison. I do not have a total on exactly how much the 
industry spent, although I understand that the survey estimates 
a total of $1.7 billion. FTA has spent well over $25 million in 
response to September 11, in putting together a comprehensive 
program that I described in my testimony.
    The Chairman. Mr. Rutter, you heard Senator Biden and 
Senator Carper's statement here. Understandably, they place a 
very high priority on the Northeast Corridor tunnels. In light 
of any terrorist attack, obviously we would like to maximize 
the damage and the publicity.
    Do you sort of accept--do you accept that theory, that that 
is probably our greatest vulnerability, so therefore should 
have our highest funding priorities?
    Mr. Rutter. I think from a safety as well as a security 
standpoint, certainly this Committee has heard from our agency 
and from the Inspector General about the life safety 
implications of the New York tunnels.
    The Chairman. And the Baltimore tunnel.
    Mr. Rutter. And Baltimore, New York being probably the 
higher number of people coming in and out of them. I think that 
one of the things we have been and will continue to do with 
Amtrak is look at their security needs from a strategic point 
of view. Certainly, should Congress want to fund those type of 
improvements----
    The Chairman. I am asking your opinion. Do you feel that 
that is a proper--we cannot do everything at once. We are going 
to have to prioritize. Do you agree with that, that that should 
be a priority area to be addressed?
    Mr. Rutter. I think that is one of the things that we ought 
to do to enhance passenger rail security nationwide.
    The Chairman. Mr. Guerrero?
    Mr. Guerrero. The transportation network, as you know, Mr. 
Chairman, is an interconnected network and the intermodal links 
in that network are critical. So I would agree that those are 
very important links.
    The Chairman. And of course, very, very expensive when we 
are talking about overall funding.
    So do you have any thoughts on that, Secretary Hutchinson?
    Mr. Hutchinson. The specific point they were making was the 
investment in the Amtrak security, particularly the intermodal 
exchanges. Obviously, that has to have a priority for 
enhancement. I think as to where that comes from will be the 
debate this Committee will engage in.
    I would emphasize that in the 2005 budget under the Urban 
Areas Security Initiative grants there will be $1.4 billion, 
which a doubling of that amount allows a great deal of 
flexibility. So we are looking to that fund to help cover some 
of these type of needs.
    The Chairman. Well, I think that is going to be a very hard 
part of this plan when you come up with it, and that is why the 
plan is needed, is to where we feel the needs are the most 
immediate. I could argue that Casa Grande, Arizona, is an area 
of great vulnerability, but I think that the argument that 
Senator Biden and Senator Carper were making bears some 
scrutiny and some perhaps serious consideration.
    Senator Breaux--and I thank all the witnesses for being 
here today.
    Senator Breaux. As do I. Thank you all very much.
    Mr. Hutchinson, you have so much on your plate with you and 
Secretary Ridge to look after. I was just wondering, does the 
Administration consider the potential of terrorist attacks of 
railroads to be less than on airlines or about the same or 
greater?
    Mr. Hutchinson. Less. I mean, you look at the historic 
reporting, there has been more intelligence indicating that al-
Qaeda continues to target the airline industry versus other 
modes of transportation. Certainly mass transit is included in 
that reporting, but I believe there is a higher level of threat 
in the aviation arena in terms of the reporting that we 
receive.
    Senator Breaux. It would seem to me, if I think like a 
terrorist, and saw that the United States had spent $4.5 
billion improving airline security, hiring more Federal 
inspectors, incorporating the highest luggage and cargo 
screening technology, and sealing the doors of all aircraft, I 
would make a decision if I wanted to cause great havoc in this 
country not to make the airlines a target. I would go after the 
rail transportation system. I can walk on a train here at Union 
Station with two huge suitcases loaded with anhydrous ammonia 
like they used to blow up the Oklahoma building, no one would 
look at it, no one would do a background check. I could get on 
here in Washington or I could get on right up the road and 
detonate it somewhere between here and New York City.
    So it seems to me that if you still think that airlines are 
a greater target after spending $4.5 billion, it would seem to 
me that a far greater target would be an area where we have 
spent only a relatively insignificant amount of money and that 
there are almost no restrictions or requirements whatsoever. 
Does that not make sense?
    Mr. Hutchinson. There is certainly a logic that goes with 
that reasoning, and I would agree completely that we have a 
responsibility, not just to look at the aviation arena, even 
though that is where intelligence reporting continues to come 
and be pointed, but also the other modes of transportation and, 
not just that, but our other critical infrastructure, to make 
those safe every day.
    So since we do sense that responsibility, that is why we 
have started, started long before the Madrid, but there is more 
that can be done and that is part of the initiative we 
indicated yesterday.
    Senator Breaux. Well, we spent, according to our figures, 
approximately $4.5 billion on aviation security, and everybody 
understands in general what we have done. There is probably a 
lot more we do not know about. But only about $65 million in 
comparison has been set aside for preparedness for the Nation's 
public transit systems.
    It seems to me that difference is monumental. We have 
neglected this, it has become the stepchild of the 
transportation system, and until the Madrid tragedy I did not 
think a lot was happening. Right after Madrid, the 
Administration reacted, but that was after the fact.
    Let me just ask the question: From what you know, what 
anyone knows, of what happened in Madrid, what would have had 
to be in place from a security standpoint to prevent that from 
happening? If we do not learn from tragedies, then we run the 
risk of suffering another tragedy down the line. So, looking at 
what happened in Madrid, what type of system would have had to 
be in place to prevent that from happening?
    Mr. Hutchinson. Of course, we are still getting the 
intelligence in. We will continue to evaluate that. But 
clearly, explosive detection capability is an important part of 
the equation.
    Senator Breaux. That is not in our plan anywhere that I 
have seen, is it?
    Mr. Hutchinson. Absolutely, it is.
    Senator Breaux. For passengers getting on board trains?
    Mr. Hutchinson. Well, it is part of the research to develop 
that technology, is an investment we are making, in addition 
to----
    Senator Breaux. Well, do we not already have that 
technology with regard to people getting on an airplane?
    Mr. Hutchinson. It would be a totally different technology. 
We have to have the capability in a mass transit environment 
not to run everybody through a magnetometer or explosive 
detection equipment that is slow and cumbersome, but something 
that is mobile, that can work in a mass transit environment.
    But in addition, the K-9 deployment teams that we are 
implementing, that is already in use out there, will be 
directed at that.
    Senator Breaux. It sounds like if I wanted to get into a 
business I would get into the dog business.
    Mr. Hutchinson. It is not a bad business to get into.
    I do not mean to imply that we have the capability to stop 
that today, but those are an area that we can work on to reduce 
the possibility of that.
    In addition, when we look at our baseline security measures 
that need to be in place, we have to look at the receptacles in 
which a bag can be deposited, what are the security measures 
there, what are the surveillance cameras detecting, and are 
they being reviewed. These type of security measures are very 
helpful in that environment.
    Senator Breaux. Well, I am certainly not an expert, but it 
is a huge challenge. I am just pointing out that people get on 
the train between here and New York at several different 
locations; it is hard to set up that mechanism at every 
location, people getting on and off. But they are all getting 
on the same train. It would seem like the system could be on 
the train, and you would not have to have it at every station 
if it is on the train itself. So when people come onto the 
train, the detection mechanism would be part of the train 
system and not at each station or at every stop.
    Mr. Hutchinson. Well, that is one of the purposes of the 
pilot project, is to look at what type of screening can take 
place in a mass transit environment.
    Senator Breaux. Well, I just hope we do not study it to 
death. It seems like every time Congress or the Administration 
comes up with another study, another assessment, or another 
risk assessment, we never see it. I think we have a great track 
record on transporting hazardous materials. I do not think a 
single person lost their life in a train accident last year 
riding the train. This is a remarkable record.
    But we have not been attacked by terrorists like they were 
in Madrid. As important as studies are, I would like to start 
seeing some things implemented, and I know that is your goal.
    Mr. Jamison. Senator Breaux, if I might I would like to 
respond to the Madrid question. I think we can learn some very 
important lessons from Madrid: one, that we must remain ever 
vigilant; and two, that we are on the right track. The 
information is still coming in from overseas, but what we do 
know, there are some significant differences on how Madrid is 
reacting to security versus what we are doing in the United 
States.
    Number one, there is no security awareness training regime 
in Spain. We have trained over 46,000 transit employees to be 
the front line eyes and ears, to spot suspicious activity, that 
might be able to detect al-Qaeda techniques and other types of 
techniques that are using to case our Nation's systems.
    They did not have any explosive detection capability in 
Spain from our understanding. Many of the agencies, especially 
the high-risk agencies, have deployed transit K-9 dogs that can 
do some type of bomb detection and have portable bomb detection 
type of devices.
    They had no public awareness campaign in Spain. We have 
rolled out an aggressive transit watch public awareness 
campaign across the Nation and many transit agencies are 
constantly notifying their passengers to be ever vigilant and 
to detect this type of activity.
    So there are several things that we can learn from Spain. I 
think we are very much on the right track.
    Senator Breaux. Thank you, Mr. Chairman.
    The Chairman. Senator Allen.
    Senator Allen. Thank you, Mr. Chairman.
    Listening to the answers here to Chairman McCain and 
Senator Breaux, trying to assess what all the targets are and 
the vulnerabilities, you have to break them all down. Clear 
targets, aviation, maybe that is number one. Ports have 
different levels of concern: the ports in Virginia because of 
the big Navy presence; New Orleans because it is for the whole 
heartland of America as far as barge and shipping traffic; New 
York and New Jersey because of the population.
    We know of target cities. We are right here in a target. We 
are in the bull's eye of a target in Washington, D.C. New York 
City is a target, Chicago, maybe other cities in different 
variations.
    When you get into rail, you have three different areas. You 
have the mass transit, you have the passenger rail which has 
longer runs, and then you have freight. In the freight, the 
railroad companies of course do have their security, their own 
police. Then you have a gradation or variation on those that 
are having hazardous materials cars versus those that are non-
hazardous materials.
    So in all of these you have to make a judgment as to what 
is the most vulnerable and where the action ought to be taken. 
In my mind--and this is just listening to all of this--where 
you get a convergence of priorities in the area of rail, it 
would strike me is you would care first and foremost about mass 
transit in target city areas, which would in my view be the 
Washington, D.C., area and the New York City area.
    Now, recognizing what needs to be done, if you turned these 
railroads, the mass transit in this area or I think anywhere in 
this country, into something like airports, you are going to 
end up with more people driving. They are simply not going to 
go through such nightmares as we go through at airports, and 
aggravation, for mass transit, which is to get to and from work 
in a reasonable period of time.
    The new technologies, the pilot programming, the dogs, the 
sensors, whatever you all may want to do, I think makes sense, 
but try to make it so people can get through, whether it is 
Penn Station, Union Station, or, heck, getting on at one of the 
Metro stops in the D.C. area.
    Now, I would like to ask you, Secretary Hutchinson, how 
does the Department of Homeland Security intend to address 
already identified high priority critical infrastructure 
vulnerabilities in the capital-intensive sector, such as HAZMAT 
transit, in which the remedies sometimes fall beyond the scope 
of the existing assistance initiative at the Department of 
Homeland Security, such as the Office of Domestic Preparedness' 
urban area security initiative? If you could answer that and 
will you eliminate, at least support eliminating, the current 
prohibition on using the Office of Domestic Preparedness funds 
for the renovation or construction of facilities to provide 
transit agencies with greater flexibility in addressing their 
critical infrastructure needs?
    Mr. Hutchinson. Well, I think it is certainly very 
important to have that flexibility there in the funding that 
goes. It is obviously important to have the assessment and that 
the money goes toward the security plans that are in place.
    In reference to the HAZMAT concerns, on the routes for that 
in the capital region, that is something that IAIP has worked 
very aggressively on with the capital region here and they have 
identified and made progress in that area and have identified 
some solutions to address. We would be happy to give a more 
specific response to your question in writing.
    Senator Allen. All right. Well, I look forward to receiving 
that.
    Now, as far as the hazardous materials in the D.C. area, 
Senator Biden was talking about a tunnel built in the 1800s, in 
the late 1800s, in Baltimore. Regardless of the dates the 
tunnels are constructed, whether they actually dug these 
tunnels out in 1869 or 1969, the vulnerability of those tunnels 
is something that we ought to look at.
    There are those--and you brought this up in answer to my 
first question about re-routing hazardous materials around 
Washington, D.C. What is your view of doing that? Any of you 
can answer this. It does not have to be just Secretary 
Hutchinson. If you rerouted the hazardous materials around 
Washington, D.C., what assets would be put in place to ensure 
the security of the materials on another route?
    Mr. Hutchinson. Well, of course the security is layered in 
terms of the way the shipment is done, background checks of the 
drivers, that is an ongoing project.
    Senator Allen. I am talking about rail, not trucks.
    Mr. Hutchinson. In the rail environment, of course part of 
it is the safety measures that are in place for that. In terms 
of the security side of it, that is worked in conjunction with 
the Federal Railroad Administration.
    Mr. Rutter. I think one of the things that the Secretary 
said was that, frankly in response to interest on the part of 
the D.C. government about wanting to do something with the CSX 
rail line that comes into the District, our agency and 
constituent agencies of DHS have been working on and are in the 
process of a targeted vulnerability assessment and mitigation 
measures that are appropriate.
    Certainly the District would like to see rerouting done. 
That may or may not be the best thing to do to provide 
additional security for the District and the kinds of material 
that come through there.
    One of the reasons why we are so excited about that project 
is because one of the things we can do is take the lessons we 
have learned from D.C., which frankly is relatively simple 
because we are talking about one rail line rather than lots of 
them, and then maybe pilot that on another couple of cities 
that are more complicated, have multiple rail lines, more 
shipments coming through, and take that and use it as a 
template that can be offered to major metropolitan areas, for 
them to walk through the process of thinking about what do we 
have, what are the risks, how do we mitigate those, and provide 
a layer of additional protection nationwide, not just here in 
the District.
    Mr. Guerrero. Senator, it is precisely because of this, the 
question you just raised and other questions like it, that we 
recommended a year ago that the Department of Homeland Security 
and the Department of Transportation work on a risk-based plan 
for identifying these issues and working through strategies for 
how to deal with them. They are complex issues, not just the 
question of routing hazardous materials and rerouting those 
materials to avoid population centers, but also some of the 
issues I raised in my statement about storage of hazardous 
materials in transit and notification to communities.
    All those were open questions and they remain open 
questions.
    Senator Allen. Thank you, gentlemen. I look forward to 
continuing this dialogue on this subject. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Senator Lautenberg.
    Senator Lautenberg. Thanks, Mr. Chairman.
    To all of you, I am glad to hear your views. I am disturbed 
by the fact that in large measure what we have gotten, as 
Senator Breaux said, is agreements to have studies, and when we 
see that Secretary Ridge has deferred consideration of funding, 
providing any funding to transit systems, it is discouraging.
    I would tell you, Mr. Chairman, I also had the tunnel 
experience. I was a Commissioner of the Port Authority of New 
York and New Jersey before I came to the Senate, and one of the 
first things I did when I took that seat was to go through the 
tunnels that traverse the Hudson River between New York and New 
Jersey.
    Not only was the envelope so tight that people who were 
working there had to actually get into niches along the way to 
protect themselves from being brought in by the force of the 
air there; and we found all kinds of difficult things. The 
electricity system was not the way it should be, but rather 
something in series. If one part of it went out, the whole went 
out. The fire doors were locked. It was a terrible situation.
    Much of that has been cleared up. But we send every day 
over 100,000 people across that river and we just are running 
out of capacity. When we think about what happened on 9/11, the 
only available sensible transportation system was rail. That is 
how the delegation came up from Washington to New York. The 
aviation system was totally shut down.
    So I hope, Mr. Chairman, that when we think of writing 
legislation that we make sure that we include some of the 
funding for another, a third tunnel there, just as we would 
looking at the Baltimore problem that Senator Biden described.
    The thing that I want to ask: Mr. Hutchinson, why has not 
the administration requested any funding specifically for 
Amtrak rail security? We carry 24 million passengers a year. We 
cannot ask them to provide funds out of their losses which they 
sustain each and every year as to passenger rail services 
across the globe.
    Why has it not been requested in any of the budgets that we 
see?
    Mr. Hutchinson. Well, there may need to be a budgetary fix. 
If some of the urban area grant money would be used for Amtrak 
security funding, I think we are certainly open to that 
discussion. Whenever you look at Amtrak and our funding 
mechanisms, it is $1.4 billion in the 2005 budget through those 
security grants.
    In addition, the Department of Transportation of course 
provided, I believe it was, $100 million for the superstructure 
there at Penn Station, which serves Amtrak as well. So there 
are additional needs, but there might have to be a legislative 
fix to help on that funding flow.
    Senator Lautenberg. I think one of the hardest things for 
people to understand is, now that we have seen what happened in 
Madrid and what happened in Japan when that attack on the 
subway system took place, is how in the world we can commit $88 
billion to reconstruct Iraq--and I got back from there last 
week and I believe we have to spend money there, I believe we 
have to do it--why we cannot find money to provide those 
millions of passengers who use the rail systems each and every 
year, every week practically, some funding to start to provide 
sensible security arrangements for them.
    It just, it is not fair to our constituents or the people 
who are required to use rail service. So I would urge that you 
help us with that legislative direction that you described.
    I would ask something else. We had hearings here, Mr. 
Chairman, last year in April, so that is just about a year ago. 
Questions that were asked related to Amtrak and freight rail 
security problems, and the questions were simple: What has the 
Department done to improve the security of rail transportation 
for both intercity travel and commuter service?
    Frankly, we are just now getting answers. The answers came 
in connection with this hearing, Mr. Chairman, and that 
provoked a response from the transportation, the needs. Why 
does it take so long to get an answer to questions that are put 
before the witnesses, when before you and your Department, why 
can we not get a quicker response. The record was held open, it 
said to submit the question in writing. We did all of those 
things and heard nothing in response.
    Mr. Hutchinson. We certainly want to be responsive to your 
questions to Congress and am delighted to work on the speed of 
those. But we are here today to answer any questions.
    Senator Lautenberg. Well, the questions that relate to the 
almost lackadaisical response to what has been an urgent 
problem. It has become highlighted as a result of the situation 
in Madrid. Can Madrid happen in this country?
    Mr. Hutchinson. Obviously, we would never guarantee that we 
do not have vulnerabilities or that we are free from a 
terrorist incident in this country. I believe we have more 
protective measures that are in place than what we see in some 
of the rail transits there in Spain.
    But if I might, sir, the contrast--Senator Breaux mentioned 
$65 million in contrast to the billions that we are spending on 
the aviation arena, and there is a difference there in funding 
levels, I will concede that point. But I do not think $65 
million paints the picture whenever we have given $26 million 
to New York City transit, $5 million to Chicago transit, and on 
down that adds up to $115 million to the different transit 
authorities over and above the amounts invested in the Marine 
and Land Division at TSA.
    But also, we have our Directorate of Infrastructure 
Protection that works on these issues. We have our science and 
technology that is investing really hundreds of millions of 
dollars in technologies that will be applicable to the mass 
transit arena, as well as what Department of Transportation is 
doing and Customs and Border Protection.
    So there is a disparity, but we are doing certainly a lot 
more than simply what is reflected in that one amount.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. [presiding]. Senator Lautenberg.
    Senator Lautenberg. Thank you very much, Madam Chairman.
    Senator Hutchison. Thank you.
    Senator Boxer.
    Senator Boxer. Thank you very much, Madam Chairman.
    I just want to thank all of you. This has been a good 
hearing. I thank my colleagues very much.
    Mr. Hutchinson, when I quoted I was quoting you, and so I 
wanted to give you a chance to react to the way I read your 
quotes. You said after Madrid: ``It is very important we do not 
simply react to an incident that happens anywhere in the 
world,'' and went on to say the Administration was not seeking 
more funding for train security. And then I said, ``An aircraft 
can be used as a weapon; a train cannot be hurled through the 
air in the same fashion,'' something I think we all understand.
    But when I read your testimony, in the first page you 
mention Madrid five times. So maybe I am assuming that this was 
not an accurate quote or it was taken out of context, because 
the war on terror, as we all know, is a global war and things 
that happen all over the world must be looked at, because 
terrorism is all over the world.
    Mr. Hutchinson. Absolutely, and thank you, Senator, for 
giving me a chance to comment on that. The quotes are accurate 
and I believe it is important that we do not simply react to 
incidents. What I mean by that is that we ought to invest in 
security based upon our intelligence, based upon what this 
Committee has been emphasizing, which is the assessments that 
are made on vulnerabilities.
    Certainly there is a level of reaction in the sense of 
reviewing what we are doing, what more can we do, what lessons 
can we learn. So I do not want to diminish in any way the 
sensitivity toward the tragedy that happened there or the 
lessons that we can learn from it.
    Senator Boxer. Well, if you are not backing off your quote, 
I just want to again say I found it very disturbing. So we just 
do not agree on that point. I think that, looking at--where is 
that freight line chart, if I could see that again. If you just 
take a look at the target of opportunity here and the fact 
that, as Senator Lautenberg has pointed out, you could set 
charges all over the rail system, you are talking about 
something that, whether a train can be hurled through the air 
into a building or not is not the point.
    Do you know about the nuclear waste dump at Yucca Mountain? 
Are you familiar with it?
    Mr. Hutchinson. Yes, I am.
    Senator Boxer. Do you know how many trips by rail we are 
going to have over the life of the project carrying that 
nuclear waste?
    Mr. Hutchinson. I am not--I am familiar with it. I 
addressed that issue in Congress, also obviously to a certain 
extent at Homeland Security, but I do not know that level of 
detail.
    Senator Boxer. Well, I want to tell you that it is 18,000 
trips, and I need you to think about this. That dump is going 
to open in a few years. And we are talking about not, quote 
unquote, ``low level waste,'' which is dangerous enough. We are 
talking about serious heavy waste that is potentially 
disastrous if there were to be an accident.
    So therefore, if we are not going to take Madrid as a 
signal, let us look here in our country and see what is coming. 
18,000 shipments of the most dangerous nuclear wastes known to 
humankind, 18,000 trips by rail. So I would like to put that on 
your agenda.
    Now, you said you do not need new money, but you are taking 
all these steps. Where are you taking the money from?
    Mr. Hutchinson. Well, in reference to the K-9 teams that we 
are deploying, Federal Protective Service has 50 of those 
teams. We have five in training. As we deploy those and have 
those available for deployment, we will look to see whether 
that needs to be enhanced.
    In reference to the research and development, that is 
because we have in the science and technology $500 million for 
research in this area, so we are utilizing some of that for the 
enhanced explosives detection capabilities. Whenever you look 
at our pilot project for screening, that is within the existing 
budget of TSA. We need to deploy that very quickly.
    Senator Boxer. So what is the next cost? What is the new 
level of expenditure to meet this threat? You are talking about 
putting into place right away these teams of dogs, etcetera. 
What is the cost of all that?
    Mr. Hutchinson. Those items that I mentioned plus the 
security directives and the baseline is within existing budget. 
Where the new money is would be in the----
    Senator Boxer. So wait a minute. So you have a surplus in 
your budget that you did not need and you are using it for this 
new program? Is that what you are telling us, your budget was 
fat and you are taking this extra money that you were not using 
in any other place and you are using it for this?
    Mr. Hutchinson. I do not think that is a correct reflection 
of what I just described----
    Senator Boxer. Well, where are you getting it from?
    Mr. Hutchinson.--as to our initiative.
    Senator Boxer. You came to us with a budget. You said, we 
need this for rail, we need this for air marshals. We have all 
been involved in this budget, a tremendous amount involved in 
it, because, speaking from my point of view, every one of those 
planes was going to my State and now I am looking at Amtrak 
with the second busiest Amtrak in the country.
    So I am just curious. You are saying you do not need money. 
You have got to be getting it from somewhere, and you just keep 
repeating what you are doing. Where are you getting the money 
from to pay for this?
    Mr. Hutchinson. Let me see if I can address that----
    Senator Hutchison. Senator Boxer, let us let him answer the 
question.
    Senator Boxer. Well, I am trying to, but I know what a 
filibuster is when I see one. I am trying to find out where you 
are cutting it from.
    Senator Hutchison. He is--just let him have a chance to at 
least respond, and then you.
    Mr. Hutchinson. There is two aspects to this. One is the 
Federal leadership role which I have described. The security--
--
    Senator Boxer. I am sorry?
    Mr. Hutchinson. Federal leadership role, which would be in 
defining the baseline of security and having the capability of 
threat response, research and development.
    The other aspect is the funding of the money. The grant 
money that would be available for the urban areas will more 
than double in the President's 2005 budget to $1.4 billion. 
That is available for mass transit and the Secretary has 
indicated that he will earmark some of that money so it will 
specifically go to mass transit and rail security. I think that 
is an appropriate balance.
    Senator Boxer. As opposed to? As opposed to where?
    Mr. Hutchinson. Well, it goes directly to the urban areas 
for their discretion and flexibility. The fact is the last time 
that the money went to the urban areas the cities or the 
governmental authorities did not put much in mass transit. We 
are saying that has to be a higher priority. So they did not 
put it there, so we are going to earmark some of that to make 
sure it goes to mass transit, as we did the $115 million.
    Senator Boxer. Thank you, and I will just ask you one more 
question.
    Senator Hutchison. Senator Boxer----
    Senator Boxer. These new things that you are doing, how 
much do they cost?
    Senator Hutchison.--your time is up. Senator Boxer, your 
time is up.
    Senator Boxer. This is important.
    Senator Hutchison. I am going to let you finish this 
thought.
    Senator Boxer. Everybody else went over time. This is my 
last question.
    Senator Hutchison. This is your last question.
    Senator Boxer. Can you just tell me how much this new 
program, this new program to respond to this threat, how much 
are you now going to spend on this as a result of Madrid?
    Mr. Hutchinson. The initiatives that I outlined that 
reflect the Federal leadership role, in threat response, in 
research and development, in the security lines----
    Senator Boxer. How much? How much?
    Mr. Hutchinson.--there should be no additional money except 
for the science and technology investment. The additional money 
will come in the urban area security grants----
    Senator Boxer. How much?
    Mr. Hutchinson.--that has more than doubled in the 
President's budget to $1.4 billion.
    Senator Boxer. You are spending a new $1.4 billion----
    Senator Hutchison. Mr. Secretary.
    Senator Boxer.--on rail security, is that what you said?
    Senator Hutchison. Mr. Secretary.
    Senator Boxer. I am so confused.
    Senator Hutchison. Mr. Secretary, I would like to talk 
about the disparity between the Northeast Corridor and the rest 
of the country in Amtrak. At this point, from my figures, 
Amtrak received $100 million to secure the New York tunnels, 
but spent a mere $5 million on the rest of the nationwide 
network.
    Now, I certainly understand that New York is a priority, 
and I think there are other priorities on the Northeast 
Corridor. However, I think that disparity is pretty stark, and 
these trains are going through Chicago, they are going through 
Dallas, they are going through Houston. These are huge 
metropolitan areas.
    Do you think that that allocation is going to stand or are 
we going to try to show some concern for these other 
metropolitan areas, not to mention the rural areas that they go 
through?
    Mr. Hutchinson. I think your point is well taken. 
Obviously, whenever you look at the Amtrak security that needs 
to be put in place, it is a combination of what they do for 
their own rail systems--I think they put that one particular 
section in New York City as a priority. We have to look at 
other security around the country and we are doing that through 
the infrastructure protection. We went to a higher alert level. 
We did deploy more security measures. But I think that we can 
balance that more effectively, from what you are saying.
    Senator Hutchison. Let me just bring up another point, and 
this goes into the freight area and the issue of port security. 
Many of us are very concerned. Senator Breaux actually had 
great hearings that went on the ports really along the southern 
border of our country, and we found that port security is 
probably the most in need of attention. We have a situation in 
Houston where you have a major port, a major international 
port, also a major chemical complex, and a huge railroad 
meeting place where all the railroads come in to put the 
freight on the ships.
    I would like to ask you if port security is on your radar 
screen, particularly in this context, where you have rail lines 
that go into the ports. I am sure that is also the case in the 
New Orleans port and probably all the ports in our country. Do 
you give a special emphasis for rail areas at ports and are you 
taking any special precautions there?
    Mr. Hutchinson. Each port has to do the assessments which 
have been completed, and so that would be a part of the 
evaluation of vulnerabilities. Then I think it was last year I 
think $165 million went out for port security grants that did 
include that concern you expressed on the rail intermodal 
connection at those ports, and that would be a part of that.
    I would have to look specifically as to how much went in 
that arena.
    Senator Hutchison. Are you concerned about our port 
situation, particularly with rail and port together?
    Mr. Hutchinson. Yes. I think that our ports as a whole, we 
have to be able to enhance the security measures there. That is 
a combination of what is done by the private sector and what we 
invest, and we need to continue to build on that.
    Senator Hutchison. Do you think the industry is stepping up 
to the plate in the area of adding to its security and 
infrastructure--I'm talking freight industry now--because there 
should be some allocation of responsibility here. I do not 
think they are stepping up to the plate as much as we would 
like for them to. I would like to know your opinion of that and 
if you think there is some fair allocation that industry should 
bear in this whole security area.
    Mr. Hutchinson. You know, it is hard to just come up with 
percentages, but clearly we expect the private sector to invest 
in it. When it comes to the freight rail sector, I know that 
they have invested in security, and I think that there is 
certainly more that needs to be done. I think that they have 
invested----
    Senator Hutchison. Are you satisfied with the amount that 
the freight industry has done on its own?
    Mr. Hutchinson. I will withhold judgment at this point. 
More needs to be done, but I think they have certainly been a 
very willing participant up to this point.
    Senator Hutchison. Thank you, Mr. Chairman--thank you. I am 
the Chairman.
    [Laughter.]
    Senator Hutchison. Senator Cantwell. McCain's ghost is 
standing behind me.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Madam Chairman.
    Secretary Hutchinson, thank you for your attention to the 
northern border. We appreciate that very much.
    I had a question. I cannot remember the timing of your 
appointment and the formation of a freight protocol with 
Canada. I think that happened roughly about the same time, but 
that is within your jurisdiction. And I wondered, given the 
situation that we have in only making our border secure as the 
cooperation with our neighbors, do you believe that we need to 
have a passenger protocol with Canada established to make sure 
that we are coordinating screening and various processes with 
Canada?
    Mr. Hutchinson. Yes, I think we need to do more in that 
arena. If you are looking at rail passengers, first, we are 
hoping to get advanced information on those passengers so that 
we can review those before they come into the United States. If 
you are looking in terms of the auto passengers that come 
across the borders, we are continuing to build on our 
cooperation with Canada. You are speaking of the freight area?
    Senator Cantwell. I am saying we have a freight 
transportation protocol, because obviously the point of origin 
of cargo and goods coming into the United States, we wanted to 
have better security. Obviously, I think the same would apply 
for passenger rail, that you would want to establish some sort 
of U.S.-Canadian protocol on how we treat security and 
screening at those various points of origin.
    Mr. Hutchinson. That is exactly correct. We are first 
addressing it in a cooperative fashion, but we are also 
mandating, working to get the information on the passengers 
that come in in advance of departure so that we can vet those 
names. In the inspection process, we are continuing to look at 
more opportunities for partnering with Canada in that regard.
    Senator Cantwell. So that would be establishing a protocol? 
I mean, I would encourage the Department and the agency to 
establish a protocol, given the case in Washington where we had 
somebody load up with explosives and go to the U.S.-Canadian 
border and try to come over through Port Angelis. It was only 
the great work of a Customs, actually Immigration and Customs 
working in tandem, that was able to find a carload of 
explosives on the way to either the Space Needle or LAX.
    So getting that porous situation basically bolstered by a 
protocol on cooperation I think would be very helpful.
    Mr. Hutchinson. I agree completely and that is our 
intention.
    Senator Cantwell. Great.
    The second question: Do you think that pilot programs in 
and of themselves are a deterrent? Do they create a deterrent 
atmosphere in the sense that people are aware of the pilots and 
what is going on?
    Mr. Hutchinson. In a limited way. I think if you are 
looking at the mass transit, the rail passenger pilots, 
anything that we are investing in security that is visible is 
helpful as a deterrent, yes. But when you are looking at a 
massive United States system and we are piloting in one area, 
it probably has limited impact.
    But the greatest ability is whenever we develop that 
capability and we see a threat that we know we have the 
expertise that we can respond with that implementation of 
enhanced screening.
    Senator Cantwell. So you actually think it is somewhat of a 
deterrent, I guess is what you are saying?
    Mr. Hutchinson. It depends upon the pilot and the nature of 
it. I think that the fact that this would be visible certainly 
is a deterrent in that area, absolutely.
    Senator Cantwell. Well, given the Madrid situation and 
given that we are dealing with explosives and backpacks--and 
nothing against the Northwest because they are great people, 
but we carry backpacks like some people carry briefcases. So 
our trains are filled with people with backpacks. So why not 
establish one of the pilot programs in the Northwest--or why 
not have a couple of these pilot programs as a way to establish 
the different use and activities that are going on within those 
regions?
    Mr. Hutchinson. We will continue to look at appropriate 
locations for that, and we might potentially be able to expand 
that. I think when you look at deterrence, the greatest 
deterrent is the use of K-9's that actually go through a mass 
population center, a station, and when people are traveling and 
see that presence I think that would certainly discourage 
illegal behavior and explosives particularly.
    Senator Cantwell. I am glad you brought up that point 
because I am a little confused. I want to understand exactly 
how this works. Obviously, we are subjected to this every day 
on a daily basis as we come in and out of the Capitol. But a 
lot of people get on the Amtrak system, throw their backpacks 
in the overhead compartment, and leave them there. Are we 
saying that K-9's walking through the corridor of a train are 
able to detect whether a backpack in an overhead bin has 
explosives in it?
    Mr. Hutchinson. Well, they might have to get a little bit 
closer in proximity. But I think that would have some benefit 
because they would be sniffing trash receptacles and other 
places where it could be deposited to accomplish damage. But 
also prior to entry onto the station, as the population is 
milling in the waiting area before embarking on the train, 
their presence there would have not only a deterrent effect, 
but a real detection capability. That is why they are used very 
effectively already.
    Mr. Jamison. Senator, I would like to also add that when 
you take into account many of the transit agencies which carry 
substantially more passengers than Amtrak have adopted 
unattended bag policies and called the bomb squad and 
appropriate officials when they have an unattended bag, which 
allows them to focus on that detection capability.
    Senator Cantwell. Well, I am actually a big fan of the K-9 
units because of our porous northern border, where we have been 
unable to have significant manpower, and we have used them 
successfully in parts of Okanogan County where we do not have a 
lot of huge population transportation, but we have a lot of 
people trying to sneak through. Somebody just found I think it 
was a half a million dollars in a backpack from a drug deal 
that had gone wrong along that area.
    So those K-9's have been effective. I guess I would ask you 
to consider a pilot in this region and consider the challenge 
of people getting on and off the system at various points. So 
you would either have to have some sort of screening of that 
backpack or cargo of the individual or a K- 9 unit at every 
stop, because literally it is that porous, where anybody can 
get on the system.
    Mr. Hutchinson. Absolutely. It is not an optimum solution 
to have that type of inspection for people who expect to get on 
an open system. So it would be, hopefully, only deployed on a 
limited basis in response to a particular threat. But we need 
to have that experience.
    Senator Cantwell. I see my time has expired.
    Senator Hutchison. I want to thank all of you for coming. 
Mr. Secretary, you certainly took the majority of the 
questions, and I understand we are going to have a port 
security hearing tomorrow at which you will be in attendance. 
So we appreciate that because these two dovetail and we must 
address them, I think, a little more, in a more comprehensive 
way. I think this is a vulnerability that we have and I would 
like to see us make it a higher priority.
    Mr. Hutchinson. Thank you, Senator.
    Senator Hutchison. Thank you all very much, and I would 
like to call the second panel. The second panel is: Dr. Jack 
Riley, the Director of RAND Public Safety and Justice, from the 
RAND Corporation; Mr. Ed Hamberger, President and Chief 
Executive Officer of the Association of American Railroads; Mr. 
William Millar, President of the American Public Transportation 
Association; and Mr. John O'Connor, Chief of Patrol, National 
Railroad Passenger Corporation.
    [Pause.]
    Senator Hutchison. We certainly thank all of you for 
attending. You will provide a little different perspective from 
the ground and we appreciate that very much.
    I will start to my left, with Mr. Riley.

 STATEMENT OF JACK RILEY, Ph.D., DIRECTOR OF PUBLIC SAFETY AND 
                   JUSTICE, RAND CORPORATION

    Dr. Riley. Thank you, Madam Chairwoman. I have provided 
written testimony that I ask be included in the record.
    Senator Hutchison. Without objection.
    Dr. Riley. In that event, I will keep my remarks brief. I 
will start with a quick summary of what we know about rail 
terrorism. The RAND terrorism data base, which chronicles and 
details more than 16,000 terrorist incidents across the world, 
would rank the Madrid attacks among the most deadly and the 
most sophisticated that we have ever encountered. That said, 
however, rail attacks are generally in the mid-range in terms 
of attacks on public transportation and surface transportation 
systems. They are more frequent than attacks on air 
transportation systems, but they are less frequent and 
generally less deadly than those that occur against bus 
transportation.
    In recent years there has been no discernible trend, no 
increase or decrease that we can note, in terms of rail 
attacks. Generally, the rail attacks that exist out there are, 
particularly in places like Spain, the Chechen Republic, and 
other places, are tied to separatist conflicts and long, 
ongoing conflicts between ethnic parties.
    Like air and bus transportation, rail transportation has 
several unique vulnerabilities that make it attractive to 
terrorists. I think the two most important, one each on the 
passenger and freight side: on the passenger side, rail 
facilities are by their very nature open, they have very high 
passenger densities, and they could be attacked with something 
as simple as a backpack-sized bomb, as we saw in Madrid.
    In contrast, freight rail is responsible for moving 
approximately 40 percent of our intercity freight and half of 
the Nation's hazardous materials, often through densely 
populated urban areas. Thus these are potentially important and 
visible targets to terrorists in this country.
    What has been done to secure our rail transportation? 
Others will testify in detail. I will recount some of the more 
important steps that I have seen taken. Prior to September 1-
September 11 and the terrorist attacks of 2001, the FRA had 
already required passenger rail systems to have drills, to have 
emergency plans in place, and to be ready for serious 
incidents. This is in part a function of the number of 
passenger rail accidents that occur, natural hazards, things 
like floods, hurricanes, and earthquakes, power outages, and so 
forth. But there was a fair amount that was in place even prior 
to September 11, 2001.
    These evacuation skills and this preparedness were very 
useful in the collapse of the World Trade Center because the 
PATH train network was directly responsible for evacuating more 
than 5,000 people from the basement of the World Trade Center 
prior to its collapse and probably preventing many additional 
casualties.
    Since September 11, 2001, passenger systems have conducted 
further drills, testing, preparation for emergencies. Many 
systems, as you have heard, have initiated suspicious package 
programs and many systems are experimenting with systems to 
detect chemical, biological, and other weapons.
    Freight rail initiatives again you will hear in detail. I 
will not go into much, but they have included: strengthened 
coordination with the Department of Homeland Security; improved 
oversight over operations, equipment; and increased 
surveillance.
    There is more that we can do. Perhaps the best lesson and 
the best set of incidents that we could learn from prior to the 
Madrid bombings were the sustained IRA attacks on the United 
Kingdom's rail system. What we learned from those attacks was 
the importance of securing access to rail facilities, improving 
surveillance, integrating blast-resistant trash bins, and 
training of personnel and passengers to be the eyes and ears 
and be a part of security.
    Many of these lessons can be adapted both to U.S. passenger 
rail systems and to the freight rail system. Further 
information is needed on how much should be spent on rail 
security relative to the security of other potential targets.
    No system of security will be perfect, but the rail system 
decisionmaking process in the context of security is very 
decentralized. Federal policy on rail terrorism should really 
define a Federal role in preventing or mitigating such attacks 
and define the roles and responsibilities of government 
agencies, transportation companies, and system users in 
preventing attacks and responding to their consequences.
    In short, we need the threat and vulnerability assessments 
that have been called for and we need the assessments to 
generate the corresponding list of priorities.
    I would be happy to answer any questions.
    [The prepared statement of Dr. Riley follows:]

   Prepared Statement of Jack Riley,\1\ Director, Public Safety and 
                       Justice, RAND Corporation
---------------------------------------------------------------------------
    \1\ The opinions and conclusions expressed in this testimony are 
the author's alone and should not be interpreted as representing those 
of RAND or any of the sponsors of its research. This product is part of 
the RAND Corporation testimony series. RAND testimonies record 
testimony presented by RAND associates to federal, state, or local 
legislative committees; government-appointed commissions and panels; 
and private review and oversight bodies. The RAND Corporation is a 
nonprofit research organization providing objective analysis and 
effective solutions that address the challenges facing the public and 
private sectors around the world. RAND's publications do not 
necessarily reflect the opinions of its research clients and sponsors.
---------------------------------------------------------------------------
Introduction
    Chairman McCain, Ranking Member Hollings, and members of the 
Committee, I am very pleased to be here today to testify about our 
state of knowledge on terrorism and rail security. As the recent events 
in Madrid, Spain demonstrate, terrorist acts against our rail system 
can have deadly consequences.
    My testimony today is built on the RAND Corporation's long 
involvement in analyzing the dynamics of terrorism. Since the 1970s, 
RAND has maintained databases of terrorism incidents now containing 
information on more than 16,000 terrorist attacks. Our contributions to 
terrorism studies prior to the attacks of September 11 included 
analysis of the rise of extremist religious motivations in terrorist 
attacks, the first independent and empirical assessment of national 
preparedness for domestic terrorism, and support for the Gilmore 
Commission (formally, the Advisory Panel to Assess Domestic Response 
Capabilities for Terrorism Involving Weapons of Mass Destruction). 
Since the attacks of September 11, RAND has advised on terrorism risk 
at the highest levels of the public and private sectors, including our 
support for the Department of Homeland Security's development of the 
National Response Plan/National Incident Management System, our 
modeling of national smallpox vaccination strategies, and our 
development of a Center for Terrorism Risk Management Policy that 
conducts policy analyses on complicated aspects of terrorism risk, 
liability and compensation.
    Prior to the recent Madrid and Chechen terrorist train bombings, 
RAND also initiated terrorism risk reduction studies for the Federal 
Railroad Administration (FRA) and for Amtrak. Because this work is 
still in progress, my comments today will focus on only published RAND 
research results and information from other sources.
Terrorist Attacks on Rail Transportation Targets
    Between 1998 and 2003, there were approximately 181 attacks on 
trains and related rail targets such as depots, ticket stations and 
rail bridges worldwide.\2\ Attacks on light rail systems and subway 
systems are included in these estimates. Attacks have occurred in all 
comers of the globe, including Venezuela, Colombia, India, Pakistan, 
Spain and the United Kingdom. These attacks resulted in an estimated 
431 deaths and several thousand injuries. Bombs were the most 
frequently used weapon in these attacks, although firearms and arson 
have also been used. Table 1 summarizes terrorist incidents and deaths 
from attacks on rail facilities for 1998-2003.
---------------------------------------------------------------------------
    \2\ These estimates are taken from the RAND-MIPT Terrorism Incident 
Database, which covers terrorist incidents from 1998 to the present. 
The database can be accessed at: http://db.mipt.org/mipt_rand.cfm. 
Given the short time available to prepare this testimony, the figures 
used from the database should not be regarded as precise counts.

               Table 1.--Terrorist Rail Attacks, 1998-2003
------------------------------------------------------------------------
        Year          Incidents   Deaths         Notable incident
------------------------------------------------------------------------
1998                         48       92  Train bomb in Pakistan killed
                                           23.
1999                          5        2  Two die in Ethiopia; only
                                           fatal rail attack of year.
2000                         13        0  No rail deaths from terrorist
                                           acts.
2001                         41      275  Angolan rebels kill 252 with
                                           bomb, gunfire.
2002                         60       41  Track sabotage kills 20 in
                                           India.
2003                         14       21  Bomb in Mumbai, India commuter
                                           train kills 10.
------------------------------------------------------------------------
TOTAL                       181      431  ..............................
------------------------------------------------------------------------

    The recent attack in Madrid, thought to be the work of al Qaeda 
sympathizers, ranks among the most sophisticated rail terrorist 
attacks, with its near simultaneous detonation of 10 charges. In terms 
of overall casualties, it would rank second to an August 2001 attack by 
Angolan separatist rebels who, using a combination of remote detonation 
of explosives and directed gunfire, killed 252 rail passengers. Such 
attacks are outliers among those of recent years. Aside from the 2001 
Angola attack, for example, Table 1 shows that the average rail attack 
between 1998 and 2003 resulted, on average, in about one death per 
incident.
Rail in Comparison to Other Transportation Targets
    Rail attacks are more numerous and deadly than those on airports 
and airplanes, but have not been as numerous or resulted in as many 
deaths as those on buses and related infrastructure such as ticket 
offices and depots. Table 2 summarizes terrorist attacks on other 
transportation targets between 1998 and 2003. Buses and related 
infrastructure such as ticket offices and depots have been attacked by 
terrorists half again as often as trains and their related 
infrastructure, with about 1.6 deaths per incident. A large proportion 
of the bus incidents involve sniper fire at Israeli vehicles moving 
through the Occupied Territories. Spain, Colombia, India and Pakistan 
are other frequent locations of bus attacks. Most modem terrorist 
attacks on transportation systems can be tied to ongoing separatist 
conflicts, including those by Chechen rebels in Russia, Basque 
guerillas in Spain, Irish Republican Army terrorists in the United 
Kingdom, and Palestinians in Israel and the Occupied Territories. There 
appears to be little significance in the year-to-year trends of attacks 
against transportation targets.

  Table 2.--Terrorist Attacks against Transportation Targets, 1998-2003
------------------------------------------------------------------------
                  Trains/Rail     Airports/Airplanes    Buses and Other
    Year     -----------------------------------------------------------
              Incidents   Deaths  Incidents   Deaths  Incidents   Deaths
------------------------------------------------------------------------
1998                 48       92         15        2         57      150
1999                  5        2          6        0         21        8
2000                 13        0          2        0         38        2
2001                 41      275         11        3         57       52
2002                 60       41         24        3         96      159
2003                 14       21         11       25         24       96
------------------------------------------------------------------------
TOTAL               181      431         69       33        293      467
------------------------------------------------------------------------

Rail Vulnerabilities and Issues
    Like air and bus transportation, rail transportation has several 
unique features making it inherently vulnerable to attack. Rail 
passenger facilities in particular rely on open architecture and the 
rapid and easy movement of patrons in and out of facilities and on and 
off trains. In addition, both freight and passenger rail networks 
traverse dense urban landscapes that may offer multiple attack points 
and easy escape as well as vast rural stretches that are difficult to 
patrol and secure.
    Below we consider further some of the specific vulnerabilities of, 
and security issues regarding, passenger and freight rail systems.
Passenger Rail
    Passenger rail facilities present potentially inviting targets for 
terrorists for a variety of reasons. They are easily penetrated and may 
have high concentrations of people. The logistics of a passenger rail 
attack are comparatively simple. For example, given the typical 
passenger density in a passenger rail station, substantial casualties 
can be inflicted with a backpack-sized bomb. This is a substantially 
lower logistical burden than the one faced by the terrorists who 
committed the September 11 attacks.
    In addition, terrorists likely perceive psychological benefits to 
attacking passenger transportation networks. Rail transportation, like 
air travel, necessitates the passengers' willingness to put personal 
safety in the hands of others. An attack is likely to leave passengers 
reluctant, however temporarily, to travel on the passenger rail system.
    The measures used to secure airports and airplanes are likely to be 
impractical with passenger trains. Airports make extensive use of 
passenger profiling, passenger screening, metal detectors, X-ray 
machines, explosives sniffers, hand searchers, and armed guards.\3\ 
Such measures necessarily add to costs and travel times. Passengers 
expect rail transportation, including commuter lines and subways, to be 
fast and inexpensive. Security measures resulting in increased fares or 
longer travel times would likely lead to losses in ridership. Physical 
space constraints in some locations, coupled with commuter densities, 
make it nearly impossible to construct rail station ``safe zones'' like 
those separating check-in counters from departure gates at airports.
---------------------------------------------------------------------------
    \3\ Brian Michael Jenkins and Larry N. Gersten, ``Protecting Public 
Surface Transportation Against Terrorism and Serious Crime: Continuing 
Research on Best Security Practices,'' Mineta Transportation Institute, 
College of Business, San Jose State University, September 2001.
---------------------------------------------------------------------------
    At the same time, while passenger rail facilities and networks in 
and of themselves may be attractive targets, it seems unlikely that 
terrorists could exploit the passenger rail network as a weapon in the 
way that the air transportation network was exploited on September 11. 
Given that trains travel dedicated routes, they are less likely to be 
diverted to specific targets. In recent decades, there are few examples 
of train hijackings, and apparently none that have been identified 
since 1998.
Freight Rail
    Freight rail does not offer terrorists high densities of passenger 
targets, but it does provide terrorists with some opportunities that 
passenger rail does not afford. In particular, freight rail is used to 
transport hazardous materials and dangerous cargoes. An estimated 40 
percent of inter-city freight, including half of the Nation's hazardous 
materials (based on ton miles), moves by rail.\4\ In some 
circumstances, these cargoes are transported through densely populated 
urban areas. Two accidents involving freight rail help illustrate some 
of the potential issues associated with hazardous cargoes:
---------------------------------------------------------------------------
    \4\ ``Freight Railroad Security Plan,'' Association of American 
Railroads at www.aar.org/rail safety/rail security plan.asp accessed on 
August 8, 2003.

  <bullet> A train carrying liquid fertilizer derailed in a small North 
        Dakota town in January 2002. The incident killed one and 
        hospitalized 15. The accident punctured 18 cars and resulted in 
        a toxic cloud. Residents within a 3-mile radius of the incident 
        were evacuated.\5\
---------------------------------------------------------------------------
    \5\ ``Derailed Train Leaks Gas in ND City.'' NBC News.com. January 
18, 2002.

  <bullet> In July 2001 a railcar caught fire in a tunnel under 
        downtown Baltimore. The fire, which took five days to 
        extinguish, involved chemicals and other cargo on the train. 
        Rail movements throughout the Northeast Corridor, fiber optic 
        communications, light rail passenger trains in the downtown 
        area, and Amtrak passenger trains were all disrupted during the 
        incident.
What Has Been Done to Secure Rail Transportation?
    In the aftermath of the September 11 terrorist attacks, rail 
transportation and security officials undertook a variety of measures 
to improve passenger and freight rail security.
Passenger Rail
    Even before the September 11 terrorist attacks, the FRA had 
required passenger trains to have emergency plans in place. One reason 
for this requirement, and for the attention the Railroad Administration 
has had to give such general issues, is that passenger train accidents 
are not infrequent. According to FRA statistics, there were 265 
passenger train accidents in 2000 and 201 in 2001.\6\ The emergency 
response skills that operators of passenger trains had acquired were 
crucial to limiting casualties in the immediate aftermath of the 
September 11 terrorist attacks, when Port Authority Trans-Hudson (PATH) 
trains helped evacuate more than 5,000 persons from the basement of the 
World Trade Center.
---------------------------------------------------------------------------
    \6\ Accessed at http://www.railroad-accident.com/html/stats.html, 
March 22, 2004.
---------------------------------------------------------------------------
    Since the September 11 terrorist attacks, passenger systems have 
conducted further drills, testing, and preparation for emergency 
situations. Some systems are experimenting with chemical and biological 
detection systems. The sarin attacks in the Tokyo subway system are one 
reminder that the next attack on transportation systems may not involve 
conventional weapons. The Washington, D.C. subway system recently 
initiated a program for identifying suspicious packages in its system. 
It is unclear how much training non-security personnel have had in this 
program, but such a program can be an important element in increasing 
public awareness about the dangers of such packages, and thereby in 
reducing the danger from them.
Freight Rail
    In the aftermath of the September 11 attacks, the leadership of the 
freight rail industry generated more than 100 action items, a multi-
stage alert system, and round-the-clock communications with homeland 
security and national defense officials.\7\ These action items were 
based on the results of a strategic review of the transportation of 
hazardous materials, the security of the industry's information 
infrastructure, freight rail operations and infrastructure, and 
military needs relating to the rail network. The critical action items 
included the need to: \8\
---------------------------------------------------------------------------
    \7\ Freight Railroad Security Plan,'' Association of American 
Railroads at www.aar.org/rail_safety/rail_security_plan.asp accessed on 
August 8, 2003.
    \8\ Curt Secrest, ``Railroad Security Issues,'' presented to the 
Pennsylvania Joint Rail Freight Seminar on May 9, 2002, Philadelphia, 
PA.

  <bullet> Integrate protective housings, valves and fittings into 
        hazardous transport infrastructure to prevent tampering and 
---------------------------------------------------------------------------
        facilitate emergency response.

  <bullet> Increase surveillance of freight equipment, through training 
        of staff on observation and the installation of video 
        surveillance equipment.

  <bullet> Improve operations by monitoring for signal tampering; 
        requiring crews and dispatchers to verify communications for 
        train movements and dispatches; and locking locomotive doors to 
        prevent hijackings.

  <bullet> Secure the information infrastructure that terrorists could 
        use to enhance attacks or cause systemic shutdowns.

  <bullet> Collaborate with the Department of Defense (DOD) to ensure 
        the viability of STRACNET (Strategic Rail Corridor Network)--
        designated rail lines that are capable of meeting unique DOD 
        requirements, such as the ability to handle heavy, high or wide 
        loads.
What Can Be Done to Improve Rail Security?
    Because few rail systems have been confronted with sustained terror 
campaigns, it is difficult to evaluate the effects of security 
measures. The United Kingdom's experience with IRA attacks on rail 
infrastructure offers one of the better opportunities to understand 
both terrorist behavior and the value of security measures. Analysis of 
the IRA bombing campaigns in London shows that the terrorists sought to 
exploit simple gaps in security.\9\ Examples of such gaps included 
breaks in fencing allowing access to certain targets, poor lighting 
allowing concealment of actions, and litter bins allowing hiding of 
packages.
---------------------------------------------------------------------------
    \9\ Brian Michael Jenkins and Larry N. Gersten, ``Protecting Public 
Surface Transportation Against Terrorism and Serious Crime.''
---------------------------------------------------------------------------
    The analysis of these incidents led to the development of a broad 
security strategy that addressed some of the more glaring weaknesses 
exploited by the terrorists. The security elements included:

  <bullet> Repairing gaps in fei1cing to provide more control around 
        the perimeter of rail facilities.

  <bullet> Improving lighting, both to deter terrorists and to improve 
        facility observation.

  <bullet> Installing blast resistant trash containers to reduce the 
        utility of placing bombs in trash containers while ensuring 
        that passengers had a place to dispose of trash (and that 
        bombers would be less able to hide explosives among accumulated 
        trash).

  <bullet> Installing close-circuit television to provide 
        stationmasters and security personnel with better visibility 
        throughout the facilities.

  <bullet> Installing signage to increase awareness about the danger of 
        unattended packages and to improve the ability to evacuate 
        facilities during emergencies.

  <bullet> Training of personnel and passengers to have a role in 
        security by reporting suspicious behavior, identifying 
        suspicious (especially unattended) packages and luggage, and 
        improving readiness for evacuation and emergency actions.

    Other methods used in Britain included covert testing of security 
measures, increased presence of armed personnel and security officers, 
and the use of public communication strategies to advise on threats, 
service disruptions and the availability of alternate routes and 
transportation methods.
    It is also important to prepare for hoaxes and false alarms, both 
of which can disrupt rail operations. If there were to be a passenger 
rail attack in the United States, it seems likely that there would be 
an increase in false alarms in the aftermath (as, for example, happened 
in the aftermath of the anthrax letters of 2001). It is therefore 
important for rail officials to develop policies and procedures for 
dealing with hoaxes and false alarms so that these would not unduly 
burden rail operations.
    The U.K. security measures are broadly applicable to the U.S. 
passenger rail system. Nevertheless, there are two important gaps in 
our knowledge. First, it is not clear how much should be spent on rail 
security relative to security at other potential targets. Second, the 
cost effectiveness of these rail measures has not been assessed. Threat 
assessments are required to address both of these issues.
Improving Freight Rail Security
    Many of the elements identified as improving security for passenger 
rail are applicable to freight rail as well. To a considerable extent, 
the security of the Nation's freight rail system is in the hands of the 
private sector. At the same time, freight rail competes with trucks and 
other transport modes for business, and thus it is important that the 
size and incidence of security costs be considered, and how the private 
sector might be provided with incentives to improve security.
    There is concern about the resilience and robustness of the freight 
rail system. Many key freight corridors are heavily used, compete with 
passenger trains for track space, and suffer from a lack of alternative 
routes. Attacks on critical freight nodes or functions could therefore 
create substantial bottlenecks and throughput pressures. Some 
characterize the freight rail system as ``growing simultaneously more 
robust and more fragile.'' \10\ Robustness is evident in the 
considerable growth in the freight rail industry, and the relatively 
large shares of freight by tonnage and value that the rail system 
carries.\11\ Concerns about fragility arise from the continued focus on 
just-in-time manufacturing and logistics, and the freight rail 
industry's corresponding need to build capacity that serves these 
manufacturing patterns.\12\
---------------------------------------------------------------------------
    \10\ Michael Wolfe, ``Freight Transportation Security and 
Productivity,'' paper for the FHWA Office of Freight Management and 
Operations, April 2002.
    \11\ ``Freight-Rail Bottom Line Report,'' American Association of 
State Highway and Transportation Officials (AASHTO), 2003.
    \12\ AASHTO, 2003, pp. 46-47.
---------------------------------------------------------------------------
    Some, however, are more confident that the national transportation 
infrastructure is resilient and that the system is unlikely to collapse 
because of any single attack. The National Research Council concluded 
that surface transportation systems are more vulnerable to point 
attacks than systemic attacks ``because of the decentralized, 
multimodal character of surface transportation, mounting a system-wide 
attack with large spatial and temporal impact would be difficult.'' 
\13\ In particular, experience with natural disasters that have 
affected multiple elements of the system suggests a substantial amount 
of systemic resilience.\14\
---------------------------------------------------------------------------
    \13\ ''Improving Surface Transportation Security: A Research and 
Development Strategy,'' National Research Council, 1999, Washington, 
D.C.
    \14\ Michael Wolfe, Freight Transportation Security and 
Productivity: Complete Report. Long Beach, CA: Intermodal Freight 
Security and Technology Workshop, April 27-29, 2002. p. 12.
---------------------------------------------------------------------------
Next Steps
    No security system for passenger and freight rail will be perfect. 
It is therefore critical to consider the consequences of what security 
failures might mean, and to balance these potential consequences with 
priorities for preventing them. Little is known about how long it might 
take to restart the passenger and freight rail systems in the aftermath 
of an attack similar to those of September 11. Similarly, there are 
complex issues of liability that relate to existing legislation such as 
the Terrorism Risk Insurance Act.
    There are tools at our disposal that will help improve our 
understanding of passenger and freight rail security issues. Simulation 
exercises and games, for example, can help identify weaknesses in 
response capacities and deepen our understanding of how to resume 
activities in the aftermath of an attack. Similarly, threat assessments 
can be useful for guiding decisions about how much, and where, to spend 
on passenger and freight rail security programs.
    There is a need for a coordinated Federal policy on rail security, 
encompassing freight, passenger and commuter rails. Compared to other 
transportation sectors, decision-making appears to be quite 
decentralized between a number of federal, state, local, and private 
concerns. A coordinated approach for counterterrorism measures in the 
rail transportation system should undertake three tasks. First, it 
should define the Federal role in preventing or mitigating such 
attacks. Second, it should prioritize investments needed for preventing 
attacks against rail transportation systems with those needed to 
prevent attacks against other transportation systems. Third, it should 
define the roles and responsibilities of federal, state, and local 
agencies, transportation companies, and passengers and freight shippers 
in preventing terrorist attacks against rail systems and in responding 
to their consequences.
    Given the magnitude of the recent attacks in Spain, it would be 
prudent to undertake such planning steps in the near future.

    Senator Hutchison. Thank you.
    Mr. Hamberger.

             STATEMENT OF HON. EDWARD R. HAMBERGER,

             PRESIDENT AND CHIEF EXECUTIVE OFFICER,

               ASSOCIATION OF AMERICAN RAILROADS

    Mr. Hamberger. Thank you, Madam Chairman. On behalf of the 
members of the Association of American Railroads, thank you for 
holding this hearing today and giving us the opportunity to 
testify. AAR members account for the vast majority of freight 
rail mileage, freight employees, and freight revenue in the 
United States, Canada, and Mexico.
    Let me just address your question right out, Madam 
Chairman: Did we step to the plate? I believe that the railroad 
industry reacted swiftly and positively to the terrorist attack 
of September 11. But more importantly, Admiral James Loy, 
Deputy Secretary of the Department of Homeland Security, 
testified recently on the House side, saying: ``AAR and its 
members have been terrific in coming to the plate and helping 
us figure strategic plans for the transportation sector.''
    Recognizing the character of some of the cargo that we 
carry and having a history of putting the safety of our 
employees and the communities in which we operate as our top 
priority, railroads did on their own initiative conduct a 
thorough risk analysis of the rail network to identify 
vulnerabilities and develop countermeasures. This resulted in 
the implementation of an industry-wide, risk-based rail 
security plan that used CIA and intelligence communities best 
practices.
    I emphasize that we went outside of our industry to use 
these outside experts with a background in intelligence 
because, as Senator Biden pointed out earlier this morning, we 
did not know how terrorists think. We wanted to look at our 
system the way terrorists would look at our system. Using this 
perspective, we came up with a plan that defines four security 
alert levels and details specific actions to be taken at each 
level.
    It also raised our baseline of security by implementing 53 
permanent changes in rail operations, including one suggested 
by the gentleman on my right, employee training and awareness 
so that we have an army of over 200,000 sets of eyes and ears 
out there on the railway.
    We are currently at level 2, which tracks very closely the 
specific countermeasures suggested to the private sector to be 
taken at Code Level Orange by the Department of Homeland 
Security.
    But, as has been discussed here, the rail network is vast 
and open. Our risk assessment identified over 1300 critical 
assets based on the need for protection of commerce, 
population, and military cargo. Consequently, we needed to come 
up with a security infrastructure that would allow railroads to 
focus our resources on where the threat is greatest. This 
requires that railroads quickly receive the latest intelligence 
data, including threat information, from government agencies. 
Consequently, we are in constant communication with pertinent 
intelligence and security personnel at DHS, DOD, Department of 
Transportation, the FBI's National Joint Terrorism Task Force, 
as well as State and local enforcement agencies.
    Knowledgeable railroad analysts literally work side by side 
with government intelligence analysts at the NJTTF and DHS to 
help evaluate information at the Top Secret level. To my 
knowledge, we are the only industry sector to have made this 
commitment.
    The heart of this communications system is the Railway 
Alert Network, or RAN, which was established after 9/11 to 
provide terrorism threat information to the industry. The hub 
of the RAN is in the AAR's operations center a few blocks from 
here, which operates at the Secret level and is staffed with 
mobile communications around the clock. The RAN is liked to the 
Surface Transportation Information Sharing and Analysis Center, 
yet another acronym, the ST-ISAC, which was created by the AAR 
at the request of the Department of Transportation, to collect, 
analyze, and distribute security information to protect both 
physical assets and information technology systems. Personnel 
there are cleared at the Top Secret level and it operates 24 
hours a day.
    In addition to the freight railroads, Amtrak and 75 
commuter and transit rail authorities are members of the ST-
ISAC.
    Of course, one area that receives special attention from 
the railroads is the movement of hazardous materials. The 
uninterrupted flow of hazardous materials is necessary for the 
health and safety of the United States as well as its economic 
growth. Chlorine, for example, is critical to physical health 
because it is used to purify more than half of the Nation's 
water supplies and is used in the manufacturing of a huge array 
of pharmaceutical products.
    This vividly underscores the tension between the need for 
the free flow of commerce and the need for security. 
Recognizing this tension, the railroads worked closely with the 
Government agencies and major customer groups to avoid 
logistical gaps in the supply chain. For example, the Chlorine 
Institute used the same outside expert security team that we 
did to develop a chlorine transportation security plan that 
dovetails very closely with the railroads' plan.
    Let me just say that the railroads are opposed to 
legislation that would grant State and local governments the 
ability to restrict rail movements of hazardous materials. 
Because rail transportation is interstate in nature, it 
requires a uniform set of standards that apply nationwide. This 
uniformity would be severely jeopardized if states or 
localities sought to force rerouting by prohibiting the 
transportation of hazardous materials within their 
jurisdictions.
    Rerouting would lead to an increase in miles traveled, 
increased switching and handling of cars, thereby potentially 
increasing exposure, and only transfer that exposure from one 
community to another. It could also lead to the diversion of 
hazardous materials shipments to the highways, and the most 
recent DOT data indicate that on a ton-miles basis hazardous 
material releases are 16 times as likely to occur on highways 
as on rails.
    Freight railroads are proud of the efforts we have taken to 
keep our Nation's vital rail transportation link open and 
secure since the terrorist attacks of September 11 and we will 
continue to work with this committee, others in Congress, the 
Federal agencies, our customers and other relevant parties to 
further enhance the safety and security of the Nation's 
railroads.
    Thank you.
    [The prepared statement of Mr. Hamberger follows:]

    Prepared Statement of Edward R. Hamberger, President and Chief 
          Executive Officer, Association of American Railroads
    On behalf of the members of the Association of American Rai1roads 
(AAR), thank you for the opportunity to meet with you today to discuss 
railroad security. AAR members account for the vast majority of rail 
mileage, employees, and revenue in Canada, Mexico, and the United 
States.
    The AAR and its members join the rest of our Nation in extending 
our sympathy and condolences to the victims of the recent terrorist 
attacks in Madrid. Those senseless attacks underscore the unfortunate 
reality that the global war on terror remains unfinished. The attacks 
also remind us of the importance of security as it relates in 
particular to railroads.
    Freight railroads are keenly aware of the tension between the need 
for transportation efficiency and the assurance that our transportation 
systems are adequately protected from terrorist threats. We urge 
Congress to strike a proper balance between protecting our country's 
transportation assets and its citizens, and providing for the free flow 
of goods and promoting our international competitiveness. As Secretary 
Mineta has remarked, ``What we don't want is for our checkpoints to 
become chokepoints.''
    Below I will discuss the many ways that U.S. freight railroads have 
addressed security in the post-9/11 era.
The Immediate Aftermath of September 11
    The rail industry reacted swiftly to the events of September 11, in 
full cooperation with government authorities. In the immediate 
aftermath of the attacks, railroads tightened security and intensified 
inspections across their systems. Major railroads--which maintain their 
own police forces to help assure the security of employees, property, 
and freight--put into place more than 50 countermeasures to help ensure 
the security of the industry. For example, access to important rail 
facilities and information was restricted. The industry significantly 
increased cyber-security procedures and techniques. Employee records 
were compared with FBI terrorist lists. Security briefings, like safety 
briefings, became a daily part of many employees' jobs.
    In late September 2001, the AAR Board of Directors established a 
Railroad Security Task Force. The task force had the full participation 
of AAR members, including our Canadian and Mexican members and the 
American Short Line and Regional Railroad Association (ASLRRA). The 
overarching focus of this task force was (1) to ensure the safety of 
rail employees and the communities in which railroads operate; (2) to 
protect the viability of national and regional economic activity; and 
(3) to ensure that railroads can continue to play their vital role in 
the military mission of our Nation.
    Over the next several months, the task force conducted a 
comprehensive risk analysis of the freight rail industry. Using CIA and 
national intelligence community ``best practices,'' five critical 
action teams (consisting of more than 150 experienced railroad, 
customer, and intelligence personnel) examined and prioritized railroad 
assets, vulnerabilities, and threats. The critical action teams were:

    1. Information Technology and Communications: This team examined 
the security of railroad communications, control systems, and 
information systems, including the evaluation of procedures regarding 
system redundancy, data confidentiality, emergency incident handling, 
and reconstitution of service. Based on the efforts of this team, many 
security measures were implemented immediately across the industry.
    2. Physical Infrastructure: This team assessed the physical 
security of essential bridges, buildings, dispatch centers, tunnels, 
storage facilities, and other structures. A database of critical assets 
was created and recorded in a Geographic Information System. Amtrak's 
critical assets are inc1uded in this database. The team also addressed 
cross border and port ``gateway'' physical security issues.
    3. Operational Security: This team documented the ``life cycle of a 
train'' and determined ways to minimize exposure to unplanned 
occurrences while trains are in operation. It also addressed the issue 
of fuel supply.
    4. Hazardous Materials: This team examined the transport of 
hazardous materials by rail, with emphasis on materials (such as 
potentially poisonous gases) that pose the greatest potential safety 
risk. The team identified current shipping patterns for these materials 
and worked closely with the chemical industry and tank car 
manufacturers to evaluate alternatives, inc1uding routing restrictions, 
product remanufacturing, and packaging.
    5. Military Liaison: This team worked with the Department of 
Defense and its Military Traffic Management Command (MTMC) to determine 
immediate and ongoing military traffic requirements and to identify 
capacity, security, and equipment needs of the industry to meet 
military demand. The Department of Defense relies on freight railroads 
to move ordnance and equipment. For example, railroads transported some 
98 percent of the ammunition used by the United States in the Iraq war. 
The MTMC, recently renamed ``Surface Deployment and Distribution 
Command,'' has designated 30,000 miles of rail corridors--known as the 
Strategic Rail Corridor Network (STRACNET)--as essential to the 
national defense. The AAR is in full agreement with this assessment. 
Our nation's railroad route structure is vital to both homeland 
security and to the support of DOD initiatives.
    In addition to the above activities, freight railroads cooperated 
fully with a separate team, involving the Federal Railroad 
Administration (FRA), commuter railroads, and Amtrak, dealing with rail 
passenger security.
The Terrorism Risk Analysis and Security Management Plan
    The end result of the work of the freight railroad critical action 
teams was the development of a Terrorism Risk Analysis and Security 
Management Plan (``Plan''), a comprehensive, 24/7 priority-based 
blueprint of actions designed to enhance the security of the Nation's 
freight rail network and its ability to support our economy, national 
defense, and public health.
    The AAR Board of Directors adopted the Plan on December 6, 2001, 
and it remains in effect today. The security processes and analyses 
detailed in the Plan, including actions and countermeasures, are 
periodically evaluated--and modified, as appropriate--for effectiveness 
and to ensure maximum efficiencies from advances in security technology 
and procedures.
    The Plan defines four security alert levels and details the actions 
to be taken at each level as the terrorist threat increases. Alert 
level actions are applied in the areas of operations (including 
transportation, engineering, and mechanical), information technology/
telecommunications, and railroad police.
    Alert Level 1 is ``New Normal Day to Day Operations'' and exists 
when a general threat of possible terrorist activity exists but 
warrants only a routine security posture. Thirty-two actions are in 
effect at this level, including conducting security training and 
awareness activities; restricting certain information to a need-to-know 
basis; restricting the ability of unauthenticated persons to trace 
certain sensitive materials; and periodically testing that security 
systems are operating as intended.
    Alert Level 2 is ``Heightened Security Awareness'' and applies when 
there is a general non-specific threat of possible terrorist activity 
involving railroad personnel and facilities. Twenty-one additional 
actions are in effect at this level, such as including security and 
awareness briefings as part of daily job briefings; conducting content 
inspections of cars and containers for cause; conducting spot content 
inspections of motor vehicles on railroad property; and increasing 
security at designated facilities.
    As of today, the freight rail industry is at Alert Level 2, with a 
number of added security actions focused on transportation of certain 
hazardous materials in several metropolitan areas. These extra 
precautions are in place to address special circumstances as described 
to the railroad industry by the Department of Homeland Security.
    Alert Level 3 is put into place when there is ``a credible threat 
of an attack on the United States or railroad industry.'' It applies 
when an increased, credible, and more specific threat of terrorist 
activity exists than at Level 2. A decision to declare Level 3 will be 
evaluated in light of the specificity of threat against railroad 
personnel and facilities. The 40 additional actions in Level 3 must be 
capable of being maintained for weeks without causing undue hardship on 
railroads or their customers. Examples of Level 3 actions include 
further restricting physical access and increasing security vigilance 
at control centers, communications hubs, and other designated 
facilities and requesting National Guard security for critical assets.
    Alert Level 4 applies when a confirmed threat against the railroad 
industry exists, an actual attack against a railroad or an attack in 
the United States causing mass casualties has occurred, or other 
imminent actions create grave concerns about the safety of operations. 
There are 19 additional actions to be implemented at this level that 
will be instituted for up to 72 hours and periodically evaluated for 
continuation. These include stopping non-mission-essential contract 
services with access to critical facilities and systems; increasing 
vigilance and scrutiny of railcars and equipment during mechanical 
inspections to look for unusual items; and ensuring continuous presence 
of guards at designated facilities and structures.
    Alert Levels 3 and 4 can be declared industry-wide for a short 
period of time or can be declared in a particular geographic or 
operational area (e.g., the Midwest or hazardous materials) where or 
when intelligence has identified that terrorist action against a 
specific location or operation is imminent.
The Railway Alert Network and ST-ISAC
    To help ensure that the parties involved have access to pertinent 
intelligence and other information, the rail industry is in constant 
communication with intelligence and security personnel at the 
Department of Homeland Security (DHS), the Department of Defense (DOD), 
the Department of Transportation (DOT), the FBI's National Joint 
Terrorism Task Force (NJTTF), state and local law enforcement, and 
others. A railroad police officer and knowledgeable railroad analysts 
work literally side-by-side with government intelligence analysts at 
NJTTF and in two intelligence offices within DHS (the Information 
Analysis and Infrastructure Protection Directorate and the 
Transportation Security Administration) to help evaluate intelligence 
at the Top Secret level.
    The heart of this communication system is the Railway Alert Network 
(RAN). The major purpose of the RAN, which was established by the AAR 
shortly after September 11, is to monitor the level of threat to the 
rail industry and to alert the industry if it changes. The hub of the 
RAN is AAR's Operations Center, which operates at the Secret level and 
is staffed with mobile communications around the clock at Alert Level 2 
and is physically staffed at Levels 3 and 4.
    The RAN is linked to the Surface Transportation Information Sharing 
and Analysis Center (ST-ISAC). The ST-ISAC, which was created by the 
AAR at the request of the U.S. Department of Transportation, provides a 
robust capability for collecting, analyzing, and distributing security 
information from worldwide resources to protect vital physical assets 
and information technology systems. Cleared at the Top Secret level, 
the ST-ISAC also operates 24-hours-a-day, 7-days-a-week. Along with the 
freight railroads, Amtrak and approximately 75 transit and commuter 
rail authorities (through the American Public Transit Association) are 
members of the ST-ISAC.
    Obviously, rail security efforts depend a great deal on the efforts 
of railroads' dedicated and highly professional employees--including 
engineers and conductors aboard trains, maintenance of way crews and 
inspectors working along the tracks, railroad police officers, and 
others. They are the ``eyes and ears'' in the industry's security 
effort, and we should all be grateful for their vigilance and care.\1\
---------------------------------------------------------------------------
    \1\ Under existing Federal law, railroad police officers have law 
enforcement authority only while on the property of their own railroad. 
However, Section 212 of S. 1402 (the ``Federal Railroad Safety 
Improvement Act''), which passed the Senate in November 2003 and has 
been referred to the House Committee on Transportation and 
Infrastructure, would grant railroad police enforcement authority on 
any railroad. Railroads strongly support this provision and commend 
this committee for its support of it.
---------------------------------------------------------------------------
    In recognition of the thoroughness of the railroad security plan 
and the dedication with which it has been put into effect, in June 2003 
the Association of American Railroads was named a recipient of the U.S. 
Department of Defense's James S. Cogswell Award for Industrial 
Security. The Cogswell Award is the most prestigious award in the 
industrial security field. Of nearly 11,000 cleared contractors, only 
15 were selected to receive the award in 2003. The railroad industry is 
also one of the few private sector industries to receive an ``A'' for 
its security efforts in a recent independent analysis by The Washington 
Post.
    Notwithstanding all of these rail industry efforts, we recognize 
that there can be no 100 percent guarantee against terrorist assaults. 
If such an assault involving freight railroads occurs, railroads have 
established programs and procedures that can and will be invoked that 
are designed to respond to, mitigate, and minimize the impact of 
dangerous and unusual incidents. The programs and procedures include 
the establishment of emergency response plans for hazardous materials 
incidents, operational administration redundancy, and the training of 
rail employees and public emergency response personnel.
Railroad Hazardous Materials Movements
    Railroads work to ensure the continued safety of hazardous 
materials transport in numerous ways.
    For example, railroads provide rigorous tank car quality assurance 
programs, field testing, and inspections of chemical loading 
facilities; assist communities in developing and evaluating emergency 
response plans; provide hazmat training for emergency responders; and 
support Operation Respond, a nonprofit institute devoted to improving 
the communication of emergency response information to police and fire 
departments.
    Tank cars must meet stringent U.S. DOT specifications if used to 
transport hazardous materials. For example, they must be equipped with 
pressure relief devices (to protect the tank in the event of fire) and 
double shelf couplers (to prevent tank punctures by a coupler). Some 
cars also have steel ``head shields'' at each end of the car (to 
further protect against puncture), thermal shields, jacketed insulation 
systems, and protected top and bottom fittings.
    The AAR and the railway supply industry jointly fund the Tank Car 
Safety Research and Test Project. This project monitors tank car 
accidents and is continually updating a comprehensive database on the 
precise nature of damage to tank cars. Analysis of these data improves 
safety by improving researchers' ability to identify the causes of tank 
car releases and how to help prevent future occurrences. The project 
database is often cited by the U.S. DOT as a role model for other modes 
of transportation. In addition to its ongoing safety data collection 
and analysis activities, the project also has a number of ongoing 
research efforts, including efforts aimed at developing better steels 
for tank cars and developing a method for testing the effectiveness of 
surge suppression devices for tank cars.
    Going forward, the railroad industry is committed to using 
resources at its disposal and continuing to work closely with Federal 
security agencies and with local and state authorities to help ensure 
that our Nation's security and safety are not compromised. At the same 
time, it must be recognized that the flow of many types of essential 
products--including some products that are characterized as ``hazardous 
materials''--cannot be unreasonably disrupted without causing 
significant damage to our Nation's health and economic well being.
    Chlorine, for example, is potentially extremely dangerous if 
misused or mistreated. At the same time, the chemical is absolutely 
critical to our physical health because of its widespread use as a 
purifier at water treatment facilities, in a huge array of 
pharmaceutical products, and in hundreds of other uses. Even a brief 
shutdown of the transportation of chlorine would have potentially 
devastating effects.
    The rail industry cautions against actions that might appear 
appealing at first glance, but in reality could be contrary to the 
public interest. For example, railroads oppose Section 443(g) of S. 
1978, the ``Surface Transportation Safety Reauthorization Act of 
2003,'' which passed the Senate as part of the TEA-21 reauthorization 
bill. This provision authorizes the U.S. DOT to grant to state or local 
authorities the power to preempt Federal law regarding hazmat 
transportation during certain ``emergency'' situations. Railroads also 
oppose efforts to grant to local governments the authority to restrict 
rail movements.
    Railroads operate as part of an integrated national network and 
regulatory constraints on operations can have a ripple effect 
throughout the rail system. The effect is not circumscribed by state or 
local boundaries. Because rail transportation is inherently interstate 
in nature, the safe rail transport of any commodity, including 
hazardous materials, requires a uniform set of standards that apply 
nationwide.
    This uniformity would be severely jeopardized if states or 
localities sought to force rerouting by prohibiting the transportation 
of hazardous materials within their jurisdictions. If this happened, 
optimal transportation routes, from the perspective of national safety 
and security, might be foreclosed. For example, rerouting can involve 
an increase in miles traveled, and those additional miles could be on 
rail infrastructure less suitable (for a variety of reasons) to 
handling hazardous materials. Emergency response capability along 
alternate routes may lack requisite expertise in handling the most 
dangerous commodities. Additional switching and handling of cars along 
with added ``dwell time'' in yards--all potential consequences of using 
less efficient routes--also have the effect of increasing exposure.
    Indeed, given the limited routing options for rail transportation, 
rerouting mandates of this sort could effectively result in the near 
cessation of hazardous materials transportation by rail, leading to the 
diversion of such traffic to the Nation's highways where the likelihood 
of accidents involving hazardous materials is far higher.\2\
---------------------------------------------------------------------------
    \2\ According to U.S. DOT data, rai1roads and trucks carry roughly 
equal ton-mileage of hazardous materia1s, but trucks have nearly 16 
times more hazmat releases than railroads.
---------------------------------------------------------------------------
    Recently, the D.C. City Council has raised concern about the 
transportation of hazardous materials through the city. The railroad 
industry is cooperating fully with the DHS, the DOT, and the city 
government to assess the security of the rail corridor that runs 
through Washington, DC. Within the last week, vulnerability assessment 
teams conducted an intense review of the railroad property within the 
Beltway. Since the terrorist attacks on September 11, 2001, CSX 
Transportation, which owns the railroad, has ``hardened'' that corridor 
by adding surveillance, restricting access, enhancing Communications, 
and coordinating with local law enforcement, U.S. Capitol Police and 
the Department of Defense. This ongoing assessment will identify any 
additional countermeasures that may be required.
    The rail industry agrees that vigilance in the transportation of 
hazardous materials must be maintained, and efforts must be made to 
increase hazmat safety where possible and practical. But decisions to 
reroute potentially hazardous products must be based upon sound 
analysis of the consequences. To address problems associated with the 
transportation of important chemicals, the rail industry is working 
closely with the chemical industry, DOT, DHS, the Homeland Security 
Council at the White House, and others to address potential 
vulnerabilities--and recommend appropriate safeguards--in an analytical 
and comprehensive fashion.
    One of the issues of concern identified by the rail industry in the 
course of its risk assessment is a Federal requirement to place 
placards on rail cars carrying hazardous materials. Local first 
responders use the information posted on placards to determine car 
contents. The industry is working with the FRA and the Transportation 
Security Administration to study alternative means of providing car 
content information to the emergency response community. If successful, 
this could serve as a substitute for the reliance on placards.
    In developing the industry's security plan, the railroads closely 
coordinated with major customer groups to avoid logistical gaps in the 
supply chain. For example, the Chlorine Institute subsequently 
developed a chlorine transportation security plan that dovetails with 
the railroads' plan. The American Chemistry Council and the AAR are 
working toward agreement on how to coordinate security measures for 
shipments of other hazardous materials.
Passenger Railroads
    More than 90 percent of the route mileage over which Amtrak 
operates, as well as a significant portion of the trackage over which 
many commuter railroads operate, is actually owned and maintained by 
freight railroads. Therefore, actions taken by freight railroads to 
enhance security also benefit passenger rail. Freight railroad police 
coordinate with and support Amtrak police to, among other things, 
increase uniformed police presence in rail passenger stations. Amtrak, 
commuter rail and transit authorities, and the freight railroads 
receive and share threat and incident information through the RAN and 
the ST-ISAC. That said, freight railroad security-related plans and 
procedures are not specifically designed to protect passengers or to be 
a substitute for actions that Amtrak or other passenger railroad 
operators might choose to take.
Port and Border Security
    The issue of port security is separate and distinct from the issue 
of rail security, although railroads, by virtue of the fact that they 
carry millions of containers unloaded from or loaded on to steamships 
each year, are certainly impacted. Ports have spent hundreds of 
millions of dollars enhancing their security, much of it funded by 
Federal grants. Railroads work closely with the Captains of Ports to 
ensure compliance with Coast Guard regulations regarding port facility 
security.
    Freight railroads operating in the United States, Canada, and 
Mexico form a seamless, coordinated, and heavily-traveled network, with 
hundreds of thousands of railcars and intermodal units crossing each 
border each year. Railroads work diligently with the U.S. Bureau of 
Customs and Border Protection (CBP) and others to enhance border 
security.
    For example, one year ago, United States and Canadian customs 
agencies and Canada's two major railways signed a declaration of 
principles to enhance security at the Canada-U.S. border and to ensure 
secure rail access to the United States. The declaration--signed by 
CBP, Canada Customs and Revenue Agency (CCRA), Canadian National 
Railway (CN), and Canadian Pacific Railway (CP)--outlines principles 
for targeting, screening, and examining rail shipments transported by 
the Canadian carriers into the United States. The declaration includes 
guidelines for the electronic transmission of cargo information by the 
railroads to customs officials in advance of each train's arrival at 
the border and installation of Vehicle and Cargo Inspection System 
(VACIS) and radiation detection equipment at CN and CP border 
crossings.
    Rail VACIS systems, which are also in use at rail border crossings 
with Mexico, use gamma ray technology to scan entire trains one railcar 
at a time. The gamma ray source and detectors are stationary as the 
train moves through the system. Inspectors examine scanned images of 
rail cars for contraband, potential terrorists, or terrorist weapons 
without opening them and potentially endangering lives. Suspicious rail 
cars are segregated for inspection, with minimal disruption to the flow 
of legitimate commerce. Today, where CBP has installed this equipment 
on the borders with both Canada and Mexico, 100 percent of rail cars 
are screened.
    U.S. freight railroads are also active participants in the Customs-
Trade Partnership Against Terrorism (C-TPAT). C-TPAT is a joint 
government-business initiative within the CBP to build cooperative 
relationships that strengthen overall supply chain and border security. 
Through this initiative, CBP is asking businesses--including 
railroads--to ensure the integrity of their security practices and 
communicate their security guidelines to their business partners within 
the supply chain. I am happy to report that all U.S. Class I railroads 
are currently C-TPAT certified. The certification process involves a 
comprehensive review of a railroad's procedural security, physical 
security, personnel security, education and training, access controls, 
manifest procedures, and conveyance security.
    Railroads have also been active participants in the significant 
expansion of Integrated Border Enforcement Teams (IBET) across the 
U.S./Canada border. The mandate of these teams is to enhance border 
integrity and security by ``identifying, investigating and interdicting 
persons and organizations that pose a threat to national security or 
engage in other organized crime activity.''
    Finally, on January 5, 2004, final regulations issued by the CBP 
went into effect requiring all transportation modes to submit cargo 
information electronically before arriving at the U.S. border; the rail 
industry was an active participant in the regulatory process. The 
required minimum advanced notification for rail cargo is two hours. 
Railroads are complying with this requirement. The two-hour requirement 
is a substantial improvement over the 24-hour notification period first 
proposed by CBP, which would have been devastating to the efficient 
flow of commerce within our Nation.
Funding
    Railroads have been underwriting the cost of security measures for 
the benefit of the general public and for national defense, in addition 
to normal expenditures made to ensure the safety of rail operations. 
Additional protective measures required at the highest alert levels 
cannot be sustained by the industry alone. This is reflected in the 
railroads' Plan, which, at these higher levels of alert, calls for the 
use of National Guard and local law enforcement support to augment 
industry protection of critical infrastructure. In order to effectively 
achieve such protection, advanced planning will be required to 
coordinate the process among all the relevant parties.
    The rail industry is also seeking to continue technical research 
into protective measures and emergency response protocols and has 
identified a need for $15 million in Federal assistance to help achieve 
these objectives.
    Finally, the rail industry may wish to request assistance for the 
costs brought about by extraordinary security measures required by any 
future government mandates.
Conclusion
    U.S. freight railroads are proud of the success they achieved in 
keeping our Nation's vital rail transport link open following the 
September 11, 2001 terrorist attacks. Since then, railroads have taken 
a number of steps to increase the security of our Nation's rail 
network, including the development of a comprehensive security 
management plan that incorporates four progressively severe alert 
levels. We will continue to work with this committee, others in 
Congress, Federal agencies, and all other relevant parties to further 
enhance the safety and security of our Nation's railroads.

    Senator Hutchison. Thank you.
    Mr. Millar.

          STATEMENT OF WILLIAM W. MILLAR, PRESIDENT, 
           AMERICAN PUBLIC TRANSPORTATION ASSOCIATION

    Mr. Millar. Thank you, Madam Chair. It is my pleasure, on 
behalf of the 1,500 organizations of the American Public 
Transportation Association, to appear before you this morning.
    It is particularly important that you are holding this 
hearing in light of the recent terrorist attacks in Madrid, and 
I have particularly appreciated watching all the Senators who 
have attended today as they have asked their questions. Clearly 
there is an understanding on this Committee of many of the 
basic issues that face us, and we look forward to continuing to 
work with the Committee as it seeks to put together legislative 
recommendations.
    I cannot overemphasize the importance of working to improve 
security for the 32 million Americans who will board public 
transportation vehicles today. Over 11 million of those 
boardings will be on rail systems. While this Committee has 
jurisdiction primarily over the rail area, we have to look at 
surface transportation programs in their entirety and the full 
spectrum of public transportation services, whether it be 
commuter rail, rapid rail, bus, ferry boats, or paratransit.
    Also, this intermodal relationship extends beyond the 
passenger world, and I am very pleased to be appearing with my 
colleague, Ed Hamberger, from the Association of American 
Railroads, because obviously making sure that freight flows 
easily and quickly as the passenger service flows easily and 
quickly is important as well. Many freight railroads operate 
some part of the passenger rail system and some of the commuter 
rail systems handle significant amounts of rail freight. So 
this relationship has to be taken into account.
    Our public transit systems, as you have heard from other 
speakers, are of necessity an open environment, meaning there 
are literally tens of thousands of places that our customers 
can reach our services. Over 9.5 billion times last year, 
people used public transit. This is something like 16 times 
more people than use the airline system, 450 times more than 
travelers who use the Amtrak system. So the Nation's public 
transit systems are an integral part of our transportation 
network, they are available in all 50 states, and we need to 
consider this as we plan nationwide.
    Our transit employees who work on these systems are part of 
the front line of the Nation's fight against terrorism. Indeed, 
they are part of the first responder teams. If a terrorist 
event occurs on a transit system, they become the initial first 
responders that are there. Besides the obvious role that they 
would play in that region, we are also expected to be part of 
any mass evacuation that might be necessary in times of 
emergency. Again, other speakers have spoken about September 
11, 2001, when literally hundreds of thousands of Americans 
exited from the danger areas on public transportation systems.
    So safety and security is a top priority of our industry. 
It was a top priority before September 11. Unfortunately, as 
the earlier speaker has said, there have been events around the 
world on public transportation systems, be they the IRA 
bombings in the British Isles or the saran attacks in Japan or 
any of the more recent attacks. So our industry has known about 
these and has been working to develop and implement plans for 
quite some time.
    Since September 11, 2001, we have identified some $1.7 
billion that State and local governments have invested in 
security and emergency preparedness, which has been very 
important in making our transit systems more secure today than 
they were before. Our members and APTA continue to work closely 
with a number of Federal agencies, particularly the Federal 
Transit Administration and the Federal Railroad Administration, 
which have been most helpful in developing plans and helping us 
do assessments of need and in implementing good strategies to 
meet those assessments.
    More recently, the Department of Homeland Security, as you 
heard this morning, is taking a much greater interest in our 
sector and we are grateful for that.
    Security assessments for all the rail, transit, and 
commuter rail systems in the country have been developed and 
the plans that have resulted from those assessments are now 
being implemented. My written testimony includes background 
information on this issue.
    APTA is also pleased to have been designated the public 
transportation sector coordinator by the U.S. Department of 
Transportation and is very much involved in the Information 
Sharing and Analysis Center, the so-called ISAC, process. One 
of our concerns, however, is that the funding for that expires 
in February, 2005. We doubt that the need for the ISAC will 
expire in 2005.
    We have recently completed a survey of our members. We will 
be releasing the full details of the survey next month and we 
will make those available to the Committee. But the preliminary 
analysis shows that our members find approximately $6 billion 
that ought to be invested in increased security. Now, that is 
over and above the regular and continuing part of the transit 
systems' budgets that I testified to earlier, where they are 
spending State and local resources in that regard.
    So we do believe that it is time for the Department of 
Homeland Security to step up to the plate and provide 
additional funding to make our systems even more secure. We 
respectfully request the help of this Committee as we seek to 
have the President's 2005 budget amended to include specific 
line items for transit and railroad security. We think that we 
have done enough work now in the past 3 years that we 
understand the priorities of where this money ought to be spent 
and we want to work with Congress and the Department of 
Homeland Security to make sure a proper program is developed 
over the next several years and funds made available so that we 
can invest the funds wisely.
    Given the recent events, given the focus now, the 
Department of Homeland Security and the U.S. Department of 
Transportation and our industry need to work more closely 
together than ever. We thank you again for holding this 
hearing, Mr. Chairman, and we will be pleased to answer 
questions or provide additional information as the Committee 
may desire.
    Thank you very much.
    [The prepared statement of Mr. Millar follows:]

          Prepared Statement of William W. Millar, President, 
               American Public Transportation Association
    Mr. Chairman, thank you for this opportunity to testify on the 
security and safety of passenger rail and public transportation 
systems. We commend the Senate Commerce Committee for holding this 
hearing today particularly in light of the recent terrorist attacks in 
Madrid, Spain.
About APTA
    The American Public Transportation Association (APTA) is a 
nonprofit international association of over 1,500 public and private 
member organizations including transit systems and commuter rail 
operators; planning, design, construction, and finance firms; product 
and service providers; academic institutions; transit associations and 
state departments of transportation. APTA members serve the public 
interest by providing safe, efficient, and economical transit services 
and products. Over ninety percent of persons using public 
transportation in the United States and Canada are served by APTA 
member systems.
Passenger Rail and Public Transportation Security
    Mr. Chairman, we do not need to emphasize the critical importance 
of keeping America's public transportation secure in this time of 
heightened national security. While this Committee has jurisdiction 
over passenger and freight rail, we must look at the security of our 
surface transportation program in its entirety and that includes the 
full spectrum of public transportation services. At intermodal hubs 
such as Washington's Union Station there are blend of services 
including--intercity passenger rail, commuter rail, subway, and bus 
transportation. Congress should examine the unique security needs for 
all of America's public transportation.
    This intermodal relationship extends to the Nation's freight 
railroads, and APTA is pleased to work closely with the Association of 
American Railroads in this regard. Many commuter rail services are 
operated on freight-owned lines. Moreover, many commuter rail systems 
handle significant amounts of rail freight traffic. For example, the 
Southern California Regional Rail Authority (SCRRA) provides the right-
of-way for the movement of 50 to 75 freight trains a day on property it 
owns, including all the rail freight traffic out of the Port of San 
Diego and 10-15 percent of the rail freight traffic out of the Ports of 
Los Angeles and Long Beach.
    America's public transportation services are by design and 
necessity an open environment. Over 9 billion transit trips are taken 
annually on all modes of transit service. People use public 
transportation vehicles over 32 million times each weekday. This is 
more than sixteen times the number of daily travelers aboard the 
Nation's domestic airlines and over 450 times the number used by Amtrak 
intercity services. The numbers of customers using public 
transportation each and every day creates ongoing challenges for 
enhancing security within our transit environments.
    In addition, transit employees are on the front line in our 
Nation's effort against terrorism. They are the first responder 
evacuation teams who will assist in getting the public out of critical 
incident areas and our cities in the event of a terrorist attack. This 
was evident on September 11, 2001, when public transportation in New 
York City, New Jersey and Washington, D.C. helped safely evacuate 
citizens from center cities. Indeed, this same story was true around 
the country as transit systems quickly and efficiently evacuated people 
from closed airports and downtown areas. We remember that the 
interstate highway program was begun by President Eisenhower as a 
national defense interstate highway program. It is clear now that 
public transportation too has a significant national defense component 
and is a fundamental element in responding to community disasters and 
emergencies.
    In that connection, APTA is honored to play a critical role in 
transportation security, and works closely with a number of Federal 
agencies in this regard, notably the Federal Transit Administration 
(FTA) and the Federal Railroad Administration of the U.S. Department of 
Transportation, and the Transportation Security Administration (TSA), 
the Office of Domestic Preparedness (ODP), and the Directorate of 
Information Analysis & Infrastructure Protection of the U.S. Department 
of Homeland Security. At the program level, APTA works closely with 
these agencies to administer an industry audit program that oversees a 
system safety and security management plan for transit systems around 
the country. Our safety audit program for commuter rail, bus, and rail 
transit operations has been in place for many years, and includes 
elements specific to security planning and emergency preparedness. 
Separately, in connection with Presidential Decision Directive Number 
63, we are pleased to have been designated a Public Transportation 
Sector Coordinator by the Department of Transportation, and as my 
testimony notes below, we have established a Transit Information 
Sharing Analysis Center that provides a secure two-way reporting and 
analysis structure for the transmission of critical alerts and 
advisories to transit agencies around the country.
    Since the events of 9/11, state and local public transit agencies, 
like all state and local entities, have spent significant sums on 
police overtime, enhanced planning and training exercises, and capital 
improvements related to security. In response to a 2004 APTA survey, 
transit agencies around the country have identified in excess of $6 
billion in transit security needs. These include both one-time capital 
investments and recurring operating expenses related to security. It is 
important to note that these costs are above and beyond the capital 
infrastructure needs we have identified under the TEA 21 
reauthorization effort.
Background
    Mr. Chairman, prior to and following September 11, 2001--the date 
of the most devastating terrorist attack in U.S. history--APTA has 
played a key role in addressing the safety and security issues of our 
country. American public transportation agencies have also taken 
significant measures to enhance their security and emergency 
preparedness efforts to adjust to society's new state of concern. 
Although agencies had a wide range of security initiatives in place at 
the time of the World Trade Center and Pentagon attacks and already had 
developed emergency response plans, the September 11 incidents focused, 
strengthened and prioritized security efforts throughout the industry.
    Transit agencies have had a good safety record and have been 
working for many years to enhance their system security and employee 
security training, partly responding to government standards, APTA 
guidelines, and by learning through the attacks on transit agencies 
abroad. For example, the 1995 sarin gas attack in the Tokyo subway 
system caused U.S. transit properties managing tunnels and underground 
transit stations to go on high alert. The San Francisco Bay Area Rapid 
Transit District, for instance, responded to the possible threat of 
chemical weapons attacks by sending a police team to Fort McClellan, 
Alabama, to learn response tactics from U.S. Army chemical weapons 
experts.
    In the months following the September 11 terrorist attacks, transit 
agencies of all sizes worked to identify where they might be vulnerable 
to attacks and increased their security expenses for both operations 
and capital costs. The agencies subsequently upgraded and strengthened 
their emergency response and security plans and procedures, taking 
steps to protect transit infrastructure and patrons and increase 
transit security presence while giving riders a sense of security.
    Some initiatives around the country include:

  <bullet> Increased surveillance via closed circuit TV

  <bullet> Increased training for employees

  <bullet> Hired more police, K-9 units added

  <bullet> Chemical detection systems being tested

  <bullet> Infrastructure design to eliminate hiding places

  <bullet> Drills are routinely held with first responders

  <bullet> Encouraging riders to be vigilant for suspicious activities 
        or items.

    After September 11, many transit organizations worked to prevent 
unauthorized entry into transit facilities. The need for employees and 
passengers to stay alert and report suspicious occurrences became a key 
goal of many agencies. These efforts are paying off. While many transit 
agencies are more secure than prior to September 11, more needs to be 
done.
    Since the attacks, APTA and the Federal Transit Administration have 
emphasized the need for effective transit security and emergency 
preparedness. FTA has sent security resources toolkits to transit 
agencies; completed security-vulnerability assessments of the Nation's 
largest transit systems; and provided technical support and grants of 
up to $50,000 to fund agency emergency drills.
    FTA continues to provide emergency preparedness and security forums 
nationwide. In emphasizing the importance of enhancing transit 
security, FTA Administrator Jennifer L. Dorn noted that thousands of 
lives were spared on September 11 in New York City and Washington 
``because of the quick action of first responders and transit 
workers.''
    APTA has launched many additional efforts to further transit 
industry security and preparedness, collaborating with FTA in 
developing emergency preparedness forums, and sponsoring and organizing 
security-related conferences and workshops. Moreover, APTA developed a 
list of critical safety and security needs faced by the transit 
industry, which it has provided to the Department of Transportation and 
the U.S. Congress. Mr. Chairman, I would be pleased to submit this and 
other data discussed in my testimony for the record.
Public Transportation Information Sharing Analysis Center (ISAC)
    Presidential Decision Directive #63 authorizes and encourages 
national critical infrastructures to develop and maintain ISACs as a 
means of strengthening security and protection against cyber and 
operations attacks. APTA is pleased to have been designated a public 
transportation Sector Coordinator by the U.S. Department of 
Transportation, and in that capacity has received a $1.2 million grant 
from the Federal Transit Administration to establish a transit ISAC. 
APTA recently formalized an agreement with a private company to 
implement the ISAC and make it available to public transit systems 
around the country.
    This ISAC for public transit provides a secure two-way reporting 
and analysis structure for the transmission of critical alerts and 
advisories as well as the collection, analysis and dissemination of 
security information from transit agencies. The public transit ISAC 
also provides a critical linkage between the transit industry, the U.S. 
Department of Transportation, the Transportation Security 
Administration, and the Office of Homeland Security. A request for 
funding to continue this ISAC has been submitted to the Department of 
Homeland Security's Directorate of Information Analysis & 
Infrastructure Protection.
Ongoing Transit Security Programs
    Mr. Chairman, while transit agencies have moved to a heightened 
level of security alertness, the leadership of APTA has been actively 
working with its strategic partners to develop a practical plan to 
address our industry's security and emergency preparedness needs. 
Shortly after the September 11 events, the APTA Executive Committee 
established a Security Task Force under the leadership of Washington 
Metro's CEO, Richard A. White. The APTA Security Task Force has 
established a security strategic plan that prioritizes direction for 
our initiatives. Among those initiatives, the Task Force serves as the 
steering group for determining security projects that are being 
implemented through over $2 million in Transit Cooperative Research 
funding through the Transportation Research Board.
    Through this funding, APTA held four transit security workshop 
forums for the larger transit systems with potentially greater risk 
exposure. These workshops provided confidential settings to enable 
sharing of security practices and applying methodologies to various 
scenarios. The outcomes from these workshops were made available in a 
controlled and confidential format to other transit agencies unable to 
attend the workshops. The workshops were held in New York, San 
Francisco, Atlanta, and Chicago.
    In partnerships with the Transportation Research Board, the APTA 
Security Task Force has also established two TCRP Panels that 
identified and initiated specific projects developed to address 
Preparedness/Detection/Response to Incidents and Prevention and 
Mitigation. The Security Task Force emphasized the importance for the 
research projects to be operationally practical.
    In addition to the TCRP funded efforts, a generic Checklist For 
Transit Agency Review Of Emergency Response Planning And System Review 
has been developed by APTA as a resource tool and is available on the 
APTA website. Also through the direction of the Security Task Force, 
APTA has reached out to other organizations and international 
transportation associations to formally engage in sharing information 
on our respective security programs and directions and to continually 
work towards raising the bar of safety and security effectiveness.
    Within this concept of partnership and outreach, APTA also 
continues in its ongoing collaboration with the Federal Transit 
Administration to help in guiding and developing FTA programs. Among 
these are regional Emergency Preparedness and Security Planning 
Workshops that are currently being delivered through the Volpe Center 
and have been provided in numerous regions throughout the U.S. The 
primary focus of such workshops has been to assist particularly smaller 
transit systems in building effective emergency response plans with 
first responders and their regional offices of emergency management. 
Also within this partnership, APTA has assisted the FTA and the 
National Transit Institute in the design of a new program ``Security 
Awareness Training for Frontline Employees and Supervisors.'' This 
program is now being provided by NTI to transit agencies throughout the 
Nation.
    Collaborative efforts between APTA, FTA, Volpe Center, and the 
National Transit Institute are also underway to establish a joint 
website that will specifically gather and disseminate effective transit 
practices with initial emphasis on safety and security.
    As you may be aware, APTA has long-established Safety Audit 
Programs for Commuter Rail, Bus, and Rail Transit Operations. Within 
the scope of these programs are specific elements pertaining to 
Emergency Response Planning and Training as well as Security Planning. 
In keeping with our industry's increased emphasis on these areas, the 
APTA Safety Audit Programs have similarly been modified to place added 
attention to these critical elements.
    APTA's Committee on Public Safety, continues to provide a most 
critical forum for transit security professionals to meet and share 
information, experiences and programs and to also provide valuable 
input to programs being developed by the FTA.
Security Investment Needs
    Mr. Chairman, after the awful events of 9/11, the transit industry 
invested some $1.7 billion in enhanced security measures building on 
the industry's considerable efforts already in place. At the same time, 
our industry undertook a comprehensive review to determine how we could 
build upon our existing industry security practices. This included a 
range of activities, some of which I discussed earlier in my testimony, 
including research, best practices, education, information sharing in 
the industry, surveys and the like. As a result of those efforts we are 
now at a phase where we know what we can most effectively do in terms 
of creating a more secure environment for our riders, and have 
accordingly identified critical security investment needs.
    Our latest survey of public transportation security identified 
needs of at least $5.2 billion in additional capital funding to 
maintain, modernize, and expand transit system security functions to 
meet increased security demands. Over $800 million in increased 
operating costs for security personnel, training, technical support, 
and research and development have been identified, bringing total 
additional transit security funding needs to more than $6 billion.
    Responding transit agencies were asked to prioritize the uses for 
which they required additional Federal investment for security needs. 
Priority examples of operational needs include:

        Funding current and additional transit agency and local law 
        enforcement personnel.

        Funding for over-time costs and extra security personnel during 
        heightened alert levels.

        Training for security personnel.

        Joint transit/law enforcement training.

        Security planning activities.

        Security training for other transit personnel.

    Priority examples of security capital investment needs include:

        Radio communications systems.

        Security cameras on-board transit vehicles and in transit 
        stations.

        Controlling access to transit facilities and secure areas.

        Automated vehicle locator systems.

        Security fencing around facilities.

    Transit agencies with large rail operations also reported a 
priority need for Federal capital funding for intrusion detection 
devices.
    To date the DHS has allocated some $115 million for public 
transportation security through its Office of Domestic Preparedness, 
and we appreciate this support from the Department. We trust that we 
can now begin to build on those initial investments and address the $6 
billion in critical needs the transit industry has identified; the 
Administration's FY 2005 budget, however, does not specifically call 
for investment in public transportation security. We think it should. 
Currently ODP grants for transit systems are made available through the 
states, which means that our transit systems do not have a direct 
relationship with DHS, and which also means that the process of getting 
the funds to the local transit systems can be lengthy. Mr. Chairman, 
our Nation's transit systems have a direct and cooperative working 
relationship with DOT's Federal Transit Administration which allocates 
Federal capital investment quickly to the local level, and we believe 
this is an excellent model that we would like to see developed over 
time with the DHS. We stand ready to help in any way we can in that 
regard.
Conclusion
    Mr. Chairman, in light of our Nation's heightened security concerns 
post-9/11, we believe that increased Federal investment in public 
transportation security by DHS is critical. The public transportation 
industry has made great strides in transit security improvements since 
9/11 but much more needs to be done. We look forward to building on our 
cooperative working relationship with the Department of Homeland 
Security and Congress to begin to address these needs. We again thank 
you and the Committee for allowing us to testify today and your 
commitment in the Nation's transportation infrastructure, and look 
forward to working with you on safety and security issues.

    The Chairman. [presiding]: Thank you very much.
    Mr. O'Connor, welcome.

STATEMENT OF JOHN O'CONNOR, CHIEF OF PATROL, NATIONAL RAILROAD 
                     PASSENGER CORPORATION

    Mr. O'Connor. Thank you, Senator, Mr. Chairman. Thank you 
for the opportunity to provide comment and information on 
matters involving rail security in the United States. I am here 
representing Ron Frazier, my boss, who is Chief of the 
Department, who could not be here due to the sudden passing of 
his mother.
    The Chairman. Please extend our sympathy.
    Mr. O'Connor. I will.
    First a few comments about Amtrak and the police and 
security department. Amtrak is the Nation's only intercity 
passenger rail transportation company and operates over 300 
trains per day over some 22,000 miles of rail, with 
approximately 540 stations in 46 states. Amtrak carried over 24 
million passengers last year and, like rail transportation 
systems worldwide and mass transit systems in the United 
States, Amtrak functions in a very open transportation 
environment.
    Because of advantages such as easy access, convenient 
locations, and intermodal connections, rail and mass transit 
systems are completely different from the structure and 
organization of the airline transportation and airport 
industry. As a result, the security framework that works 
ideally in the airport setting is not transferable to the rail 
transportation system.
    A prime example of this dichotomy can be observed by 
looking at the Amtrak service routes. In Penn Station, New 
York, there are literally hundreds of thousands of people using 
the facility on a daily basis, with passengers boarding and 
unboarding trains that are operated by Amtrak, Long Island 
Railroad, and New Jersey Transit. Penn Station is a vast, 
bustling intermodal transportation facility with detailed 
passenger planning coordinated with the dispatch, arrival, and 
departure of trains on a minute by minute precision basis. In 
addition, Amtrak also has numerous stations that are unmanned 
or are merely platforms that are located throughout its 
national service route.
    Because of this diverse and complex organization, any 
delays built into this framework with security regulations 
would drastically affect the operation of rail transportation 
and the valued openness of its environment. While this 
certainly presents a formidable security challenge here in the 
United States, as well as in other countries throughout the 
world, these elements are the key reasons why rail and mass 
transit systems remain as popular and useful transportation 
modes.
    The Amtrak police department has 342 sworn officers, with 
most of its security force located in the Northeast Corridor, 
where Amtrak runs and operates the tracks and infrastructure. 
In 1992, it received the distinction of being the first 
national law enforcement agency accredited by the prestigious 
Commission on Accreditation of Law Enforcement Agencies, and 
has been re-accredited in 1997 and 2002.
    The department has oversight responsibility for the 
planning, assessment, and evaluation of Amtrak's passenger, 
critical infrastructure, and station security emergency 
response plans and operations. Though the Amtrak police 
department has operated as a traditional police force that did 
not focus on counter-terrorism, since September 11, 2001, our 
department has worked to develop terrorism-based vulnerability 
and threat assessments, emergency response and evacuation 
plans, as well as security measures that address not only 
vandalism and other forms of street crime, but the potential 
for explosion and blast effects at critical infrastructure 
locations.
    Amtrak has also developed a security threat level response 
plan that mirrors the homeland security advisory system and 
requires Amtrak to engage in specific security countermeasures 
according to the existing threat level.
    To effectively engage in these responsive measures, Amtrak 
also created a security coordinator program. Within each Amtrak 
division, a security coordinator closely works with Amtrak 
police and security personnel to review the security components 
and steps under the threat level response plan and to ensure 
that employees within their divisions are undertaking the 
required steps.
    Amtrak reinforces security measures and guidelines through 
this program and has also established a security information 
center to increase employee awareness about security issues and 
to directly provide security tips, bulletins, and specific 
information on security policies and procedures.
    Amtrak has also increased its K-9 patrols by adding 12 
explosives detection K-9 teams to conduct random sweeps of 
baggage rooms, train platforms, and stations. The police 
department has also purchased full-face respirators for all 
sworn personnel and deployed these devices for Amtrak's first 
responders to protect against a chemical, biological, or 
radiological attack.
    In major stations, gamma and neutron radiological detectors 
have also been deployed to address radiological threats.
    Finally, Amtrak has instituted a practice of conducting 
random photo identification for passengers purchasing tickets 
and instituted a plan for placing weight restrictions on 
baggage at certain levels of heightened security.
    As part of its ongoing efforts, the Amtrak police 
department does budget for elevations in the Homeland security 
advisory system because manpower costs during the orange level 
alert are roughly $11,000 per day. However, there have been so 
many days this Fiscal Year already at this alert level that 
Amtrak is coming close to surpassing its reserve budget, while 
such a focus on counterterrorism makes Amtrak less effective in 
providing general police service to its travelers and station 
users.
    Though Amtrak continues to prepare to prevent an attack on 
our rail system, we also recognize we must stand ready to 
manage an incident if and when there is some form of an attack. 
Through our Office of Emergency Preparedness, we conduct 
training for first responders, over 21,000 so far, situated 
along the Amtrak service route. We have purchased a public 
safety database which lists each police, fire, and emergency 
rescue agency in order to facilitate State and local emergency 
response and to establish a clear record of agency training.
    The Amtrak police and security department also has 
developed close working relationships with our Federal partners 
at DHS, TSA, in particular with Mr. Chet Lunner, Under 
Secretary there or Assistant Administrator; the DOT; and the 
FRA, Bill Fagan from the security department, to ensure that 
effective communications exist and our security efforts are 
coordinated.
    Amtrak is working with the FRA to arrange for and conduct 
blast vulnerability studies of train equipment and is working 
with DHS, FRA, and TSA to develop a basic security awareness 
training course for all Amtrak employees. There have also been 
numerous collaborations with the above agencies that address 
rail security matters. Some of these initiatives include the 
land transportation and anti-terrorism training that was 
provided by FLETC, the Federal Law Enforcement Training Center, 
to Amtrak police personnel and security coordinators, as well 
as two emergency response drills in which scores of Federal, 
State and local agencies conducted exercises related to a 
terrorist incident. All these initiatives were sponsored by the 
TSA.
    Amtrak has detailed its immediate and critical security 
needs in a confidential plan to the TSA. While not being able 
to identify funding at this time, TSA has generally approved 
the basic concept and approach of the plan. The plan calls for 
approximately $110 million in funding, with another 10 to $12 
million per year in recurring operating costs. The general 
concerns cited in the plan are as follows:
    Security for Amtrak's largest stations. The Amtrak plan 
cites the need to continue to upgrade its security at its four 
largest stations, as well as nonpublic locations such as 
loading docks, adjacent yards and buildings.
    Tunnel security. The plan would secure all tunnel access 
points and improve security for trains traveling through 
tunnels throughout the Northeast Corridor. This would be in 
addition to the fire and life safety program under way in the 
North and East River Tunnels under New York City, for which 
$100 million----
    The Chairman. Mr. O'Connor, we would like you to summarize 
if you can.
    Mr. O'Connor. Certainly.
    Finally, Amtrak strongly suggests that Congress enable rail 
police to have access to the same forms of funding initiatives 
as similarly situated mass transit police agencies. Recently, 
$50 million in security grants were made available to mass 
transit law enforcement agencies by the Department of Homeland 
Security. These grants are available to the other departments, 
but currently there is no enabling legislation to allow Amtrak 
access to those funds.
    [The prepared statement of Mr. Frazier follows:]

    Prepared Statement of E. R. Frazier, Sr., Esq., Chief of Police 
                    and Security Department, Amtrak
    Mr. Chairman and Members of the Senate Commerce, Science and 
Transportation Committee, I would like to thank this Committee for the 
opportunity to provide comment and information on matters involving 
rail security in the United States.
    First, however I believe that it may be helpful for the Committee 
to know a little about Amtrak and its Police and Security Department. 
Amtrak is the Nation's only intercity passenger rail transportation 
company and operates over 300 trains per day over some 22,000+ miles of 
rail with approximately 540 Stations in 46 states. Amtrak carried over 
24 million passengers in the last fiscal year. Like rail transportation 
systems worldwide and mass transit systems in the United States, Amtrak 
functions in a very ``open'' transportation environment. Because of 
advantages such as easy access, convenient locations and intermodal 
connections, rail and mass transit systems are completely different 
from the structure and organization of the airline transportation and 
airport industry. As a result, the security framework that works 
ideally in the airport setting is not transferable to the rail station 
system.
    A prime example of this dichotomy can be observed by looking at the 
Amtrak service route. In Penn Station, New York there are literally 
hundreds of thousands of people using the facility on a daily basis 
with passengers boarding and unboarding trains that are operated by 
Amtrak, LIRR and New Jersey Transit commuter trains. Penn Station is a 
vast, bustling intermodal transportation facility with detailed 
passenger planning coordinated with the dispatch, arrival and departure 
of trains on a minute-by-minute precision basis. In addition, Amtrak 
also has numerous stations that are unmanned or are merely platforms 
that are located throughout its national service route. Because of this 
diverse and complex organization, any delays built into this framework 
with security regulations would drastically affect the operation of 
rail transportation and the valued openness of its environment. While 
this certainly presents formidable security challenges here in the 
United States as well as in other countries throughout the world, these 
elements are also the key reasons why rail and mass transit systems 
remain as popular and useful transportation modes.
    The Amtrak Police Department has 342 sworn officers with most of 
its security force located in the Northeast Corridor where Amtrak runs 
and operates the tracks and infrastructure. In 1992, it received the 
distinction of being the first national law enforcement agency 
accredited by the prestigious Commission on Accreditation of Law 
Enforcement Agencies (CALEA) and has been reaccredited in 1997 and 
2002. The Department has oversight responsibility for the planning, 
assessment and evaluation of Amtrak's passenger, critical 
infrastructure, and station security, emergency response plans and 
operations.
    Though the Amtrak Police Department is a traditional police force 
that does not focus on counter terrorism, since September 11, 2001, our 
department has worked to develop terrorism-based vulnerability and 
threat assessments, emergency response and evacuation plans, as well as 
security measures that address not only vandalism and other forms of 
street crime but the potential for explosion and blast effects at 
critical infrastructure locations. Amtrak has also developed a Security 
Threat Level Response Plan (ASTLRP) that mirrors the HSAS and requires 
Amtrak to engage in specific security countermeasures according to the 
existing threat level. To effectively engage in these responsive 
measures, Amtrak also created a Security Coordinator Program. Within 
each Amtrak division, a Security Coordinator works closely with Amtrak 
Police and Security personnel to review the security components and 
steps of the ASTLRP and to ensure that employees within their division 
are undertaking the required steps. Amtrak reinforces security messages 
and guidelines through this program and has also established a Security 
Information Center to increase employee awareness about security issues 
and to directly provide security tips, bulletins and specific 
information on security policies and procedures.
    Amtrak has also increased its police canine patrols by adding 
twelve explosive detection canine teams to conduct random sweeps of 
baggage rooms, train platforms and stations. The Police Department has 
also purchased full-face respirators for all sworn personnel and 
deployed these devices for Amtrak's first responders to protect against 
a CBR attack. In major stations, gamma/neutron radiological detectors 
have also been deployed to address radiological threats. Finally, 
Amtrak has instituted a practice of conducting random photo 
identification for passengers purchasing tickets and instituted a plan 
for placing weight restrictions on baggage at certain levels of 
heightened security.
    As part of its ongoing security efforts, the Amtrak Police 
Department does budget for elevations in the HSAS because manpower 
costs during an ``Orange'' level alert are roughly $11,000 per day. 
However, there have been so many days this Fiscal Year already at this 
alert level that Amtrak is coming close to surpassing its reserve 
budget. Also, such a focus on counter terrorism makes Amtrak less 
effective in providing its general police service to its travelers and 
stations users.
    Though Amtrak continues to prepare to prevent an attack on our rail 
system, we also recognize that we must stand ready to manage an 
incident if and when there is some form of attack. Through our Office 
of Emergency Preparedness we conduct training for first responder 
agencies (over 21,000) situated along the Amtrak service route. We have 
purchased a public safety database that lists each police, fire and 
emergency rescue agency in order to facilitate state and local 
emergency response and to establish a clear record of agency training. 
The Amtrak Police and Security Department has also developed close 
working relationships with our Federal partners: DHS, TSA, DOT, and FRA 
to ensure effective communications exist and that our security efforts 
are coordinated.
    Amtrak is working with FRA to arrange for and conduct blast 
vulnerability studies of train equipment and is working with DHS, FRA 
and TSA to develop a basic security awareness training course for all 
Amtrak employees. There have also been numerous collaborations with the 
above agencies that address rail security matters. Some of these 
initiatives include Land Transportation Anti-terrorism training that 
was provided by FLETC to Amtrak Police personnel and its Security 
Coordinators as well as two emergency response drills in which scores 
of federal, state and local agencies conducted exercises related to a 
terrorist incident. All of these initiatives were sponsored by TSA.
    Amtrak has detailed its immediate and critical security needs in a 
confidential plan to the TSA. While not being able to identify funding 
at the time, TSA has generally approved the basic concept and approach 
of the plan. The plan calls for approximately $110 Million in funding 
with another $10-12 million per year in recurring operating costs. The 
general concerns cited in the plan are as follows:

  <bullet> Securing Amtrak's Largest Stations--Amtrak's plan cites the 
        need to continue to upgrade its security at its four largest 
        stations as well as at non-public locations, such as loading 
        docks, adjacent yards and buildings.

  <bullet> Tunnel Security--The plan would secure all tunnel access 
        points and improve security for trains traveling through 
        tunnels throughout the NEC. This would be in addition to the 
        fire and life safety program underway in the North and East 
        River tunnels under New York City for which $100 million was 
        appropriated in 2002.

  <bullet> Amtrak Tracking, Communications and Critical Incident 
        Response - Amtrak possesses several Dispatch, Command and 
        Control Centers that require redundancy and centralization. 
        Further, while Amtrak can effectively track train movements 
        within the Northeast Corridor, it is unable to do so throughout 
        the rest of the national system. The plan would address both of 
        these needs.

  <bullet> Anti-Terrorism Screening--Presently, this project is in 
        collaboration with DHS/TSA and ICE to upgrade the manner in 
        which international passenger information is provided to border 
        inspection forces. It is also anticipated that the Amtrak 
        Police and Security Department will become more involved as a 
        law enforcement agency in a ``watchlist'' technology when TSA 
        identifies and approves a suitable identification system.

    It is imperative that Amtrak, in conjunction with TSA and all other 
related agencies, be able to address the aforementioned rail security 
concerns as soon as possible. Amtrak has provided this security plan to 
its Authorizing and Appropriations Committees of jurisdiction and 
stands ready to work with Congress and the Department of Homeland 
Security.
    Finally, Amtrak strongly suggests that Congress enable rail police 
to have access to the same forms of funding initiatives that similarly 
situated mass transit police agencies have. Recently, $50 million in 
security grants were made available to mass transit law enforcement 
agencies by the Department of Homeland Security. These grants addressed 
first responder issues and could be helpful to rail police who also 
patrol passenger stations and protect critical infrastructure. Because 
rail police do not fall under the classification of ``state or local 
law enforcement'', however, we remain ineligible. We therefore ask that 
this be changed since rail police share the same front line as its mass 
transit partners and need to act and communicate in the same fashion as 
law enforcement throughout the United States in this time heightened 
alert.
    Thank you for this opportunity to provide testimony to the 
Committee.

    The Chairman. Thank you very much.
    Senator Hutchison.
    Senator Hutchison. Thank you.
    I would like to go back to the rail security--the freight 
rail security at the ports. I would like to ask you, Mr. 
Hamberger, if you are satisfied from your industry standpoint 
with the progress that is being made at rails that feed into 
ports. Particularly, I have to mention the ports where there 
are chemical complexes, and if you think--if you do not think 
that enough is being done, what do you think the next step 
should be?
    Mr. Hamberger. I would like to answer that in more detail 
in writing if I can. But at this point at the ports we 
primarily coordinate with the Coast Guard and adhere to the 
Coast Guard requirements. As far as the security for the 
containers themselves, that is, I understand, being addressed 
further up the supply chain. So that by the time those 
containers, for example, come to the railroads to be pulled 
whatever security they have gone through has already been 
accomplished.
    At the land borders, however, between Canada and Mexico, 
there are VACUS machines, which is an acronym that stands for 
something, but basically they are gamma ray machines that do 
inspect the contents of the containers as they come across from 
Canada and Mexico. Of course, there has to be advanced 
notification as well of the consist. I believe it is 4 hours 
before it gets to the port under the Customs regulation.
    So, I am a little bit more familiar with that than I am 
with what happens at the deepwater ports. So if I could respond 
in more detail in writing, I would appreciate that.
    Senator Hutchison. Do you think the containers go through 
the same rigorous security coming from another foreign country 
besides Mexico or Canada.
    Mr. Hamberger. Like I say, I really cannot speak to that. I 
do not know the answer to that.
    Senator Hutchison. Mr. Riley.
    Dr. Riley. I can comment a little bit.
    Senator Hutchison. Doctor Riley.
    Dr. Riley. Yes. We are capturing and doing better in terms 
of prescreening an increasing portion of the containers through 
a couple of different programs. CTPAT, the Customs Trade 
Partnership Against Terrorism, which helps link up high volume 
ports that send goods to our ports and some prescreening; and 
then CSI, the Container Security Initiative, which uses 
intelligence and other pieces of information to identify high 
priority containers and cargo for deeper inspection.
    The combination of those programs with the increased 
physical screening of containers once they reach U.S. ports is 
not only leading to increases in port security, but also I 
think has positive spillover effects for the rail system since 
such a very high proportion of the goods that are shipped by 
rail come out of ports.
    Senator Hutchison. So you think progress is being made?
    Dr. Riley. Progress is definitely being made. I would liken 
it to the following analogy. If you harken back to the original 
terrorist attacks against aircraft, not on September 11, 2001, 
but back in the 1960s and early 1970s when the hijackings 
started, we had to reconceptualize how we thought about airline 
and airport security. We started with things like screening 
passengers, physical setbacks for aircraft, and a variety of 
different security mechanisms.
    It takes a long time to transform a system as complicated 
as air traffic. It takes an even longer time to transform a 
system as complicated as port and rail security. But I do 
believe that fundamental transformation is in process and well 
under way.
    Senator Hutchison. Let me just say that one of the problems 
that I have had for the last year is air cargo security, that 
we have not secured our air cargo nearly to the extent that we 
have secured baggage and passengers in the top of the airplane. 
The Senate has passed a bill twice that would put in place air 
cargo security measures, and yet it has not yet passed the 
House and so is not in place.
    So let me ask you on rail cargo, not necessarily foreign 
rail cargo coming into ports, but I would like to ask both Dr. 
Riley and Mr. Hamberger: Are you satisfied that we have a good 
security system in place for rail cargo that is domestically 
transported?
    Mr. Hamberger. Yes, I believe that we do. I believe that, 
working with again the Chlorine Institute, working with the 
American Chemistry Council, to address your specific chemistry 
concerns, we have really dovetailed, particularly with the 
Chlorine Institute, our plan with their plan to try to address 
any hole in the logistics chain.
    So I believe that we have a pretty well-coordinated effort 
ongoing, and also with the American Chemistry Council, to 
address the broader range of hazardous materials that we 
transport.
    Senator Hutchison. Dr. Riley?
    Dr. Riley. I would echo those comments, and I would also 
harken back to how I summarized my testimony, which is: Without 
those threat and vulnerability assessments, we really do not 
know where the biggest gaps are and what the highest priorities 
should be. So those really are critical elements to 
understanding how our resources should be allocated.
    Senator Hutchison. Well, thank you, Mr. Chairman. My time 
is just about up, but I appreciate your holding this hearing, 
changing the hearing last week to rail security after what 
happened in Madrid, because I think it is long overdue. I would 
just hope that all of our panelists would tell us what kind of 
act we should pass to assure rail security, and I am pleased 
that we are having a port security hearing tomorrow because I 
think that that is the other area that has not been fully 
addressed.
    Thank you.
    The Chairman. Thank you, Senator Hutchison. I thank you for 
the active role you have played on this issue and I look 
forward to working with you as we try to produce another piece 
of legislation and mark it up as quickly as possible on rail 
security.
    Thank you.
    Mr. Hamberger, do you agree with Senator Hutchison's 
assessment that we have got to have an overall threat 
assessment and prioritize here?
    Mr. Hamberger. Well, Mr. Chairman, we have tried to address 
that internally with our study, with our threat assessment. 
That has been shared with the Federal Railroad Administration, 
the Department of Transportation, Transportation Security 
Administration, DHS, and it is an ongoing effort. The risks, 
the threats always change, and so I think--I would hope that we 
could build upon that, not recreate the wheel but use the work 
that the industry has done and then go forward to build upon 
that.
    So I think that the effort is always worthwhile, yes.
    The Chairman. Let me get with all the witnesses just on 
this issue of priorities. If the priority is where the greatest 
vulnerability is, would that argue that the tunnels are a high 
priority? Beginning with you, Dr. Riley? And the concentration 
of people and traffic on the eastern corridor? Or would you 
argue that perhaps the rail system from Dallas to Houston, 
which is a major area, would also--in other words, how are we 
going to sort this out?
    We are not going to be able to address every area all at 
the same time. This is what I think we are going to be 
wrestling with as we try to shape some meaningful legislation 
and assist in this effort.
    We will begin with you, Dr. Riley, and go down.
    Dr. Riley. Not to sound like a broken record, but those 
threat and vulnerability assessments are critical because, 
while organizations like AAR have done an outstanding and very 
proactive job within their sector, one of the things that we 
really cannot do at this point is compare across freight, 
passenger, and infrastructure vulnerabilities to draw up that 
list.
    Subject to that caveat that there is no master threat and 
vulnerability analysis that lets us sit back, I do believe that 
the tunnels and the passenger corridors and the subway systems 
in the high priority cities that were identified earlier today 
are probably the places to begin.
    The Chairman. Mr. Hamberger?
    Mr. Hamberger. Mr. Chairman, we have identified 1,308 
critical assets. We have them prioritized 1 through 1,308.
    The Chairman. Submit those for the record, please.
    Mr. Hamberger. They are classified, but to the extent we 
can do that we would do that, yes, sir.
    The Chairman. All right. If they are classified, then do 
not submit them for the record.
    Mr. Hamberger. We have shared that, of course, with DHS, 
and as the threat level goes up we have tried to deploy our 
assets as far down that list as we can. We compiled that list 
based upon three criteria: one, what would the threat be to the 
economy; two, what would the threat be to population; and 
three, what would the threat be to military transportation?
    Using the overlay of those three analyses, we prioritized 
our assets. You may be surprised to know that tunnels are not 
near the top. In fact, tunnels from our standpoint are 
relatively easy to recover from. What is not easy to recover 
from are bridges that link important sections of the country. 
So we have identified bridges that we have worked with the 
Department of Homeland Security on to provide a hardening of 
those assets, both at current levels of protection and alert 
and higher levels of alert.
    The Chairman. Well, that is very interesting. I would like 
to see your unclassified argument that bridges are a very high 
priority.
    Mr. Hamberger. Based to a large extent on the ability to 
recover from the damage.
    The Chairman. Mr. Millar.
    Mr. Millar. Yes. In our survey that I spoke of in my 
testimony, we asked our members responding to the survey to 
prioritize the areas that they see funding. In general, two 
types of funding. One I would describe as one time only, 
capital investments. The priorities in this area were as 
follows: modern, up-to-date and coordinated radio 
communications systems; security cameras on board transit 
vehicles and throughout transit stations.
    Number three would be controlling access to the facilities 
and secure areas, and that would include tunnels.
    Number four was automatic vehicle locator systems, so we 
would always know, particularly in the bus area, where the 
vehicles were.
    Number five was increased security fencing around 
facilities.
    Within the operating area, there were six top priorities. I 
do not think any of these are surprises. We have heard them 
here today in the testimony, and they relate to mostly 
personnel costs, particularly law enforcement, and additional 
transit agency costs, especially during the times of heightened 
alerts; additional costs for training personnel, particularly 
joint training between people in our industry and the first 
responder community outside our industry; security planning 
activities and security training for other transit personnel 
other than the police and security.
    So I am not sure any of these are big surprises, but very 
clearly those are the priorities, and when we have completed 
our analysis of our study I will submit it to the Committee, 
including the priorities and the listing of more detailed 
priorities within each of these categories.
    The Chairman. How soon will you have that?
    Mr. Millar. We expect to have it early in April. I can 
certainly try to get you something before that, though. It 
sounds like you are on a faster timetable than that.
    The Chairman. Well, we are trying to mark something up 
within a couple of weeks, so that brings us into April. And 
then I would not think we would have floor consideration right 
away, so we do have some leeway. But we feel that would be 
important information for us.
    Mr. Millar. Thank you, sir. As early as I can, I will get 
it to you within the next couple of weeks then.
    [The information referred to follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    The Chairman. Thank you very much.
    Mr. O'Connor.
    Mr. O'Connor. Senator, I will be briefer than my opening 
remarks. Internally----
    The Chairman. Your opening remarks were just fine, Mr. 
O'Connor.
    Mr. O'Connor. Thank you.
    The Chairman. Despite your accent is incomprehensible.
    [Laughter.]
    Mr. O'Connor. So I have been told.
    Internally, we have tried to protect against the most 
catastrophic of events, first against people and then against 
infrastructure. In answer to your question, the tunnels, that 
is where the two points meet. That is where the most people 
concentrate and that is where the most damage can be done to 
our infrastructure and we believe to the economy of the whole 
eastern region.
    The Chairman. What about the bridges?
    Mr. O'Connor. Bridges are a concern. They are probably in 
our top ten, but the tunnels come first.
    The Chairman. And the argument--I am from the West, 
obviously, and I am not--I do not have any bias in this issue. 
I want us to establish----
    Mr. O'Connor. Our engineers tell us that they can replace a 
bridge easier than they can build a tunnel and unflood a 
tunnel.
    The Chairman. Could you make the argument, based on 
concentration of population and use, such as East Coast and 
West Coast--Senator Boxer pointed out that the West Coast, that 
California has a very high concentration of users of mass 
transit. How do you factor in all that?
    Mr. O'Connor. Again, you can improve security almost 
anywhere, whether it be a one whistle stop platform or Penn 
Station where 600,000 people----
    The Chairman. But we are trying to look at where we think 
it would be most likely. We want to take care of them all, as 
you say. But we have to have some prioritization.
    Mr. O'Connor. Right, and we know that places like New York 
and Washington have been targets before and most likely will be 
targets again.
    The Chairman. So you would argue from what we know that 
areas of greatest population and concentration of traffic would 
be normally the highest priority? It just seems there is a 
certain logic to that.
    Mr. O'Connor. The intelligence also seems to back that up, 
and that is probably something that the Committee would want to 
speak to the Department of Homeland Security about.
    The Chairman. Well, one thing I have gotten out of this 
hearing is we need threat assessment very badly and an overall 
picture from the Department of Homeland Security, and I hope 
that this hearing has motivated our friends over at DHS to 
provide that.
    I thank you all for your testimony and your appearance here 
and your patience today. Thank you very much.
    [Whereupon, at 12:45 p.m., the Committee was adjourned.]

                            A P P E N D I X

          Prepared Statement of Hon. John D. Rockefeller IV, 
                    U.S. Senator from West Virginia
    Mr. Chairman,

    Right now we are at war with the terrorists. There is no question 
that they mean to do us harm. I just returned last week from Iraq, 
viewing first hand the situation on the ground. I also spend probably 
half of every day in briefings or meeting on Al Qaeda and other 
terrorist threat activities.
    What we do know, is that events in the course of our Nation's 
history have dictated actions. Whether it is Pearl Harbor or 9/11. 
Madrid, for Europe, clearly has become a mobilizing force as the 
European Union has focused on revamping its security networks. Here, we 
also must understand that Madrid is an event we cannot, and must not, 
ignore.
    Looking at our vital and critical infrastructure--rail, this 
morning, and a seaport security hearing tomorrow morning--we have vast 
and diverse systems, giving us the benefits of a highly mobile 
transportation system, while at the same time providing potential 
target for terrorists.

  <bullet> Millions of Americans board Amtrak trains and public transit 
        at hundreds of stations across the country every day.

  <bullet> Millions of tons of dangerous chemicals and other hazardous 
        materials pass through Charleston, West Virginia and countless 
        other communities every day.

    We also know that we have not devised a comprehensive security plan 
to minimize the risk to the people that ride the rails and for the 
communities that abut the rails. Right now, we have left it to local 
communities, transit agencies, railroads, and shippers to develop their 
own threat assessment and security plans. Each, I am reasonably 
certain, is acting diligently. For example, I know we will hear about 
efforts by the rail and chemical industry to establish emergency 
communications systems and other efforts to ensure that first 
responders have the best information available. However, the Federal 
Government is not moving quickly enough to develop a national risk 
assessment for rail infrastructure nor providing the resources 
necessary to protect these assets.
    I remain particularly concerned about the vulnerability of the 
millions of tons of hazardous materials--notably chemicals that are 
shipped through my state and almost every community. I recently hosted 
a homeland security summit in West Virginia, and my state and local 
officials are very concerned that they will not be able to adequately 
respond to an attack on a train carrying dangerous chemicals or other 
substances. I commend the efforts of the chemical industry and the 
railroads to address this issue, but we cannot rely on their efforts 
alone. This is a national security issue.
    The Transportation Security Administration has developed multiple 
layers for aviation security, which I believe is the appropriate 
approach as no one layer is perfect. The same must be done for rail and 
transit systems. Simply allowing local communities to conduct 
vulnerability studies, without funds to turn them into action plans, is 
not sufficient. Look at aviation--we are spending billions on it, and 
making progress. It took a Congressional mandate, backed by funding to 
get to this point. We need the same commitment with respect to rail. 
Secretary Ridge yesterday acknowledged that we can not apply aviation 
standards to rail, but that should not end the discussion. We also 
cannot simply shift resources from one mode to the next, but instead 
must have sufficient budget requests to get the job done. We cannot do 
homeland security on the cheap. We need to be investing billions more 
to prevent and deter threats to our transportation infrastructure. We 
need to focus on developing the new technologies that will ultimately 
make us safer and be more cost-effective.
    I hope that our witnesses today will speak to what the 
Administration and the industry have done to identify the 
vulnerabilities of our rail system, what is being done to protect then, 
and how the Federal Government is going to help local communities meet 
the challenge of responding to a terrorist attack against a freight 
train full of deadly chemicals or other hazardous materials.
                                 ______
                                 
             Prepared Statement of Ajay Mehra, President, 
                    OSI Systems, Inc. Security Group
    Mr. Chairman and Senator Hollings, I thank you for the opportunity 
to provide testimony to the committee about the pressing issue of 
improving the security of our Nation's rail system. In light of the 
recent tragic attacks in Spain, I applaud the Committee for
    bringing the issue of rail security once again to the fore. As 
President of the OSI Systems Security Group, I am eager to lend my 
organization's collective experience to the formulation of a policy on 
rail security. We strongly support this legislation and the efforts of 
this committee to secure an important modality promoting commerce and 
transportation, our railroads.
    My hope is to inform the Committee of the most effective way to 
address the potential threats posed by terrorism to the Nation's rail. 
I will provide a brief description of OSI System's expertise in 
providing transportation and border security, and then offer our best 
solution to rail security.

OSI Systems, Inc. provides a variety of non-intrusive inspection 
technologies for securing nearly every transportation modality, 
including railroads

    OSI Systems is the leading developer and manufacturer of non-
intrusive inspection (NII) technologies under the Ancore, Aracor, Metor 
and Rapiscan brands. Our technology portfolio includes multi-energy X-
ray imaging, diffraction X-ray, backscatter X-ray imaging, gamma ray 
imaging, computed tomography, nuclear quadrupole resonance, metal 
detection, and neutron activation analysis. We have supplied over 
20,000 security screening systems to customers worldwide and are 
dedicated to providing quality equipment and excellent customer service 
in a cost-effective manner. The company has over 1,000 employees in the 
United States and many additional employees around the world.
    As a security technology provider, OSI Systems has extensive 
experience in rail security. We have helped the Chinese government 
develop their rail inspection system and have installed cargo and 
passenger screening systems around the world for nearly every 
transportation modality. We have examined the issues surrounding rail 
security, and we believe that relatively simple modifications to 
current technologies can be made to effectively safeguard our rail 
system.

Rail security presents distinct challenges and threats from other 
transportation modes

    In contrast to the security issues surrounding aviation and sea 
transport, rail security presents variety of new threats and security 
needs. We at OSI Systems believe the necessary first step in protecting 
rail passengers and freight is to define the types of potential threats 
that could be faced in rail attack scenarios and how they differ from 
our current understanding of the threats in aviation and sea transport. 
While we must strive to prevent all attacks, the amount and types of 
explosives and weapons of mass destruction (WMD) terrorists use differ 
by target. Smaller levels of explosives are catastrophic in aviation, 
but rail cars are more accessible. After we define the vulnerabilities 
and threats, we can establish the most effective and efficient means to 
prevent and detect these threats.
    As demonstrated most terribly in Spain, the principle threats to 
railway safety are explosives and WMD. With that in mind, railway 
transportation has its own distinct threat levels of explosives. We 
encourage Congress to direct TSA to determine these threat levels as 
soon as possible. This will allow industry partners, like OSI Systems, 
to design technologies aimed at detecting these weapons.
    I want to stress, that technology exists today that can effectively 
inspect train cargo and passengers. However, we should first clearly 
define our vulnerabilities and the potential threats, so that we 
install systems designed for rail security.

Passenger screening is a key component of rail security

    Millions of passengers ride trains every year. Yet none of these 
passengers passes even through rudimentary screening systems such as 
those you all walked through to get to this committee room. The 
differences from aviation are even more striking. Considering that 
every piece of carry-on baggage, checked baggage and every passenger 
are inspected before boarding an airplane while none of these efforts 
are made in rail safety, it seems that rail security is wide open to 
potential attack. And, as terribly demonstrated in Spain earlier this 
month, this is clearly a gap that terrorists will exploit.
    With passengers and carry-on luggage constituting the principle 
delivery mechanisms, we must array our detection technology against 
these channels, focusing detection on explosives and weapons. While 
these threats faced in a rail environment differ somewhat from the 
threats to aviation, the technologies and configuration used are 
essentially the same.
    Similar to airport checkpoints, portal metal detectors would be 
placed along side of carry on baggage X-ray systems for rail 
checkpoints. These systems would be combined with currently employed 
trace element Explosive Detection Systems or any type of explosive 
material specific technology. The number of checkpoints needed would be 
configured to give the best throughput possible based on the specific 
rider-ship typical for that station. It is important to note that there 
is far less checked baggage in rail travel than aviation so the baggage 
inspection requirements should be dramatically less intrusive and 
costly.
    We recommend that the Committee consider using currently employed 
TSA qualified technologies. Using TSA qualified technologies makes 
policy sense for the ease of use, familiarity and ease of procurement. 
These technologies are available off the shelf. OSI Systems, along with 
other industry leaders, produce all of these systems. TSA screeners are 
extremely familiar with TRX systems, portal metal detectors and trace 
element detectors. No additional training is required for operators of 
these systems. Maintenance of these technologies is also familiar to 
the TSA.
    TSA also has sufficient procurement vehicles in place to acquire 
the needed passenger screening technology. TSA should use the currently 
active contracts to accommodate for this additional need for rail 
security. These technologies have long since been vetted through the 
procurement process, so only the time of production and delivery until 
solutions could be in place.
    We view freight as separate and much less of a concern than carry-
on baggage for delivery of explosives, as freight is carried in 
separate rail cars, and not in the belly of a passenger car like a 
plane. The TSA should develop appropriate screening protocols to insure 
the safety of freight, however, our main concern with this legislation 
is securing the rails for passengers.
    Maintaining the stream of commerce will potentially be the largest 
hurdle to implementing a rail security strategy. However, because the 
threats posed to railroads are considerably different than those in 
aviation, the technology should be able to inspect passengers and cargo 
more quickly.

Rail security screening systems are available and can be quickly 
deployed to protect train passengers and the rail system

    Securing large parts of the rail system is well within capability 
of the U.S. government and current screening technologies. With only 
minor modifications, current TSA employed technologies should be able 
to detect these threats effectively. Portal metal detectors, TRX carry-
on X-ray systems and trace explosive detection technologies are well 
known by the TSA. They require no training, no new configurations, and 
no new procurement vehicles.
    OSI System is committed to placing the best tools in the hands of 
our government to secure our homeland. I am honored to add our 
experience to address the issue of rail security. I want to thank the 
Committee again for this opportunity to testify.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John McCain to 
                          Hon. Asa Hutchinson
    Question 1. What is TSA's role with respect to rail security and 
what should it be in the future?

    Does TSA have a unique role or should rail security be overseen by 
other agencies within DHS and the Department of Transportation?

    Why has most of the progress that has been made in improving rail 
security taken place outside of TSA, the agency with primary 
responsibility for rail safety?

    If the issue is that most of the funds and attention have been 
focused on airline and airport security, why is the Administration not 
asking for more funds now to address rail security?
    Combined Answer. The responsibility of securing our Nation's rail 
and mass transit systems is shared among a number of Federal, State, 
and local partners. TSA does have a specific role, in that no other 
organization is uniquely positioned to effectively coordinate all of 
the activities and manage the development, implementation, and 
oversight of any necessary security protocols and standards.
    The Department has consistently held that security responsibility 
must involve the coordination of appropriate Federal, State, tribal, 
local and private industry partners, many of whom were already in the 
business of providing security for their particular piece of the 
transportation sector. DHS, Department of Transportation (DOT), and 
other Federal agencies are working together to enhance rail and transit 
security in partnership with the public and private entities that own 
and operate the Nation's rail and transit systems.
    Presidential Directive 7 (HSPD-7), directs the establishment of ``a 
national policy for Federal departments and agencies to identify and 
prioritize United States critical infrastructure and key resources and 
to protect them from terrorist attacks.'' In accordance with DHS's 
HSPD-7 implementation plan and in partnership with other Federal 
stakeholders, TSA is coordinating the development of the Transportation 
Sector Specific Plan (SSP). A first draft of the SSP is due to DHS by 
early summer, 2004 (at the same time when SSPs from the other 12 
critical infrastructure sectors are also due). In developing the 
transportation SSP, TSA is working under BTS guidance and with partners 
in the U.S. Coast Guard and DOT. The SSP will discuss how Federal and 
private-sector stakeholders will communicate and work together; how 
important assets in the transportation sector will be identified, 
assessed,; how protective programs will be developed and prioritized; 
how progress in reducing risk will be measured; and how R&D will be 
prioritized in the sector. In the Transportation Sector, the SSP will 
further the efforts currently underway and help ensure that they are 
systematic, exhaustive, and consistent with the efforts in the other 12 
sectors. DHS will build on the foundation of the SSP to provide overall 
operational planning guidance on rail security. The SSP will ensure 
that modal security plans are integrated into an effective concept of 
operations for security management of the rail sector within our 
Nation's transportation system.
    As an example of TSA's collaboration with other Federal agencies 
and rail industry stakeholders, TSA, Amtrak, Maryland Transit 
Administration, and the Federal Railroad Administration have combined 
efforts to institute a passenger and carry-on baggage screening 
prototype for explosives in a rail environment known as the Transit and 
Rail Inspection Program (TRIP). Under the first phase of this program, 
TSA screened Amtrak and MARC commuter train passengers for explosives 
at the New Carrollton, Maryland train station during the month of May 
as part of a test program to make rail travel more secure. The pilot 
project is testing existing and prototype technologies to determine 
their usefulness in a rail environment.
    The DHS grant program for improving rail and transit security in 
urban areas has awarded over $115 million since May 2003. Additionally, 
the Administration has requested $24 million for TSA to advance 
security efforts in the maritime and surface transportation arenas, and 
has requested that $37 million of the Federal Transit Administration's 
Urban Security Bus grants be available for security related projects.
    On March 22, 2004, Secretary Ridge announced additional measures to 
strengthen security for our rail and transit systems. DHS will build on 
many of the security measures recommended during the past two years for 
implementation to mass transit and passenger rail authorities by DHS, 
the Federal Transit Administration, and the Federal Railroad 
Administration.
    Since the time of this hearing, DHS has issued Security Directives 
(SD) requiring protective measures to be implemented by passenger rail 
operators. The measures instruct commuter, transit, and passenger rail 
systems to comply with requirements that range from removing or 
replacing station trash cans to utilizing canine explosives detection 
teams. The directives will be administered by TSA and took effect on 
May 23, 2004. These measures, in addition to others already in place, 
will advance our mission to ensure rail passengers are protected.

    Question 2. In 2003, the Maritime and Land Division of TSA 
indicated it would develop security standards for all modes of 
transportation by the end of the year. However, no standards have been 
issued and yesterday Secretary Ridge announced that DHS would begin 
working with industry to develop ``best practices''. Why has no 
progress been made so far and what is your timetable for developing 
best practices?
    Answer. In general, TSA is responsible for ensuring that all modes 
of transportation are secured by partnering with the appropriate 
Federal, State, tribal, local and private industry stakeholders, many 
of whom were already in the business of providing security before the 
creation of TSA. TSA's role in securing the transportation system 
begins at the system or sector-wide level, across the individual modes, 
thus ensuring consistency and consideration of inter-modal issues (such 
as assets, incidents, or supply chains that straddle multiple modes, 
and inter-modal facilities).
    Furthermore, as noted above, DHS recently issued SDs requiring 
protective measures to be implemented by passenger rail operators. The 
SDs took effect on May 23, 2004 and apply to all passenger rail owners/
operators.
    In the aftermath of the recent events in Spain, Russia and 
elsewhere, passenger rail operators have implemented a number of robust 
security measures. TSA has partnered with the private and non-Federal 
sector to develop and disseminate best practices with regard to 
securing non-aviation modes:

  <bullet> TSA developed a series of security awareness tools for mass 
        transit employees such as tip cards, pamphlets, and posters. 
        These products are intended for all mass transit employees as a 
        reminder or checklist on what to look for during mass transit 
        operations to prevent a terrorist attack. Similar products are 
        under development for mass transit passengers.

  <bullet> TSA held a security awareness workshop in October of 2003, 
        which drew representatives from the motorcoach, school bus, 
        mass transit and enforcement organizations from around the 
        country. Attendees were briefed on the tactics and tools of 
        suicide bombers, provided an overview of the latest detection 
        technology and provided an overview of possible scenarios to 
        encourage discussion of best practices.

    In addition, DHS has assigned TSA primary Sector Specific 
        Responsibility for the development of the Transportation Sector 
        Specific Plan as DHS implements Homeland Security Presidential 
        Directive 7 (HSPD-7), which directs the establishment of ``a 
        national policy for Federal departments and agencies to 
        identify and prioritize United States critical infrastructure 
        and key resources and to protect them from terrorist attacks.'' 
        In accordance with DHS's HSPD-7 implementation plan, TSA is 
        coordinating the development the Transportation Sector Specific 
        Plan (SSP) under BTS guidance and with partners in the U.S. 
        Coast Guard and the DOT. A first draft of the SSP is due to DHS 
        by early summer 2004. An important role of the SSP will be to 
        facilitate and improve both the development and the sharing of 
        ``best practices'' in transportation security among government 
        and private sector stakeholders to ensure that they are 
        systematic and complete.

    Question 3. Of the $1.45 billion in the President's Fiscal Year 
2005 budget for the Urban Area Security Initiative, how much will be 
available for mass transit grants? Do you believe Amtrak should be 
eligible to receive such grants?
    Answer. The President's Budget request includes $1.45 billion for 
continuation of the Urban Areas Security Initiative, including $1.2 
billion for the UASI grant program, $200 million for Critical 
Infrastructure Protection (CIP), and $46 million for Port Security. 
Depending on the outcome of the FY 2005 congressional appropriations, 
the Department will make final funding decisions, which may include 
funding for mass transit systems out of the UASI grant program. At this 
point, final decisions have not been determined, but mass transit 
security is a priority of the Department and the Administration.

    Question 4. Pursuant to the statutory direction of Congress in 
appropriations acts and the Homeland Security Act of 2002, ODP grant 
program funds are meant to assist State and local units of governments 
and emergency responders prevent, prepare for, and respond to acts of 
terrorism. Furthermore, as a Federal entity, Amtrak is not eligible to 
receive grant funds from the Office for Domestic Preparedness. ODP 
firmly believes that its grant funds should be focused on assisting 
State and local emergency responders.
    Amtrak's President. David Gunn, indicated stated last year that it 
should be TSA's responsibility to fund additional security personnel 
for Amtrak. Do you agree?
    Answer. Generally speaking, however, TSA does not envision a role 
providing operational security staff to Amtrak or other rail systems. 
Security is a shared responsibility between appropriate Federal, State, 
tribal, local, and private industry entities. Given the vast 
infrastructure comprising passenger rail, any Federally-supported 
security enhancements must be the product of careful risk assessments 
and cost benefit analysis.
    TSA will continue to coordinate these efforts under the guidance of 
DHS and BTS, identifying gaps and working with appropriate partners to 
ensure that existing security gaps are filled. Last year, TSA provided 
comments to the President and Chief Executive Officer, David Gunn, on 
Amtrak's official security plan, submitted April 10, 2003. This close 
coordination has been established and ongoing among Amtrak, Federal 
Railroad Administration, and TSA and remains essential as we move 
forward together to enhance rail security.

    Question 5. Could you please give the Committee an update on the 
installation of railcar screening equipment at the northern and 
southern borders?
    Answer. U.S. Customs and Border Protection (CBP) has a long history 
of working in the rail environment. The ever-increasing volume of rail 
traffic has made physical inspections of rail shipments difficult and 
time-consuming. To improve the examination efficiency at Southern and 
Northern border rail crossings, CBP developed a rail screening strategy 
incorporating Rail Vehicle and Cargo Inspection System (rail gamma-ray 
scanner) technology through an adaptation of the large-scale imaging 
technology deployed to our land border and seaport environments.
    Rail gamma-ray scanner technology allows CBP to safely and quickly 
screen an entire train for contraband, including potential terrorists 
and the implements of terror. Rail gamma-ray scanners allow CBP to 
segregate suspicious shipments and minimize the possibility of 
dangerous goods entering the United States while facilitating 
legitimate trade and cargo.
    CBP has done much to mitigate the threat posed by terrorists 
seeking to smuggle radiological material into the United States through 
risk management and CBP's layered enforcement strategy. In addition to 
Rail gamma-ray scanner equipment, CBP Officers currently utilize 
personal radiation detectors and radiation isotope identifiers to 
screen for radiation at rail examination sites. More robust radiation 
detection technology such as radiation portal monitors will be deployed 
to rail crossings in a phased approach.
Southwest Border
    There are eight rail crossings on the U.S./Mexico border. Rail 
gamma-ray scanner systems have already been deployed to seven of these 
crossings. The gamma-ray system will be deployed to the eighth rail 
crossing during calendar year 2004. Once this system is deployed, CBP 
will have the capability to screen 100 percent of the rail traffic 
arriving in the United States from Mexico.
Northern Border
    There are 23 rail crossings on the U.S./Canada border. Eight gamma-
ray scanner systems have been deployed to seven U.S. locations. Four 
systems will be deployed at two locations in Canada. CBP estimates the 
first two systems will be operational by the fall of 2004 and total 
deployment completed in Canada by the fall of 2005. The 12 rail gamma-
ray scanner units deployed to these nine northern border rail crossings 
will provide CBP with the capability to screen up to 90 percent of all 
rail traffic arriving in the United States from Canada.
    Along with rail gamma-ray scanner technology, railcar examination 
facilities have been built. These facilities provide CBP officers with 
the capability to unload railcars and examine their contents when 
necessary. Rail gamma-ray scanner technology, along with rail 
examination facilities, further strengthens existing border security 
and enhances CBP's anti-terrorism efforts.
    CBP intends to deploy rail gamma-ray scanner units to the remaining 
14 rail crossings on the northern border. Once fully implemented, our 
northern border rail initiative will provide CBP with the capability to 
screen 100 percent of the rail traffic arriving in the United States 
from Canada.
 Response to Written Questions Submitted by Hon. Ernest F. Hollings to 
                          Hon. Asa Hutchinson
    Question 1. In response to the question ``In Washington, Amtrak and 
commuter trains operate through tunnels under Capitol Hill. What has 
DHS done to ensure that these tunnels are properly secured,'' posed by 
Senator Hollings, from the April 2003 hearing, Secretary Ridge 
responded with ``The Virginia Avenue Tunnel is owned by CSX. CSX has 
posted security guards around the clock at each end of the tunnel since 
September 11, 2001. CSX is currently installing intrusion technology at 
both ends of the tunnel to replace the security guards.''
    What is the status of these security efforts? Has the intrusion 
technology been installed? Is CSX undertaking these efforts alone and 
at their own expense?
    Answer. There is an intrusion detection system monitoring both ends 
of the Virginia Avenue Tunnel, as well as a meteorlogical station that 
monitors the atmospherics in case of an emergency involving the release 
of chemical being transported. The CSX Police Communications Center 
monitors the intrusion detection system 24 hours a day/seven days a 
week. Most alarms are referred to the U.S. Capitol Police for response 
due to their close proximity and interest in hazardous material 
shipments transported close to the U.S. Capitol and associated 
surrounding buildings.

    Question 2. Should DHS be playing a more active role in either 
providing personnel or helping to finance the security of our key rail 
bridges and tunnels? If so, do you plan to request specific funds for 
this activity in the near future?
    Answer. TSA already plays a very active role in assisting passenger 
and freight railroad industries in addressing vulnerabilities and 
facilitating mitigation strategies. TSA has deployed a model to 
determine criticality of transportation facilities and assets, and with 
partners within the Department of Homeland Security (DHS) and the 
Department of Transportation (DOT), is conducting vulnerability 
assessments of transportation assets, such as rail and transit, to 
determine their susceptibility to attack or compromise. The Department 
coordinates information and threat sharing for rail and transit through 
the Surface Transportation Information Sharing and Analysis Center (ST-
ISAC), in partnership with the Association of American Railroads (AAR) 
and the American Public Transportation Association.
    TSA provides comprehensive security reviews for railroad owners and 
operators. We meet with stakeholders to review and assess security 
plans and to ensure that baseline security measures address different 
threat levels. Upon completion of the review, we provide guidance for 
improving overall system security. Many railroad carriers have taken 
additional security measures to protect their rail transportation 
system against terrorism. TSA is benchmarking existing industry best 
practices to recommend potential mitigation measures to industry 
stakeholders. In addition we are considering the feasibility of 
intrusion detection systems and unmanned aerial vehicles to monitor and 
protect rail infrastructure, bridges, tunnels, and other fixed assets. 
In the Washington D.C. metropolitan area, TSA is leading a multi-agency 
task force to conduct a comprehensive security review of rail 
infrastructure used to convey hazardous materials and to create a plan 
to address any vulnerabilities uncovered. An interagency working group 
will conduct similar reviews in two to three other high-threat urban 
areas.
    All of these programs are being implemented using existing funds, 
and we do not anticipate that the Administration will request 
additional funds in FY 2005.

    Question 3. The original question above about the security of the 
trains which run under the Capitol, was directed more specifically 
towards the security of the 1st street tunnel, which runs under the 
Capitol and the Supreme Court, not the Virginia Avenue Tunnel, which 
runs parallel to the House buildings. In light of this clarification 
what has DHS done to secure the 1st street tunnel? Currently how secure 
is it? What more must be done to fully secure the tunnels and how soon 
must it be accomplished?
    Answer. The 1st Street Tunnel is owned and maintained by Amtrak and 
used to carry passenger trains only. U.S. Capitol Police and Amtrak 
personnel closely monitor the area surrounding the tunnel. Future plans 
include installing cameras at the Amtrak/CSX interchange point which is 
approximately 500 feet away from the tunnel, to enhance existing 
surveillance capabilities provided by the Capital Police and Amtrak and 
provide a deterrence measure.
    TSA is working on developing and deploying an integrated 
monitoring, detection, and alerting system with the ability to 
distinguish, track, and display anomalous human behavior in multiple-
stream video feeds for the identification of possible terrorist attacks 
in a commuter rail setting. TSA and the Technical Support Working Group 
(TSWG) have a partnership with Amtrak to prototype this project at the 
30th Street Station in Philadelphia, PA. This technology may be used in 
the future to secure infrastructure such as the 1st Street Tunnel as 
well as other key assets.

    Question 4. Since 9/11, DHS has provided more than $30 billion in 
Federal funding for aviation concerns related to 9/11, yet has expected 
the rail industry to largely fund their own efforts. Can you explain 
this discrepancy in Federal responsibility and funding? Does the 
Administration simply believe that aviation concerns are a higher 
national priority, despite the resent attacks in Madrid and evidence 
sited in testimony given by the Rand Corporation citing the 
pervasiveness of attacks against railroads?
    Answer. Ensuring that our Nation's transportation systems are 
secure must be accomplished through effective partnering among 
appropriate Federal, state, local and private industry entities. Much 
of TSA's activities support our mission across the various 
transportation modes, making them difficult to categorize as 
exclusively benefiting a single mode.
    Although the creation of a Federal screener workforce has meant 
that DHS currently provides a greater proportion of the security costs 
for aviation compared to other modes, transportation security is a 
partnership among Federal, state and local governments and the private 
sectors.
    In aviation, the Federal jurisdiction and operational 
responsibility is clearly significant. For these reasons, DHS has known 
that the aviation model would not work as well for securing all modes 
of transportation. Thus, we have worked with our State, tribal, local, 
regional and private partners to help secure our transportation system. 
In coordination with DOT, state, local and private sector partners, 
DHS's efforts in non-aviation security over the past two years have 
focused on greater information sharing between industry and all levels 
of government, assessing vulnerabilities in non-aviation sectors to 
develop new security measures and plans, leveraging existing security 
initiatives, increasing training and public awareness campaigns, and 
providing greater assistance and funding for non-aviation security 
activities.
    DHS, DOT, and other Federal agencies are working together to 
enhance rail and transit security in partnership with the public and 
private entities that own and operate the Nation's rail and transit 
systems. Part of TSA's responsibility is the coordination of these 
entities, many of whom have always been and continue to be in the 
business of providing security for their particular piece of the 
transportation sector. Working with our partners, TSA plays an active 
role throughout the entire transportation system providing research and 
development, advisory services, and intermodal coordination. A number 
of steps have already been taken to address vulnerabilities in the rail 
and transit systems and improve our security posture against attacks.

    Question 5. Does DHS have a special responsibility for securing 
Amtrak since it is a national carrier that is significantly funded by 
the Federal Government and its key asset--the Northeast Corridor--is 
owned by the U.S. DOT? Isn't this akin to the U.S. government's 
ownership of the air space and our responsibility to secure aviation?
    Answer. The responsibility of securing our Nation's rail and mass 
transit systems is shared between DHS, DOT, and other Federal agencies 
in partnership with the public and private entities that own and 
operate those systems. To our knowledge, the Northeast Corridor was 
purchased by Amtrak from the bankrupt Penn Central at the time of its 
restructuring. Operators in the corridor include New Jersey Transit 
(NJT), Southeastern Pennsylvania Transportation Authority (SEPTA), 
Massachusetts Bay Transportation Authority (MBTA), Metro North 
Railroad, CSX and NS. Amtrak utilizes its own police and security 
forces and takes the lead in providing security for this section of 
critical transportation infrastructure.

    Question 6. Is Amtrak currently eligible for any grants or other 
funding from DHS for security improvements? If so, through what 
programs?
    Answer. As a Federal entity, Amtrak is not eligible to receive 
grant funds from the Office for Domestic Preparedness.

    Question 7. The Department has stated that, in conjunction with the 
FRA, it has conducted ``comprehensive vulnerability assessments'' of 
rail networks in high density urban areas. How many rail vulnerability 
assessments have been concluded at present? Who has primarily provided 
the funding for these assessments? How many more are planned?
    Answer. The FTA funded ``security risk assessments'' for at least 
50 of the largest transit agencies in the nation, which included the 10 
largest commuter railroads under FRA's jurisdiction. FRA participated 
in all of the security risk assessments on those 10 commuter railroads 
and contributed to the funding for three of those risk assessments. TSA 
has reviewed FTA's 34 ``vulnerability assessments'' on transit systems 
in high density urban areas and three vulnerability assessments on 
commuter rail lines and provided a gap analysis to FTA.
    Additionally, TSA is finalizing for delivery a hazardous material 
rail security assessment that includes vulnerability assessment/hazard 
analysis in the Washington, D.C. area. This will be followed by two 
additional HAZMAT assessments as well as four to five passenger 
assessments. These assessments will be coordinated with FRA, FTA, RSPA 
and IAIP.

    Question 8. Once vulnerability assessments have been concluded, 
does the Department have the ability to compel rail carriers or transit 
agencies to address the vulnerabilities identified?
    Answer. The Department has the authority under 49 U.S.C. 114(f) to 
require transportation owners and operators, including rail carriers 
and transit agencies, to address identified vulnerabilities. As an 
example, on May 20, 2004 DHS issued Security Directives (SD) to ensure 
the best of these practices are implemented throughout the industry. 
The SDs, which are being administered by TSA, establish mandatory 
protective measures for commuter and transit passenger rail, inter-city 
train, and regional services. To enforce the directives, in 
coordination with the rail operator, TSA will designate Security 
Partnership Teams comprised of representatives from DHS/TSA and DOT. 
Team visits will be prioritized based on criticality, threat, and the 
status of the last vulnerability assessment.

    Question 9. It is still unclear from the testimony presented at the 
March 24, 2004 Rail Security Hearing, whom exactly is in charge of rail 
security and ultimately responsible for coordinating the multitude of 
federal, state, local, and industry rail security efforts. Is this 
primarily DHS's job? What role does FRA have? Is TSA spearheading the 
effort for the Department?
    Answer. TSA is responsible for coordinating security efforts across 
the intermodal passenger and supply chain. This responsibility must 
involve the coordination of appropriate federal, state, local and 
private industry partners, many of whom have always been, and continue 
to be, in the business of providing security for their particular piece 
of the transportation puzzle. TSA's main charge, both under the 
Aviation and Transportation Security Act (ATSA) and now as part of the 
DHS family, is to coordinate these efforts under the guidance of the 
Secretary and the Under Secretary for Border and Transportation 
Security (BTS), identifying gaps and working with appropriate partners 
to ensure that existing security gaps are filled. Under DHS leadership, 
TSA is responsible for (1) establishing consistent national 
transportation security standards across all modes, (2) monitoring 
compliance with these standards by transportation stakeholders, (3) 
evaluating risk to the system across a changing array of threats, (4) 
sharing threat and risk information with transportation stakeholders 
(public and private), and (5) in the event of a transportation security 
incident insuring rapid restoration of service and public confidence. 
TSA is currently engaged in this process through rulemaking, risk 
modeling and contingency planning. The challenge in implementing this 
strategy centers on the proper balance between public and private 
responsibility/investment in achieving an acceptable security level. 
TSA/DHS will work with transportation stakeholders (public and private) 
to develop consistent security standards across all transportation 
modes.
    DHS, DOT, and other Federal agencies are working together to 
enhance rail and transit security in partnership with the public and 
private entities that own and operate the Nation's rail and transit 
systems. Homeland Security Presidential Directive 7 (HSPD-7) directs 
the establishment of ``a national policy for Federal departments and 
agencies to identify and prioritize United States critical 
infrastructure and key resources and to protect them from terrorist 
attacks.'' Under HSPD-7, DHS has the lead role in coordinating 
protection activities for ``transportation systems, including mass 
transit, aviation, maritime, ground/surface, and rail and pipeline 
systems,'' while DOT is responsible for promoting the safety, 
efficiency, effectiveness, and economic well-being of the Nation's 
transportation systems.
    DHS has assigned TSA primary Sector Specific Responsibility (SSR) 
for the Transportation Sector. TSA is developing and coordinating the 
Transportation Sector Specific Plan (SSP) in conjunction with our 
partners at DOT and USCG and under the guidance of the Undersecretary 
for Border and Transportation Security. DOT and its component modal 
administrations have subject matter expertise, substantial 
relationships, and frequent interactions throughout the entire 
Transportation Sector, as well as some regulatory authority. For these 
reasons, as well as requirements in HSPD-7, TSA collaborates closely 
with DOT's modal administrations, including FRA, on transportation 
sector security and will continue to do so.
    The SSP will discuss how Federal and private-sector stakeholders 
will communicate and work together; how important assets in the 
transportation sector will be identified, assessed, and prioritized; 
how protective programs will be developed; how progress in reducing 
risk will be measured; and how R&D will be prioritized in the sector. 
In the Transportation Sector, the SSP will further these efforts 
currently underway and help ensure that they are systematic, complete, 
and consistent with the efforts in the other 12 sectors. The first 
draft of the Transportation SSP is due shortly.

    Question 10. According to the Department of Homeland Security, $115 
million in Federal grants have been authorized, but the American Public 
Transportation Association (APTA) reports that only $35 million have 
actually reached the transit authorities so far. Can you explain what 
is holding up the distribution of these funds to transit authorities?
    Answer. The Department of Homeland Security, through the Office for 
Domestic Preparedness, provided $65 million in Fiscal Year (FY) 2003 to 
19 designated mass transit systems. Although administered by the ODP, 
the Urban Areas Security Initiative (UASI) Transit System Security 
Grant Program has been coordinated with the Transportation Security 
Administration and the Department of Transportation's Federal Transit 
Administration. This support was continued through the FY 2004 UASI 
program, which provided $50 million for 25 transit systems. As in FY 
2003, ODP worked closely with TSA to determine those transit systems to 
receive support through this program.
    To date, none of the FY 2003 UASI Transit Security Grant funds have 
been drawn down by the recipient agencies. Attached is a chart 
detailing specific information about the FY 2003 awards, including 
grantee, award date, award amount, and current draw down information. 
It should be noted, though, that recipients of the FY 2003 UASI Transit 
Security grants have 24 months to expend their funds. Given that most 
of these awards were made in late 2003, the grantees have until late 
2005 to draw down their awarded funds. As we have seen with the 
Homeland Security Grant Program awards and the Urban Areas Security 
Initiative awards, the reasons for lack of draw down of these funds can 
vary based on the recipient agency--including length of time required 
for grantees to contract or sub-grant these funds, time required to 
procure specialized equipment, and variances in state and local laws 
and regulations governing the acceptance and expenditure of Federal 
funds.
    As you know, the Secretary has convened a Homeland Security Funding 
Task Force to examine the varying reasons for delays in states and 
localities expending homeland security funds. The Task Force, composed 
of state, county, city, and tribal representatives, is examining the 
funding process to ensure that Department of Homeland Security funds 
move quickly to local first responders. The Task Force will identify 
state and local funding solutions that work effectively and can be 
extended to situations where there are impediments to the efficient and 
effective distribution of state and local homeland security funds.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                          Hon. Asa Hutchinson
    Question 1. Why has the Administration not requested any funding 
specifically for Amtrak rail security?
    Answer. DHS, in coordination with its Federal, state, local and 
tribal government partners, as well as its private sector partners, is 
committed to improving the security of our Nation's passenger rail 
system. While, the President's Fiscal Year 2005 budget request for TSA 
does not include specific funding for Amtrak security personnel, DHS 
will continue to carefully monitor the rail security situation.
    The President's 2005 Budget proposes $1.4 billion for Amtrak 
beginning in 2006, assuming fundamental reforms are instituted. If 
Amtrak were to develop a security plan that received DOT and DHS 
approval, this amount could help fund life-safety and security 
projects.

    Question 2. Does BTS follow up on the security recommendations 
issued by the Infrastructure Protection Directorate to infrastructure 
owners/operators? Are IAIP's security recommendations are designed to 
improve security to a certain objective level, or just provide options 
for where any new spending on security should be directed?
    Answer. The Office of Information Analysis (IA) within the 
Information Analysis and Infrastructure Protection (IAIP) Directorate 
provides threat information in the form of Information Bulletins and 
Threat Advisories to owners and operators of various sector facilities, 
including the transportation sector. IA/IP's products are designed to 
provide threat awareness based upon current intelligence reporting and 
suggested protective measures. Specific recommendations or guidelines 
are often subsequently issued by BTS component agencies, including the 
Transportation Security Administration, Immigration and Customs 
Enforcement, and U.S. Customs and Border Protection.

    Question 3. New radiological detection equipment has been deployed 
to screen cargo on trucks leaving the ports. Similarly, does BTS intend 
to screen rail cars leaving ports?
    Answer. BTS utilizes radiological detection equipment, assigned to 
inbound cargo processing, to screen outbound cargo for vessel, air, 
truck and rail shipments leaving the country when a review of the 
export documentation indicates that a shipment may be high risk. CBP is 
looking for weapons of mass destruction, conventional weapons and their 
component parts that potentially could fall into the hands of 
terrorists. CBP's goal is to prevent terrorists or criminal 
organizations from obtaining the components of WMD or conventional 
weapons.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                         to Hon. Asa Hutchinson
    Question 1. Local communities, companies and Amtrak have all had to 
go out and conduct their own vulnerability assessments. Many of these 
have probably been done by public transit agencies. How many 
assessments has TSA/DHS carried out?
    Answer. TSA, in coordination with its Federal, State, local and 
private sector partners, is finalizing a hazardous material rail 
security assessment that includes vulnerability assessment/hazard 
analysis in the Washington, D.C. area. This will be followed by two 
additional HAZMAT assessments as well as four to five passenger 
assessments, which will be coordinated with FRA, FTA, RSPA, and IAIP. 
Additionally, to date TSA has generated 543 criticality assessments to 
prioritize and identify our most critical assets.
    TSA has also developed the TSA Self Assessment Risk Model (TSARM). 
This is designed to assist asset owners/operators in developing a 
security plan. The tool captures an asset's baseline security posture 
and identified additional measures that could be undertaken to reduce 
vulnerabilities. This tool is available at no-cost to users. Currently, 
a maritime module is operational with development efforts underway for 
General Aviation and Mass Transit. It is TSA's intent to have modules 
for each transportation mode.

    Question 2. Other than the public transit agencies, how many grants 
has TSA given out for those studies?
    Answer. The Federal Transit Administration (FTA) funded ``security 
risk assessments'' for at least 50 of the largest transit agencies in 
the nation, which included the 10 largest commuter railroads under 
Federal Railroad Administration's (FRA) jurisdiction. FRA participated 
in all of the security risk assessments on those 10 commuter railroads 
and contributed to the funding for three of those risk assessments. TSA 
has reviewed FTA's 34 ``vulnerability assessments'' on transit systems 
in high density urban areas and three vulnerability assessments on 
commuter rail lines and provided a gap analysis to FTA.
    Additionally, TSA is finalizing for delivery a hazardous material 
rail security assessment that includes vulnerability assessment/hazard 
analysis in the Washington, DC area. This will be followed by two 
additional HAZMAT assessments as well as four to five passenger 
assessments. These assessments will be coordinated with FRA, FTA, RSPA, 
and IAIP.
    In addition to rail assessments, TSA has provided grant funding to 
over 50 intercity bus agencies to conduct security assessments. Also, 
TSA has awarded 32 grants to specifically provide security assessments 
for maritime facilities. Security assessments currently are not 
required to be completed by public transit companies, although some 
have done them voluntarily.

    Question 3. Once a study is completed, what does TSA do with the 
information--how do you harden these systems?
    Answer. This response assumes that the word ``study'' in the 
question refers to vulnerability assessments. As a matter of policy, in 
allocating the UASI funds the Secretary dedicated to transit security, 
DHS required that transit applicants complete assessments and have 
security plans in place. The funds were targeted to assist in 
implementation of security plans.

    Question 4. How do you share intelligence threat information with 
the various entities?
    Answer. The DHS goal of domain awareness across all modes of 
transportation is served by enhanced information sharing with the 
increased access to both tactically actionable products and background 
information on groups and individuals. Information sharing is one of 
the critical mission areas that the Department of Homeland Security 
(DHS) has set as a priority for better preparing the homeland.
    The DHS Office of Information Analysis (IA), in conjunction with 
other DHS entities, prepares warning products and distributes them to 
State, local, Tribal, major city, and private sector officials. These 
products, which include both Homeland Security Information Bulletins 
and Threat Advisories, allow DHS officials to communicate threats and 
suggested protective measures to regions and/or sectors of concern, 
within each threat level. Additionally, unclassified information is 
shared through a daily Homeland Security Operations Morning Brief and 
the weekly joint DHS-FBI Intelligence Bulletin. The Office of State and 
Local Government Coordination also coordinates bi-weekly conference 
calls with all of the Homeland Security Advisors in all the states and 
territories to help relay important departmental information as well as 
respond to queries from advisors.
    The Department has also paid for and established secure 
communication channels to all of our state and territorial governors 
and their state emergency operations centers. This investment in 
communication equipment included secure VTC equipment along with Stu/
Ste telephones. DHS has also worked to ensure every governor has been 
cleared to receive classified information and are working with the 
Governors and their Homeland Security Advisors to provide security 
clearances for five additional people who support the Governors' 
Homeland Security mission. This provides DHS an avenue for 
disseminating classified information directly to the location that 
needs the information.
    Lastly, one of the primary ways in which DHS is improving its 
communication with its constituents is through the Homeland Security 
Information Network (HSIN) and specifically through the Joint Regional 
Information Exchange System (JRIES). Using this network, Federal, 
State, and urban area homeland security advisors will be able to 
communicate with each other and with DHS, as will federal, state, and 
urban Emergency Operations Centers, and the National Guard and the 
state adjutant generals. Once connected, user groups will have access 
both to communication streams with each other and DHS, as well as to 
DHS warning products distributed by IA.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John McCain to 
                           Hon. Allan Rutter
    Question 1. The transportation of hazardous materials by rail 
presents unique risks to the communities through which these shipments 
pass.
    (a) What can be done to minimize these risks?
    Answer. My prepared statement provides a broad overview of some of 
the Department's regulatory, research, and other programs intended to 
minimize the risks of transporting hazardous materials by rail, 
including the Department's work, under the coordination of the Homeland 
Security Council, with the Department of Homeland Security (DHS) to 
develop a plan to enhance rail security of hazardous materials that are 
toxic by inhalation (TIH materials). Let me focus now on this 
particular interagency initiative. The plan is the culmination of an 
over a year-long cooperative effort with DHS, with vital support in the 
aggregation of data from the U.S. rail industry.
    Specifically, the Department of Transportation (DOT) and DHS are 
doing the following:

  <bullet> Assessing the vulnerabilities of high-population areas where 
        TIH materials are moved by rail in significant quantity, 
        working with industry to put in place measures for mitigating 
        identified vulnerabilities, compiling a nationwide 
        vulnerability assessment, and completing pilot security plan 
        implementation projects in cities of concern by the end of 2004 
        (beginning with the Washington, D.C., corridor).

  <bullet> Conducting vulnerability assessments of those High Threat 
        Urban Areas where the largest quantities of TIH chemicals are 
        transported by rail and developing vulnerability remediation 
        and protection plans.

  <bullet> Developing by September 2004 predetermined protective 
        measures, based on the threat level, specific intelligence, and 
        vulnerability assessments, that selectively restrict the 
        movement of TIH materials by rail around high-density 
        population centers, without impeding the delivery of essential 
        goods and services.

  <bullet> Assessing the compliance with, and the effectiveness of, 
        existing hazardous materials security plans as they 
        specifically relate to TIH shipments by rail, and determining 
        whether and how to amend the regulations of DOT's Research and 
        Special Programs Administration (RSPA) that require those 
        plans.

    Over the longer term, DOT and DHS have established an interagency 
regulatory working group to review existing regulations and to do the 
following:

  <bullet> Explore the potential risk reduction from making rail 
        shipments of TIH materials less identifiable to terrorists, 
        with careful consideration of the needs of first responders.

  <bullet> Evaluate options for eliminating the use of rail tank cars 
        for the temporary storage of TIH materials at user sites or 
        rail yards in high-population areas, or improving the security 
        surrounding these areas during temporary storage. If DOT and 
        DHS determine that storage requirements may be warranted, we 
        will develop additional rail yard protective measures for tanks 
        cars used for temporary storage of TIH materials, and we will 
        publish a notice in the Federal Register by August 1, 2004, 
        requesting comments.

  <bullet> Consider the feasibility and cost effectiveness of 
        establishing minimum communication standards for transporters 
        of TIH material, such as the real-time satellite tracking of 
        railcars containing TIH material and the real-time monitoring 
        of tank car conditions, as well as requiring intended 
        recipients of TIH shipments to report non-delivery within 
        agreed-upon delivery windows.

    (b) Is it feasible to reroute some hazardous materials shipments?
    Answer. The Nation's towns and cities were built on rail lines, and 
routing alternatives on the national rail system are very limited. 
Where routing alternatives do exist, making the route less direct would 
increase the cost and could also increase the safety risk for carriers 
and shippers. For example, some routes outside of cities may pose 
higher safety risks because the lines involved have low maximum 
operating speeds and are, therefore, subject to less robust track 
standards.
    As I've discussed, our agency is participating in joint efforts 
with DHS and the Homeland Security Council to conduct a review and 
security risk assessment of rail shipments of certain hazardous 
materials (i.e., TIH materials) through major metropolitan areas in 
order to better understand our potential vulnerabilities and to take 
protective actions. The risk assessment of these rail shipments in 
Washington, D.C., is currently underway. We hope that this effort will 
serve as a precursor and model for similar risk assessments in other 
metropolitan areas that have significant amounts of hazardous materials 
shipments.

    Question 2. How has FRA modified its safety regulations since 
September 11, 2001 to improve rail security?
    Answer. Since the September 11 attacks, FRA has used its rail 
safety rulemaking authority to pursue many rulemakings that benefit 
rail security, including several that are explicitly grounded on 
security concerns or that have clear security benefits. FRA has issued 
an interim final rule and a final rule requiring that trains operating 
in the United States be dispatched from the United States, except under 
certain limited conditions. The preamble to the final rule notes that 
current technology allows dispatching of domestic rail operations from 
anywhere in the world, including countries that may not offer the same 
levels of security and security measures that are offered by domestic 
agencies. We have also established a Railroad Safety Advisory Committee 
working group to use recent FRA-sponsored research to develop 
recommendations to improve FRA's Passenger Equipment Safety Standards 
and passenger train emergency preparedness standards. Further, we have 
progressed a rulemaking to establish performance standards for positive 
train control systems, which help prevent collisions and overspeed 
derailments, in both ordinary and security situations; a final rule is 
in clearance in the Executive Branch.
    Finally, as I discussed in my prepared testimony, FRA and RSPA 
contemplated a rulemaking involving personnel security, but decided not 
to proceed after all. In coordination with DHS, which has the lead on 
transportation security, FRA and RSPA looked closely at the issue of 
whether the transportation of explosives by rail presented a sufficient 
security risk to warrant issuance of regulations concerning the 
backgrounds of railroad operating employees. Our analysis, jointly 
issued by the Transportation Security Administration (TSA), RSPA, and 
FRA and published in the Federal Register on June 9, 2003, indicated 
that railroad operating employees did not present a sufficient security 
risk requiring further regulation at that time because of the extensive 
regulation of the transportation of all hazardous materials, including 
explosives, by DOT; the protections inherent in rail operations against 
improper use of those materials by railroad employees; and the security 
safeguards already taken by the railroads themselves, including 
background checks. In that publication, we also noted, however, that 
the issue of whether to mandate background checks for railroad 
employees who transport hazardous material remains open.

        TSA is currently evaluating the need for and nature of 
        background checks on transportation workers, in addition to 
        those in the aviation and trucking industries, who are in a 
        position to cause or control serious security-related events. 
        TSA is taking a risk-based approach to security regulations so 
        that the government and private sector can prioritize resources 
        based on threat information, vulnerability assessments, and 
        criticality determinations. TSA is engaged in such an analysis 
        concerning background checks for transportation workers in the 
        maritime and rail industries. TSA continues to evaluate the 
        need for additional regulations concerning this population and 
        potential threats, and may issue additional security 
        requirements concerning railroad employees engaged in the 
        transportation of [hazardous material].

68 Fed. Reg. 34474.

    Question 3. Your written testimony states the many actions that 
have been taken by FRA and RSPA to safeguard the transportation of 
hazardous materials. But in light of the 2002 Minot, North Dakota 
derailment, in which one person died and 11 others were injured because 
8 tank cars carrying anhydrous ammonia ruptured, doesn't more need to 
be done to improve tank car integrity? What should be done to phase out 
or rebuild older pressurized tank cars, like those in the Minot 
accident? The National Transportation Safety Board (NTSB) concluded 
that the type of steel used for the tank shells of the Minot cars 
contributed to the ruptures. Nearly 60 percent of the pressurized tank 
cars in service today were built using the same type of steel as the 
Minot cars. The NTSB indicated these cars could remain in service until 
2039.
    Answer. It is unlikely that all of the pressurized tank cars built 
before 1989 will be in use for TIH chemicals for another 35 years for 
economic reasons: the operating and maintenance costs of the vehicles 
begin to exceed the leasing revenues for tank car owners after 25-30 
years. Nevertheless, FRA will continue to explore whether retrofit or 
operating restrictions are needed for these cars.
    For many years FRA and RSPA have been actively pursuing 
improvements in tank car structural integrity through the Association 
of American Railroads' (AAR) Tank Car Committee, of which the NTSB is a 
member, and we will continue to do so. Among the research items being 
investigated is a comprehensive analysis of the impact resistance of 
steels in the shells of pre-1989 pressurized tank cars, which must be 
completed before we can begin to assess and evaluate risk or to develop 
any necessary operating restrictions. When this initial study is 
finished, the results can be applied to design specific fracture 
toughness standards for tank cars built in the future. Furthermore, the 
most effective testing methods to replace the periodic retest 
requirement will need to be identified.
    Overlying all of this effort is research into defining the 
operating environment for tank cars and the stresses they encounter in 
actual transportation. These efforts have been continuous since the 
mid-1990s and are looking at buff and draft forces, switching impacts, 
and forces developed during train accidents. FRA's Office of Research 
and Development is sponsoring an on-going program at the Volpe Center, 
the University of Illinois at Chicago, and Southwest Research Institute 
to evaluate in-train forces associated with train derailments. The 
development and validation of a model of such forces are expected to be 
complete in early 2006. Another research and development project being 
conducted jointly with the AAR and the tank car industry is the 
validation of previously developed data on the tank car operating 
environment to effectively determine the adequate service integrity of 
tank cars during their life. These programs are well on their way 
toward providing the agency with the necessary tools to better predict 
the action of such forces on tank cars in hazardous materials service.
    Finally, as part of our new cooperative initiative with DHS, we are 
exploring the possibility of making tank cars that transport anhydrous 
ammonia and other TIH materials (TIH cars) better able to withstand 
deliberate attack. DOT and DHS have begun working with the AAR Tank Car 
Committee to evaluate options and methods for strengthening TIH cars 
against intentional assault, such as might be committed by a terrorist. 
Based upon a review of current intelligence, terrorist capabilities, 
feasibility, and cost effectiveness, DHS and DOT are working on a 
Design Basis Threat (a profile of the type, composition, and 
capabilities of an adversary), from which potential improvements in 
rail car design may be derived. DOT and DHS are also surveying 
technologies for strengthening TIH cars against terrorist attack, 
either through design modification or retrofit; any such strengthening 
would also help improve the crashworthiness of the TIH fleet. It is our 
hope that, by September 2004, we will publish a notice in the Federal 
Register requesting comments from the general public and the industry 
on options and methods for strengthening such cars against deliberate 
attack.

    Question 4. In January 2003, I asked FRA and TSA to help Amtrak 
develop a security plan and a security investment plan. The plan FRA 
and TSA reviewed and provided comments on, however, was not Amtrak's 
final plan. You indicated at the time, Administrator Rutter, that FRA 
has hired Ensco, Inc., to review Amtrak's security plan and provide 
assistance in updating and revising it. Now I understand FRA has 
contracted with the RAND Corporation to review Amtrak's security 
programs.
    (a) Has this review been completed and are you satisfied with 
Amtrak's plan?
    Answer. FRA's reviews noted that current security investment 
decisions are often strategically and tactically ineffective. Expected 
completion of the review is December 2004.

    (b) In your opinion, is Amtrak's current security-related funding 
request based on its security plan?
    Answer. Amtrak's funding request is based on security 
recommendations from its police chief. To improve Amtrak's ability to 
identify and quantify its needs, FRA contracted with RAND to assist 
Amtrak in developing a program to fully identify risk and threat-based 
vulnerabilities.

    (c) With all FTA is doing on transit security, did FRA think about 
having FTA review Amtrak's security plan?
    Answer. Yes, but FTA handles transit and commuter railroads, not 
Amtrak. FRA regulates Amtrak, and as FRA Administrator, I sit on 
Amtrak's board. FRA thought it would be best to have an independent 
third-party contractor with extensive expertise in the security area to 
review Amtrak's security plan.

    (d) Have these consultants been funded by Amtrak or FRA?
    Answer. FRA initially funded the RAND study, but in order to gain 
more detailed information on operational security issues, the Amtrak 
Office of the Inspector General also provided funding for the RAND 
work.

    (e) Has FRA provided other security-related financial assistance to 
Amtrak, and if so, how much funding and for what purposes?
    Answer. In Fiscal Year 2002, FRA received an emergency supplemental 
appropriation of $105 million for Amtrak rail security as a result of 
9/11. Of that amount, $100 million was for fire and life-safety 
improvements to Amtrak's New York tunnels, and $5 million was for 
overtime for Amtrak police and security personnel. To date, 
approximately $75 million of the $100 million for the tunnels has been 
obligated. Please note that FRA issues the general capital, Northeast 
Corridor capital, and operating grants for Amtrak, portions of which 
are used for security purposes.

    Question 5. (a) What are the principal duties of FRA's Chief of 
Security?
    Answer. FRA's Chief of Security spearheads FRA's efforts to assist 
TSA and the railroad industry implement practical measures to improve 
railroad security. He prepares procurement requests for, and provides 
technical management for, contracts to conduct security assessments. He 
coordinates railroad security issues and activities with the railroad 
industry and rail labor, with Federal, State, and local law 
enforcement, and with homeland security agencies. Working with DOT's 
Office of Intelligence and Security, DHS, and the railroad industry, he 
has established communication channels for rapid dissemination of 
threat information. Working with RSPA and our hazardous materials 
staff, he is developing guidance for evaluation of railroads' hazardous 
materials security plans. Working with FRA's regional staffs, he has 
helped plan and evaluate reviews of station security and plans for 
security enhancement in passenger rail facilities. As FRA and DHS 
clarify ongoing responsibilities for rail security, he may assume 
additional responsibilities for program management.

    (b) How big a security force does FRA have?
    Answer. FRA is currently authorized one Railroad Security 
Specialist (Risk Management) (the official title of the position held 
by FRA's Chief of Security, according to the position description). 
There is a broad overlap between FRA's historic rail safety 
responsibility and the new emerging rail security concerns. To date, 
FRA has been identifying and using existing resources to assure they 
address where possible both safety and security. Also, to a limited 
extent, FRA has been reprogramming existing resources to meet specific 
security needs (e.g., using FRA safety inspectors to check the 
security-related plans and preparedness at Amtrak and commuter rail 
stations).

    Question 6. How might the duties of FRA inspectors be changed to 
help fight terrorism? What role could they potentially play in 
prevention, emergency response training, and emergency response?
    Answer. My prepared testimony indicates some of the ways that FRA's 
rail safety inspectors are supporting the effort to improve rail 
security. DHS is considering certain actions it may take in the future 
to enhance rail security, and FRA will work with it on reaching a 
specific agreement concerning how FRA inspectors may be able to assist 
DHS's initiatives.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Ernest F. Hollings to 
                           Hon. Allan Rutter
    Question 1. a. How many FRA employees are dedicated to rail 
security at the FRA?
    Answer. As I told Senator McCain in answer to his earlier question, 
FRA is currently authorized one Railroad Security Specialist (Risk 
Management), which is the official title of the position held by FRA's 
Chief of Security, according to the position description. There is a 
broad overlap between FRA's historic rail safety responsibility and the 
new emerging rail security concerns. To date, FRA has been identifying 
and using existing resources to assure that they address where possible 
both safety and security. Also, to a limited extent, FRA has been 
reprogramming existing resources to meet specific security needs (e.g., 
using FRA safety inspectors to check the security-related plans and 
preparedness at Amtrak and commuter rail stations).

    b. Do you see the FRA or the DHS as having a leadership role in 
this area?
    Answer. Under applicable statutes, DHS is the lead Federal 
Government agency for railroad security. Section 101 of the Homeland 
Security Act of 2002 provides that the primary mission of DHS is to 
prevent terrorist attacks within the United States, reduce the 
vulnerability of the United States to terrorism, and minimize the 
damage and assist the recovery from terrorist attacks that do occur 
within the United States. Section 114 of title 49, U.S. Code, vests in 
the Transportation Security Administration, which is now part of DHS, 
the responsibility for security in all modes of transportation, 
including railroads and mass transportation systems.
    On December 17, 2003, the President issued Homeland Security 
Presidential Directive (HSPD) 7, which ``establishes a national policy 
for Federal departments and agencies to identify and prioritize United 
States critical infrastructure and key resources and to protect them 
from terrorist attacks.'' See HSPD-7, Paragraph 1. In recognition of 
the lead role assigned to DHS for transportation security, and 
consistent with the applicable powers granted to TSA by the Aviation 
and Transportation Security Act, Pub. L. 107-71, 115 Stat. 597 
(November 19, 2001), the directive provides that the roles and 
responsibilities of the Secretary of Homeland Security include 
coordinating protection activities for ``transportation systems, 
including mass transit, aviation, maritime, ground/surface, and rail 
and pipeline systems.'' See HSPD-7, Paragraph 15. In furtherance of 
this coordination process, HSPD-7 provides that DHS and DOT will 
``collaborate on all matters relating to transportation security and 
transportation infrastructure protection.'' See HSPD-7, Paragraph 
22(h).
    While DHS plays the primary role in fostering rail security, FRA 
plays a supportive role. FRA contributes to this security effort, using 
the agency's broad delegated authority over ``every area of railroad 
safety.'' The Administration's rail safety reauthorization bills 
transmitted to the Congress in July 2002 and July 2003 include a 
provision to clarify that the Secretary of Transportation's safety 
authority includes the authority to address threats to rail security. 
FRA believes that its current authority inherently includes security, 
but such a clarifying amendment would help FRA to preempt and quickly 
rebuff any judicial challenges to FRA safety rules and orders that are 
issued to enhance rail security, and any objections to FRA safety 
inspectors' examining vulnerability assessments and security plans of 
railroad carriers and railroad shippers in cooperation with DHS. A 
comparable clarifying provision was passed by the Senate in November 
2003 (section 205(b) of the Federal Railroad Safety Improvement Act (S. 
1402)).

    c. Does the FRA budget contain funds specifically for rail security 
efforts? If not, how are current FRA rail security efforts being 
funded?
    Answer. FRA was given funds for, and has hired, a rail security 
specialist. As I said earlier, FRA has been seeing to it that the 
agency's existing resources address both safety and security where 
possible and, occasionally, reprogramming existing resources to fulfill 
particular security needs.

    Question 2. a. What are the various layers of security that are now 
deployed to protect rail and transit security?
    Answer. The security measures currently in effect for railroads and 
transit systems may be divided into three categories: (1) measures to 
prevent security incidents through detection of security threats and 
deterrence of conduct that contributes to those threats; (2) measures 
to mitigate casualties through design; and (3) measures to mitigate 
casualties through emergency preparedness and hazard communication. My 
prepared testimony has dwelt quite a bit on casualty-mitigation 
measures, so I will focus now on preventive measures. These include (1) 
two-way threat-communication systems, (2) measures incorporated in the 
security plan of an individual railroad or transit system to address 
its identified vulnerabilities, (3) Federal oversight of the content 
and implementation of these security plans, and (4) special measures 
for U.S.-bound international cargo.
Two-Way Threat-Communication Systems
    The Railway Alert Network (RAN) is a tool employed by FRA, under 
the direction of the Department of Transportation's (DOT) Office of 
Intelligence and Security, both to relay classified or sensitive 
information from intelligence and law enforcement sources to the 
railroad industry and to receive related threat information from the 
industry, all via secure communications. FRA and the railroad industry 
also use the RAN to exchange information on ways to address the 
specific threat. FRA, at no cost to the industry, provides the 
Association of American Railroads (AAR), railroad labor, the American 
Public Transportation Association (APTA), commuter railroads, and The 
American Short Line and Regional Railroad Association, with current 
information, threat assessments, and security bulletins. Designated FRA 
staff are available around the clock, seven days a week, to receive 
this vital information and to share it with senior DOT and FRA 
officials, railroad police, and national security agencies. Begun under 
a different name many years before 9/11, the RAN is currently funded 
jointly by DOT and AAR and is operated up to the Secret level. The RAN 
is now linked to the AAR's Operations Center and to another, more 
recently established threat-communication network, the Surface 
Transportation Information Sharing and Analysis Center (ST-ISAC).
    DHS is the lead Federal agency for the ST-ISAC, which is run in 
partnership with both AAR and APTA and which serves the same users as 
the RAN as well as public transit agencies. DHS's Transportation 
Security Administration hosts the ST-ISAC personnel at the 
Transportation Security Coordination Center in Virginia. FRA, at no 
cost to the railroad industry, provides the ST-ISAC with current rail-
related information, threat assessments, and security bulletins. The 
ST-ISAC operates up to the Top Secret level.
    DOT also operates a Crisis Management Center to improve the 
dissemination of threat information throughout the Federal Government 
and the transportation industry as a whole. It is available 24/7 and is 
linked to the RAN and the ST-ISAC. The Crisis Management Center 
operates up to the Secret level.
Measures Incorporated in the Security Plan of an Individual Railroad or 
        Transit System to Address its Identified Vulnerabilities
    DHS's Information Analysis and Infrastructure Protection 
Directorate, the Federal Transit Administration (FTA), and FRA have 
jointly conducted comprehensive security vulnerability assessments of 
rail and transit systems in high-density urban areas. FTA funded these 
studies for the 50 largest transit agencies in the United States, which 
include the ten biggest commuter railroads, railroads subject to FRA's 
safety authority. FRA participated in each of the vulnerability 
assessments for these ten commuter railroads and helped to fund three 
of the ten assessments. These vulnerability assessments identified 
where resources should be directed now and in the future.
    Currently, security measures intended to prevent security incidents 
by addressing these vulnerabilities vary with the individual transit 
system or railroad. FTA Deputy Administrator Jamison can provide 
details on transit systems not within FRA's jurisdiction. The commuter 
railroads' security measures include the following:

  <bullet> monitoring by uniformed and plain-clothes police;

  <bullet> use of closed-circuit television for surveillance;

  <bullet> security sweeps of terminals and trains;

  <bullet> use of bomb-sniffing dogs to detect explosives;

  <bullet> efforts to prevent unauthorized access to train platforms, 
        rail yards, and passenger car maintenance and cleaning 
        facilities;

  <bullet> notices and job briefings of employees on how to be more 
        aware of suspicious persons and packages;

  <bullet> public announcements or printed notices to passengers to 
        warn them to be alert for such persons and packages and to 
        notify railroad personnel directly or through communication 
        systems located in trains or in stations; and

  <bullet> special training of security personnel.

    Amtrak's security measures are similar and described in some detail 
in its prepared testimony. I might also note with regard to training 
efforts that FRA has developed and made available a terrorism-awareness 
training program to educate railroad employees, local law enforcement, 
first responders, and railroad and shipper security managers. This 
education process provides insight into terrorist organizations, 
tactics, and planning, surveillance techniques, and attack protocols 
(i.e., ways a terrorist might attack a person and what the person 
should look for, e.g., someone wearing an overcoat in Washington, D.C., 
on July 4).
    As for preventive measures in the security plans of freight 
railroads, the AAR's testimony outlines the security plan adopted by 
the AAR Board of Directors for its member freight railroads. That 
security plan establishes four security alert levels and describes the 
actions to be taken at each level. At Alert Level 1, when there is ``a 
general threat of possible terrorist activity[,]'' 32 actions are to be 
taken, both to prevent incidents and mitigate casualties. Preventive 
measures include security education, limiting access to certain 
information to those with a need to know, curbing the unauthorized 
tracing of certain materials, and regularly verifying that security 
systems are working properly. At Alert Level 2, ``when there is a 
general non-specific threat of possible terrorist activity involving 
railroad personnel or facilities[,]'' 21 more preventive or casualty-
mitigation actions are to be taken. The additional preventive actions 
include discussing security and awareness during each day with 
employees; making ``content inspections of cars and containers for 
cause;'' making ``spot content inspections of motor vehicles on 
railroad property; and increasing security at designated facilities.'' 
Currently, the freight railroad industry is at Alert Level 2, and has 
undertaken some additional preventive measures in various urban areas 
as advised by DHS. Further security actions are prescribed in the AAR 
plan for Alert Levels 3 and 4. The same alert levels are used by the 
shortline railroads.
Federal Oversight of the Content and Implementation of these Security 
        Plans
    Federal monitoring of railroads' security plans is another layer of 
security. DHS has primary responsibility for reviewing and overseeing 
these security plans. FRA uses its inspectors to monitor implementation 
of security measures in response to elevated threats. Soon after the 
Madrid bombings on March 11, 2004, in coordination with DHS, I 
instructed FRA's regional offices to undertake multi-day team 
inspections of Amtrak and each of the 18 commuter railroads to see what 
additional security measures had been put in place. Almost 200 FRA 
safety inspectors participated in this project. When they found 
security problems, they alerted senior railroad managers so that the 
problems could be remedied. Finally,, for railroads that carry 
hazardous materials, RSPA's regulations require security plans and 
security training for their employees who handle hazardous material. 
Railroads must adhere to those plans and update them to meet new 
situations. We are looking forward to assisting RSPA and DHS in 
checking how the railroads are putting these plans into action.
Special Security Measures for U.S.-Bound International Cargo
    Finally, for railroads that handle international, intermodal 
freight, DHS's Container Security Initiative provides important 
additional security protections at the Nation's land and sea borders. 
That initiative involves four core elements: (1) identifying high-risk 
containers in foreign countries before the containers are loaded onto 
vessels destined for the United States; (2) pre-screening those 
containers before shipment; (3) using detection technology, such as 
radiation detectors and large-scale X-ray-type imaging equipment; and 
(4) using tamper-evident containers so that U.S. Customs and Border 
Protection officers can determine whether the cargo has been tampered 
with after it was screened overseas.
    FRA has continued to increase its railroad inspections at the 
borders, and continues close coordination with U.S. Customs and 
Immigration authorities. FRA coordinated the optimum placement of X-ray 
machines at railroad border crossings with U.S. Customs, and FRA is 
helping Customs' efforts to have trains inspected in Canada before 
being granted access to the United States.

    b. Who bears the cost of these security measures?
    Answer. The costs of existing security measures are borne by the 
Federal, State, and local governments and by the private sector. Some 
security measures, such as the RAN, are funded by the Federal 
Government and the AAR. Other security projects, such as vulnerability 
assessments for the 50 largest transit agencies, and many of Amtrak's 
security efforts are paid for by the Federal Government.

    c. How do our layers compare to those deployed by other countries?
    Answer. In almost all cases for countries on the European 
continent, railroads are owned, and often even operated by, the 
government of the country. Therefore, security measures to protect 
railroads are planned for, and provided by, one or more government 
security agencies. For example, in France, protection of the SNCF 
railroad's assets and operations is provided by the French National 
Police, as well as the French military, not by the SNCF railroad. A 
security liaison function within the SNCF closely works with these 
government assets. Security liaison staff at the railroads usually is 
made up of former government security members or, as is the case in 
Germany, is from the intelligence community. In addition, the 
International Rail Association (French acronym, ``UIC''), headquartered 
in Paris, helps coordinate European rail security operational aspects, 
and FRA, as an associate member of the UIC, since 9/11 actively 
participates in this rail security policy-planning and policy-making 
effort and disseminates available information to relevant U.S. rail and 
transit entities.
    In the United Kingdom, local and national police, including 
Scotland Yard for major incidents, assist the privatized rail industry 
with security issues. In the case of Japan, the privatized major 
railroads have their own security forces, and they closely work with 
various national and local security forces. China's huge government-
owned and -operated railroad has a considerable Railways Police force, 
with wide ranging powers, including meting out capital punishment, and 
an extensive prison system. Russia's equally huge rail system is being 
restructured, and we assume that security will continue to be provided 
by a mix of railroad police and Russian military. The Russian 
government continues to consider the rail system as a ``national 
monopoly,'' and security is tightly and centrally controlled in Moscow 
at a separate, high security command center.

    d. What is the annual spending by country for implementing these 
layers?
    Answer. FRA does not have this information. Because security is 
more often than not provided by either a foreign country's military or 
its other national assets, information on spending for protection 
programs is impossible for FRA to ascertain or obtain.

    Question 3. What percentage of the DHS/TSA budget is dedicated to 
rail/transit security and how is that money used?
    Answer. FRA respectfully defers to DHS to answer that question.

    Question 4. How much research funding is being spent each year, and 
for future years?
    Answer. For Fiscal Year 2004 (FY 04), FRA's Office of Research and 
Development (OR&D) has several ongoing and planned security 
initiatives, some of which I've described in my prepared testimony. 
Those initiatives, along with their respective funding amounts for FY 
04, are as follows:

        (a) OR&D plans to spend about $200,000 in FY 04 to assess the 
        vulnerabilities of passenger cars by evaluating the results of 
        a passenger car explosion.

        (b) FRA OR&D also plans to provide $200,000 in FY 04 to assist 
        the TSA with a railroad Passenger Check-Point Screening Pilot 
        Program.

        (c) The Tank Car Security Evaluation is an ongoing project with 
        a total funding amount of $400,000 from FY 03. This cooperative 
        project with DHS evaluates the integrity of tank cars through 
        the detection of tank car breach utilizing sensors on the tank 
        cars.

        (d) The Passenger Car Manifest Study is an ongoing initiative 
        prompted by a National Transportation Safety Board 
        recommendation. The total funding amount of $225,000 was 
        provided in FY 03, and no FY 04 funding is required. Currently 
        the study is being performed to define one or more options for 
        a real-time manifest system for Amtrak trains.

        (e) The Transportation Security Situation Display (TSSD) has 
        been funded at a total amount of $125,000, which was provided 
        in FY 03, and no FY 04 funding is required. The TSSD is a 
        developmental activity involving DOT's Volpe National 
        Transportation Systems Center and others. The TSSD is intended 
        to help first responders to allocate their resources by 
        providing on a computer monitor a visually displayed map of a 
        localized area where there is a security situation, a natural 
        disaster, or a weather-related disruption.

    For FY 05, FRA OR&D has requested $400,000 to continue the study 
initiated in FY 04 for passenger car explosion testing. Work will also 
be initiated on bridge and tunnel security monitoring.
                                 ______
                                 
 Response to Written Question Submitted by Hon. Frank R. Lautenberg to 
                           Hon. Allan Rutter
    Question. Why has the Administration not requested any funding 
specifically for Amtrak rail security?
    Answer. Again, DHS is the Federal Government's lead agency on 
transportation security. FRA defers to DHS on how to deal with the 
security needs of Amtrak. FRA has been working closely with DHS and 
Amtrak to define security investment priorities, and I expect that in 
the future these will be represented in specific security-related 
resource requests. My answers to some of Senator McCain's earlier 
questions on Amtrak security provide further explanation.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John McCain to 
                           Peter F. Guerrero
    Question 1. What are the various layers of security that are now 
deployed to protect rail and transit security? Who bears the cost of 
these security measures? How do our layers compare to those deployed by 
other countries? What is the annual spending by country for 
implementing these layers?
    Answer. Passenger and freight rail stakeholders have taken a number 
of steps to improve the security of the Nation's rail system since 
September 11, 2001. Although security received attention before 
September 11, the terrorist attacks elevated the importance and urgency 
of transportation security for passenger and freight rail providers. 
Consequently, passenger and freight rail providers have implemented a 
number of new security measures or increased the frequency or intensity 
of existing activities, including performing risk assessments, 
conducting emergency drills, and developing security plans. The Federal 
Government has also acted to enhance rail security. For example, the 
Federal Transit Administration has provided grants for emergency drills 
and conducted security assessments at the largest transit agencies, 
among other things.
    The costs of security enhancements have been borne by rail and 
transit providers and all levels of the government. For example, the 
Department of Homeland Security provided about $115 million to transit 
systems for security enhancements, such as physical barricades, video 
surveillance systems, and integrated communications systems, in Fiscal 
Years 2003 and 2004. In addition, the transit industry has invested 
$1.7 billion in security enhancements since September 11, according to 
the American Public Transportation Association. Funding needed security 
enhancements is a challenge for both passenger and freight rail 
systems. Although some security improvements are inexpensive, such as 
removing trash cans from subway platforms, most require substantial 
funding. The current economic environment makes this a difficult time 
for private industry or the government to make additional security 
investments. Given the tight budget environment, rail providers must 
make difficult trade-offs between security investments and other needs, 
such as service expansion and equipment upgrades.
    At the request of several Members of Congress, including Members of 
the Senate Committee on Commerce, Science, and Transportation, we are 
beginning a review of passenger rail security that will examine the 
security practices of our Nation's passenger rail systems and compare 
them with the practices of systems in select foreign countries. In 
particular, we plan to (1) identify vulnerability assessments of U.S. 
passenger rail systems that have been done and examine the results of 
these assessments, (2) identify measures that are currently in place or 
planned to screen rail passengers and their baggage and identify the 
limitations of these measures in securing the rail systems, and (3) 
examine passenger rail security measures that select foreign countries 
employ and determine the feasibility of applying these measures 
domestically. To the extent possible, we will also examine the costs of 
passenger and baggage screening measures in the United States and 
select foreign countries. We expect to complete this review next year.

    Question 2. What percentage of the DHS/TSA budget is dedicated to 
rail/transit security and how is that money used? How much research 
funding is being spent each year, and for future years?
    Answer. As part of our passenger rail security review, we will 
examine Federal spending on rail security activities. We expect to 
complete this review next year.
    In addition to our review of passenger rail security, we also are 
currently examining the Federal Government's research and development 
efforts for all modes of transportation, including rail, at the request 
of several Senate and House committees. In particular, we are examining 
(1) the extent to which DHS/TSA has managed its transportation security 
R&D program according to applicable laws; (2) the extent to which DHS/
TSA resources are committed to research and development across all 
transportation modes and to next generation technologies, systems, and 
equipment; and (3) the nature and scope of DHS/TSA coordination of its 
research and development program with other government and private 
sector organizations. We expect to complete this review in August 2004.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John McCain to 
                               Jack Riley
    Question 1. Do you think there is any way the Madrid attack could 
have been avoided? If so, how?
    Answer. Given the size, yet simplicity, of the Madrid attacks (10 
backpack bombs detonated near simultaneously), it is unlikely that the 
event could have been completely averted by any combination of rail 
security measures. Passenger and employee awareness programs might have 
reduced the number of successful detonations. Explosive-sniffing dogs 
might have caught a few more. The only measures that could have 
prevented the attack in its entirety are intelligence and surveillance 
that resulted in preemption of the attack.

    Question 2. Your written testimony states ``There is a need for 
coordinated Federal policy on rail security, encompassing freight, 
passenger and commuter rails. Compared to other transportation sectors, 
decision-making appears to be quite decentralized between a number of 
federal, state, local and private concerns.'' Based on everything you 
have heard today, do you think we have a well-coordinated rail security 
program?
    Answer. While there has been a substantial amount of rail security 
activity (even prior to the Madrid attacks), it is not particularly 
well-coordinated. For example, the freight industry has moved rapidly, 
but they are motivated by a desire to avoid regulation. TSA is the 
logical locus of that coordination, so that tradeoffs between rail and 
air and maritime, or between passenger and freight security. However, 
TSA has yet to emerge as the focal point. Thus, while there is a clear 
focal point for airport and airline security best practices, there is 
not for rail. This is the primary reason that I think rail security is 
not well-coordinated.

    Question 3. Mr. Riley, given your company's extensive work on 
security, what do you believe are the three most important steps to 
take to secure the Nation's rail system?
    Answer. In the short run, the best steps for passenger rail: 
visible security measures (patrols, cameras, explosive sniffing dogs, 
etc) as a deterrent; passenger awareness campaigns; employee awareness 
campaigns; and blast resistant containers. Beyond these short run 
efforts, I do not believe the analytic work has been done (see 4-5 
below) to justify other, large expenditures. For example, I do not 
believe we have the basis for justifying passenger screening programs.
    For freight security, the best immediate steps are slightly 
different: employee awareness campaigns and visible (and effective) 
efforts to secure cargo that can be weaponized. Beyond these short run 
efforts, I do not believe the analytic work has been done (see 4-5 
below) to justify other, large expenditures. It is also important to 
note that a large fraction of freight rail cargo originates at U.S. 
ports. Thus, to the extent that we succeed in securing the ocean 
container supply chain we will also be improving the security of the 
freight rail system.
    In terms of infrastructure security (i.e., tunnels, bridges, 
tracks, etc.), I think most of the emphasis will need to be on 
mitigation. Do tunnels have adequate ventilation? Are there escape 
routes? Do we have alternatives to key bridges? Questions like these 
are necessary in the event that we do not succeed in preventing 
attacks.
    Last, but not least, as mentioned in ``1'' above, the issue of 
intelligence and surveillance is an important one.

    Question 4. Since we cannot protect everything, how should 
decisions be made about how much to spend on rail security and what our 
priorities should be?
    Answer. The first priority should be understanding, through 
simulation, surveys, interviews, and other methods, what the potential 
catastrophic rail attack events are. For example, how easily could 
tunnels be breached by explosions? What characteristics might future 
attacks have? Thus, we need to formally review the types of attacks 
that might occur and assess where they might do the most damage. 
Second, we need to map these vulnerabilities to the likelihood of 
attack (that is, to the threat). We are most interested in identifying 
events that are high(er) likelihood and high consequence.

    Question 5. How can Congress evaluate the costs and benefits of 
rail security measures in an objective way?
    Answer. Spending decisions on rail security need to be made in the 
context of other security needs, particularly in the context of 
security for other critical infrastructure. To accomplish this, we need 
a national threat assessment and the vulnerability analysis from (4) 
above for rail and other critical infrastructure. Only then can we 
begin to make informed decisions about how much we should spend on rail 
security relative to spending on other infrastructure security.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John McCain to 
                        Hon. Edward R. Hamberger
    Question 1. What has happened to the insurance market for the 
freight railroads since September 11, 2001? Have the railroads been 
able to obtain terrorism insurance?
    Answer. While certainly the commercial insurance market was turned 
upside down from the tragic events of Sept. 11, and the impact on the 
availability and affordability of various lines of insurance continue 
to exist, the impact to the freight railroads depends on the line of 
coverage. For the most part, under the general liability lines, the 
freight railroads have been able to secure comparable coverage, 
including coverage for acts of terrorism, albeit with significant 
increases in premiums.
    While general liability coverage is still relatively available in 
the commercial marketplace, property damage coverage is difficult to 
secure; and where such cover is even offered in the commercial markets, 
the terms and conditions are severely restrictive and the costs are 
essentially prohibitive. In most cases the freight railroads have gone 
outside of the commercial marketplace and have instead utilized the 
coverage created by the Federal Terrorism Risk Insurance Act of 2002 
(TRIA) for property damage. The railroads pay premiums for the TRIA 
coverage through captive insurance companies.
    The railroads are pleased to be able to obtain this coverage for 
property damage and urge that TRIA be extended beyond its current 
expiration date in 2005. However, it should also be noted that TRIA 
insurance has yet to be used. As a result, uncertainties remain as to 
the full cost of participation in the event of a terrorist act against 
another party, the process for determining when coverage will be 
triggered by the Secretary of the Treasury, and the timing of and 
process of any insurance payments by the fund. Also, TRIA coverage only 
applies to an international, and not domestic, terrorist act. These 
issues should be considered during the debate over TRIA's extension.

    Question 2. Your written statement indicates that under the rail 
industry's security plan, at the highest level of alert (when there has 
been a confirmed threat against the rail industry or a terrorist attack 
has occurred), the railroads would stop ``all non-mission-essential 
contract services with access to critical facilities and systems.'' 
What exactly are ``non-mission-essential contract services''?
    Answer. Examples of ``non-mission-essential contract services with 
access to critical facilities and systems'' that the railroads would 
stop at the highest alert level are:

  <bullet> Janitorial service

  <bullet> Vending machine service

  <bullet> Newspaper deliveries

  <bullet> Food deliveries

  <bullet> IT and communications contract services such as maintenance 
        and deliveries

    Question 3. Under what conditions does the railroads' plan call for 
rerouting hazardous materials?
    Answer. The Terrorism Risk Analysis and Security Management Plan 
(``Plan'') implemented by the railroad industry addresses the security 
of hazardous materials transport in many ways. Depending on the alert 
level, railroads impose increasingly stringent security measures to 
protect these shipments. This security management approach provides a 
proper balance between the need for increased security and the need to 
meet delivery requirements for critical commodities. The Plan provides 
for rerouting as an option that can be considered in very limited 
circumstances and for periods of short duration so as to avoid serious 
disruption to the operations of certain rail customers, such as water 
treatment facilities and pharmaceutical manufacturers.

    Question 4. Your written testimony states that ``Tank cars must 
meet stringent U.S. DOT specifications if used to transport hazardous 
materials.'' But in light of the Minot, North Dakota accident, in which 
one person died and 11 others were injured because 8 tank cars carrying 
anhydrous ammonia ruptured in a derailment, doesn't more need to be 
done to improve tank car integrity?
    What can/should be done to phase out or rebuild older pressurized 
tank cars, like those in the Minot accident? The National 
Transportation Safety Board (NTSB) concluded that the type of steel 
used for the tank shells of the Minot cars contributed to the ruptures. 
Nearly 60 percent of the pressurized tank cars in service today were 
built using the same type of steel as the Minot cars. The NTSB 
indicated these cars could remain in service until 2039.
    Answer. The tank car issue is about steelmaking techniques, 
including a thermal process called normalization, and how steels fail 
when overstressed. It appears that NTSB is asking FRA to prioritize 
hazardous materials that are transported in 32,818 non normalized cars 
today so that the most hazardous and most likely to be subject to 
rupture in cold temperatures can be moved into normalized steel cars, 
while allowing the non normalized cars to be used for less hazardous 
materials. While the railroads are nor the owners of these tank cars, 
they are able, through the AAR Tank Car Committee, to influence tank 
car design, research, and utilization. The committee is already looking 
at the issues raised by NTSB in their recommendations to FRA, and we 
will cooperate with FRA and others to accomplish improvements in tank 
car safety. Many improvements have been made to tank cars over the 
years as a resu1t of research initiated and paid for by the rail 
industry (including the railroads and the tank car builders & lessors/
owners) through the RSI-AAR Tank Car Safety Research and Test Project 
NTSB and the regulators need to be cognizant, however. that This 
cooperative approach could be jeopardized if government action would 
make cars obsolete for marginal benefits, As information, the current 
pressure car fleet is comprised of 60,849 cars, 32,818 of which were 
constructed prior to 1989.

    Question 5. What has been the cost to the rail industry to modify 
your track and facilities to accommodate screening technology at our 
borders with Mexico and Canada? What additional expenditures do you 
estimate will be incurred in implementing the technology at additional 
border crossings?
    Answer. Following 9/11, Customs changed its enforcement strategy to 
include the deployment of Rail VACIS (Vehicle and Cargo Inspection 
System) at the southwest and northern border rail crossings. A rail 
VACIS uses gamma ray technology to scan each rail car as the train 
slowly (1-8 mph) moves past the VACIS equipment, which remains 
stationary. The full image of the vehicle and its contents are produced 
at a nearby console, which is operated by a trained inspector. From the 
X-ray image, inspectors can find unidentified articles and hidden 
compartments within the rail car.
          Railroad Vehicle and Cargo Inspection System (VACIS)
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    According to the Department of Homeland Security, U.S. Customs has 
deployed seven out of eight southwest border rail VACIS systems which 
are expected to cover 100 percent of the southwest border rail 
traffic.\1\ The 8th system is expected to be installed by the end of 
2004. U.S. Customs is planning to place nine rail VACIS systems on the 
northern border, which are expected to cover 90 percent of northern 
border rail volume entering the United States from Canada.\2\
---------------------------------------------------------------------------
    \1\ Among the U.S.-Mexico railroad crossings are San Diego, CA; 
Calexico, CA; Nogales, AZ; El Paso, TX; Eagle Pass, TX; Laredo, TX 
(Seranno Yard), Brownsville, TX. At Laredo, a new rail cargo 
inspections facility, completed in April 2003, was built on land owned 
by Union Pacific.
    \2\ There are 9 U.S.-Canadian border crossings with VACIS: (7) 
facilities on U.S. soil at International Falls/Rainier, MN; Portal, ND; 
Buffalo, NY; Blaine, WA; Noyes, MN; Champlain/Rouses Point, NY and 
Eastport, ID and (2) facilities on Canadian soil at Sarnia, Ontario 
(Sarnia Yard) and Windsor, Ontario (Walkerville Yard). Not all 
locations are up and running.
---------------------------------------------------------------------------
    Canadian National and Canadian Pacific Railroad have signed 
agreements with both the Canadian and U.S. customs agencies concerning 
VACIS. The railways will build the facilities, but U.S. Customs will 
purchase, install and maintain the equipment at Sarnia, ON; Windsor, 
ON; Buffalo, NY; Champlain/Rouses Point, NY; Noyes, MN; International 
Falls/Rainier, MN and Portal, ND.
    While U.S. Customs has funded the purchase of the VACIS machinery 
through DHS's FY 2002 and 2003 appropriations, the freight rail 
industry is assuming costs to accommodate this screening technology. 
These include expenditures such as the use of right of way, track, 
signaling, buildings, pads and toplifters. The biggest expenses are 
creating and locating physical infrastructures that meet Customs 
security standards for any cars that need to be set out of the train 
for a resulting intensive exam, including the cost to switch out the 
rail car or intermodal unit. Work is also usually required on railroad 
property to position the VACIS machine itself. Costs among the Class 1 
railroads vary significantly. Some railroads have reported minimal 
direct costs, while in one case expenditures are expected to reach $8 
million.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    An additional cost is the requirement to operate at a maximum speed 
of 6 MPH. While some technology improvements may soon allow speeds up 
to 8 MPH, that is still less than half the speed that railroads would 
normally operate at the border without VACIS speed restrictions. 
Reduced speed not only impedes productivity, it also results in 
blocking road crossings for longer that necessary at all gateways.

    Question 6. The freight railroads have identified a need for $15 
million in federal assistance to continue technical research into 
protective measures and emergency response protocols. What specific 
projects should be funded?
    Answer. The projects contemplated in the $15 million figure are a 
continuation of a joint rail industry/DHS/FRA effort. The projects are 
designed to develop security enhancements for the transportation of 
hazardous materials and tools for emergency responders. Extensive 
testing already has been accomplished and additional funding is needed 
for the next phase. Due to the sensitive nature of these projects, they 
should not be discussed in a public forum. My staff and I would be 
happy to meet with the committee in a closed session should additional 
detail be required.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Ernest F. Hollings to 
                        Hon. Edward R. Hamberger
    Question 1. Do you believe that intelligence information is being 
appropriately coordinated among various Federal agencies and then 
directed to appropriate private and public sector officials? How is 
information passed on to first responders?
    Answer. There is considerable room for improvement in the way 
government shares information among agencies and with industry. Because 
approximately 85 percent of all critical infrastructure is owned by the 
private sector, government should treat industry as full partners in 
the intelligence cycle. All barriers to including industry in the 
analytical stage through early warning must be removed immediately in 
order to protect critical infrastructure and services against terrorist 
attacks.
    AAR does not have any information as to how government communicates 
intelligence information to first responders.

    Question 2. What types of technologies are available (e.g., portal 
screening systems/identification systems/facial recognition) to screen 
passengers and baggage in rail or transit situations?
    What is the feasibility and potential cost for the United States to 
implement these efforts at high risk or otherwise appropriate Amtrak 
and commuter rail facilities or services in this country?
    Answer. AAR is not familiar with passenger screening technologies. 
Amtrak and/or the Transportation Security Administration may be able to 
provide this information.
                                 ______
                                 
 Response to Written Question Submitted by Hon. Frank R. Lautenberg to 
                        Hon. Edward R. Hamberger
    Question. Many Class I railroads employ railroad police. Outside of 
law enforcement and security activities, what activities do these rail 
police perform for railroads?
    Answer. In addition to their law enforcement and security 
activities, railroad police officers perform such other functions as 
they may be assigned and for which their professional training has 
qualified them.
    These functions include a wide range of duties. For instance, 
railroad police act to promote public safety at accident scenes, at 
grade crossings with malfunctioning warning devices, and in the 
community. Railroad police enforce company policies (including policies 
prohibiting the possession of alcohol and firearms). Railroad police 
conduct lawful investigations when criminal wrongdoing is suspected. 
And railroad police observe and report safety violations--a 
responsibility that all senior rail officials share.
    In short, railroad police undertake those functions that are 
necessary to ensure the safety, security, and integrity of each 
railroad, consistent with their sworn obligation to uphold the law and 
to act within the limits of statutory authority and corporate 
governance.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John McCain to 
                           William W. Millar
    Question 1. Given that transit systems are intentionally open 
systems for easy and convenient access, what can reasonably be done to 
protect transit systems from terrorism?
    Answer. Americans should be able to use public transit in the U.S. 
without fearing for their safety and security. In that regard, and 
within the confines of limited budgets, public transportation systems 
have been engaged in a number of activities to enhance safety and 
security. These include security operational activities, including 
security awareness training for employees, public outreach programs and 
drills. Transit systems have also been improving their radio 
communications systems, surveillance systems and limiting and securing 
access points to transit facilities and equipment.
    Nonetheless, much more needs to be done. In a recent transit 
security survey, APTA members identified $6 billion in unmet transit 
security needs. While, public transit agencies have already spent $1.7 
billion on transit security out of their own budgets, the Federal 
Government has only provided $115 million in Federal grant funding for 
transit security since September 11, 2001. We believe that 
significantly more Federal resources should be made available to make 
our transit systems as safe and secure as possible.

    Question 2. Given limited Federal resources, what should our 
highest priorities be for funding?
    Answer. The public transportation industry has identified security 
priorities through a survey recently conducted by APTA. Priorities for 
capital needs include improved inter-operable radio and other 
communications systems, strengthening access control to facilities, 
establishing emergency operations control centers, and a variety of 
other capital improvements that would enhance security. Priorities for 
security related operating costs include threat assessments, enhanced 
planning, public awareness, training, drills, and reimbursement for 
transit security police for overtime expenses as a result of heightened 
Federal alerts.

    Question 3. How effective has the Information Sharing and Analysis 
Center (ISAC) been in effectively communicating intelligence about 
terrorist activities?
    Answer. APTA is sector coordinator for the Public Transportation 
ISAC. The ISAC is an effective means of communicating intelligence 
about terrorist activities. Approximately 197 public transportation 
systems are receiving daily security reports through e-mails that 
provide critical alerts and advisories. Among its 197 members are 
membership organizations, including the Community Transportation 
Association of America which represents numerous small urban and rural 
transit agencies. The ISAC provides a secure two-way 24/7 reporting and 
analysis structure that links the transit industry to the U.S. DOT, the 
TSA, the DHS and other government agencies. The Public Transportation 
ISAC is a member of the 13 member ISAC Council, which provides valuable 
interaction among the other established critical infrastructure 
sectors, such as finance, energy, information technology and 
telecommunications.

    Question 4. In its 2003 review of FTA's security initiatives, GAO 
recommended that legislation be passed to allow transit agencies to use 
Federal urbanized area formula funds for security-related operating 
expenses. What is FTA's position?
    Answer. To the best of our knowledge, the FTA has not established a 
position on this particular GAO recommendation.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Ernest F. Hollings to 
                           William W. Millar
    Question 1. Do you believe that intelligence information is being 
appropriately coordinated among various Federal agencies and then 
directed to appropriate private and public sector officials?
    Answer. Consistent with Presidential Decision Directive--#63, APTA 
has established the Public Transit Information Sharing Analysis Center 
(ISAC) that enables communication of security intelligence information 
to transit systems on a 24-hour/7 day a week basis. The Public Transit-
ISAC is linked with DHS, TSA, FBI and several other intelligence 
sources. Over the past six months within DHS's Directorate of 
Information Analysis & Infrastructure Protection has taken steps to 
develop stronger coordination ties with the various ISAC's.

    Question 1a. How is information passed on to first responders?
    Answer. Public transit is actually regarded as a first responder. 
We utilize the Public Transit ISAC to transmit information.

    Question 2. What types of technologies are available (e.g., portal 
screening systems/identification systems/facial recognition) to screen 
passengers and baggage in rail or transit situations?
    Answer. While transit agencies do not have adequate funding to 
fully embrace technological applications, there are a number of 
technologies that transit systems are using regarding security. These 
technologies include: CCTV, intrusion detection, GPS, Smart-Card 
identification for employees and contractors, emergency intercoms on 
rail cars and station platforms, public address systems, chemical agent 
detection, and inter-operable radio communication. There is no 
practical, cost effective technology currently available for passenger 
screening in the public transit environment.

    Question 2a. What is the feasibility and potential cost for the 
United States to implement these efforts at high risk or otherwise 
appropriate Amtrak and commuter rail facilities or services in this 
country?
    Answer. Given the large numbers of passengers using public transit 
every weekday, the feasibility of introducing portal screening, etc., 
for commuter rail and rail transit systems other than on a random basis 
does not appear to be realistic at this time.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John McCain to 
                             John O'Connor
    Question 1. More than a year ago, I asked TSA and FRA to work with 
Amtrak to develop both a security plan and a security investment plan. 
Both agencies provided comments on an investment plan that Amtrak's 
President David Gunn informed me was not Amtrak's final security plan. 
With security such a high priority, why hasn't Amtrak submitted a final 
funding plan until today?
    Answer. The plan submitted pursuant to your hearing cannot be 
viewed as a final security plan. While it addresses Amtrak's known and 
obvious vulnerabilities and threats, it attempts to mitigate these 
threats.
    The submitted plan called for operating costs, which would be 
recurring (more police and security officers).
    In addition, many of these initiatives require funding. As has been 
well documented, Amtrak has had to stabilize the Corporation and 
railroad system along with increasing security. The former was, and 
still is, the highest priority. With stabilization occurring 
(contingent upon sufficient Federal funding), Amtrak is addressing 
security issues in a more substantive manner. The recently released 
five year capital plan contains numerous security projects and 
demonstrates Amtrak's commitment to improving security.

    Question 2. Have FRA and TSA given Amtrak comments on this final 
plan, including the cost estimates for the various projects?
    Answer. FRA representatives attend all Amtrak Board of Directors 
meetings and are intimately aware of our needs and proposals regarding 
security. Amtrak received a written response from TSA in May of 2003. 
TSA could not provide funding, but indicated general support of the 
security plan. The TSA response is enclosed.
    Amtrak is working with the RAND Corporation following their review 
of security and a recommendation to conduct a systemwide vulnerability 
assessment. The findings and recommendations from this vulnerability 
assessment and compliance with the TSA security directives will drive 
Amtrak's security funding plan.

    Question 3. How does Amtrak coordinate its security efforts with 
Metro-North, the Long Island Railroad, and MTA in New York City?
    Answer. It must be pointed out that overall management of NYPS is 
complex and an interagency effort. Through agreement, there is an 
established Penn Station Control Center (PSCC) where agencies work 
side-by-side, interacting and coordinating train operations on a daily 
basis. A part of this overall endeavor is the Penn Station Security 
Committee (PSSC) in which law enforcement personnel coordinate and 
handle PSNY security issues. In addition, there is regular 
communication between these law enforcement agencies.
    There is also a Fire and Life Safety Committee that addresses 
safety and emergency response issues. Also, a modern multi-agency 
command center is activated in Penn Station. In the event of a security 
or life safety emergency, first responders manage incidents through the 
incident command system.

    Question 4. FRA Administrator Rutter testified that FRA recently 
hired the RAND Corporation to review ``Amtrak's security posture and 
current programs, focusing on the adequacy of preparedness for 
combating terrorist threats''. What is the status of this review and 
what effect might it have on the funding request you have made today?
    Answer. The RAND report has been communicated to senior Amtrak 
officials. Amtrak has already taken steps to address recommendations 
contained in the report. However, a primary recommendation of the 
report is that Amtrak should commission to have a systemwide 
vulnerability assessment conducted. Amtrak continues to work with RAND 
in the development of the format for this type of assessment in a 
national passenger rail system and is expected to have a product 
available shortly. It has also committed FY'05 funds to have this study 
completed as soon as possible. It can reasonably be anticipated that 
additional funding requests can stem from the findings and 
recommendations of this vulnerability study.
    The results of the vulnerability assessment and compliance with the 
TSA security directives will drive Amtrak's funding plan.

    Question 5. The National Transportation Safety Board (NTSB) has 
criticized Amtrak for its inability to provide passenger car manifests. 
When Amtrak's Auto Train derailed on April 18, 2002, near Crescent 
City, Florida, Amtrak told the NTSB incident commander there were 468 
people on the train. ``The day after the accident, Amtrak gave the 
incident commander a computer printout list, which contained 
information that did not match either of the two lists provided on 
April 18. In fact, Amtrak never provided the incident commander an 
accurate count of the persons on board the train.'' The actual 
passenger count was ultimately determined to be fewer passengers than 
indicated by Amtrak.
    What is Amtrak doing to address this situation? I can understand 
the difficulty in providing manifest information for some trains, but 
the Auto Train does not make station stops between the train's origin 
and destination.
    Answer. We continue to look for realistic ways of improving our 
ability to maintain accurate passenger counts on our long distance, 
overnight, and reserved trains. We currently employ procedures on all 
long distance reserved trains, which periodically undergo refinement 
(see e.g. Chapter 16, Part D of the Service Standards Reference Manual 
for Management Employees). We continue to study realistic operational 
and technological methods to enhance the efficiency of recording 
ticketed and non-ticketed passengers. We have communicated with both 
the TSA and the FRA and have pledged our cooperation with them in their 
efforts to address this area. And, Amtrak has invited any practical 
solutions that the NTSB may have that specifically accommodate all of 
the variables involved. While not offering any solutions, the NTSB has, 
pending Amtrak's study of methods to enhance passenger and crew 
accountability, classified Crescent City Safety Recommendation R-03-10, 
dealing with passenger accountability as ``Open-Acceptable Response.''
    And, to avoid the type of confusion that ensued after Crescent 
City, we have suggested to the NTSB that future on-site inquiries 
concerning passengers and crew be directed to the conductor, or a 
person representing him/her in the event of his/her unavailability. 
After the initial count is provided, the senior Amtrak representative 
on site will designate one Amtrak representative to be the single point 
person concerning the number of passengers and crewmembers.
    The system now in place on the Auto Train has undergone several 
refinements since the Crescent City derailment. Currently, all 
passengers are met upon arriving at the Sanford or Lorton stations to 
determine their ticketing status and the number of people traveling 
corresponding to a particular automobile. The ticket agent at the booth 
checks the tickets and assigns the automobile a loading number. Those 
passengers who are not ticketed but who appear on the loading manifest 
are sent to the ticket office to pick up tickets and/or pay for them. 
All passengers are then instructed to pull up to unload and turn over 
their automobiles for boarding and to go to the ticket office and check 
in with either coach or sleeper accommodations. At that time, the 
passengers are given boarding passes and the agents reconcile this 
information with the computerized manifest list. Should any upgrades be 
required, this is also handled at the ticket office.
    All passengers are given boarding passes and collection of the 
tickets is handled at the ticket office. The passengers are placed on a 
boarding car diagram by which car and accommodation location they are 
sitting, for coach or sleeper. This places them in their proper 
location for the trip. All data for all passengers traveling on the 
train is entered into Amtrak's database.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Ernest F. Hollings to 
                             John O'Connor
    Question 1a. Do you believe that intelligence information is (sic) 
being appropriately coordinated among various Federal agencies and then 
directed to appropriate private and public sector officials?
    Answer. This matter is difficult to answer. For the most part, an 
entity like Amtrak will not be aware of the actual coordination efforts 
among Federal agencies. However the level of coordination efforts that 
include Amtrak has risen significantly in the past few years.
    The Amtrak Police and Security Department, through its senior 
management level officials, has established strong working 
relationships with various Federal agencies. Most notably, Amtrak has 
regular contact and exchanges with the DHS and TSA. The Amtrak Police 
Department provides information to the Transportation Security 
Operations Center (TSOC) in Herndon, VA and works closely with high-
level officials in TSA's Maritime and Land Security Branch. As 
information, the Amtrak Police Department received 152 intelligence 
reports from 52 different sources over a five days span after the 
Madrid bombings. 85 were ``Law Enforcement Sensitive'', 50 were ``For 
Official Use Only'', 15 were ``Open Source'' and 2 were ``Classified 
Briefings''. Although Amtrak would desire intelligence information in a 
more-timely manner, overall it would classify its relationship with 
Federal agencies as strong.
    Also, Amtrak works closely with its industry counterparts in 
coordinating and disseminating intelligence information. It works with 
the Surface Transportation--Infrastructure Security Advisory Center 
(ST-ISAC) and the Rail Alert Network (RAN), a part of the AAR. Further, 
the Amtrak Police Department works closely with the industry law 
enforcement representative assigned to the FBI's National Joint 
Terrorism Task Force (NJTTF).
    Finally, the Amtrak Police Department has personnel dedicated to 
intelligence related functions. A management official is assigned to 
Criminal and Terrorist Intelligence, an investigator is assigned to the 
FBI Joint Terrorism Task Force in New York, and an administrative 
officer provides intelligence gathering support and analysis as well as 
coordinating development and enhancement of the Corporation's 
Industrial Security Clearance Program.

    Question 1b. How is information passed on to first responders?
    Answer. The Amtrak Police Department provides security information 
and appropriate intelligence information updates to its sworn police 
personnel directly through Special or General Order announcements, roll 
call, or through a Security Alert.

    Question 2a. What types of technologies are available (e.g., portal 
screening systems/identification systems/facial recognition) to screen 
passengers and baggage in rail or transit situations?
    Answer. For your convenience, I have attached the TSA powerpoint 
presentation identifying the equipment used during the recent TRIP 
pilot initiative at New Carrollton Station, MD. This may be more 
beneficial to answer your question.

    Question 2b. What is the feasibility and potential cost for the 
United States to implement these efforts at high risk or otherwise 
appropriate Amtrak and commuter rail facilities or services in this 
country?
    Answer. TSA estimated that its costs for personnel and equipment 
for the New Carrollton, MD less than 30 day TRIP initiative was $1.3 
Million. The Amtrak Police Department spent $16,755 over this period. 
This was one of the smaller low passenger volume stations in the Amtrak 
route system. To extrapolate this to encompass the entire national 
passenger rail and commuter systems would be difficult and speculative. 
However, the costs would be unwieldy and enormous in all likelihood.
    Amtrak would defer further response to the DHS and TSA on the costs 
of a national screening system.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                            to John O'Connor
    Question 1. We all know that Amtrak is hurting financially. We also 
know you have to target your limited resources. My guess is that most 
of your security efforts focus on the East Coast and perhaps West Coast 
corridors. How much have you spent on security overall, and what is the 
breakdown on funding for areas other than the East and West Coasts?
    Answer. FY03 provides the latest full-year actual spending results 
and can be broken down into the following regions:

------------------------------------------------------------------------
                                                       (Millions)
                                              --------------------------
                    Region                       FY03     FY03     FY04
                                                Actual   Budget   Budget
------------------------------------------------------------------------
1East                                            $26.2    $25.5    $26.9
Beech Grove/New Orleans/Ft. Worth                  1.0      1.0      1.0
Chicago                                            1.9      1.8      1.9
West                                               1.7      1.7      2.0
------------------------------------------------------------------------
Total                                            $30.8    $30.0    $31.8
------------------------------------------------------------------------

    In addition to the operating budget, capital funded projects over 
the past two years are listed below:

        Security Fencing--$1.3 million/annual (5 year program)

        Electronic Message Boards--$0.4 million

        Emergency Notification System--$0.1 million

        Access Control System Improvements--$0.1 million

        Los Angeles Yard Security Improvements (assessment)--$0.5 
        million

        National Communications Center Technology Improvements--$0.1 
        million

    In response to your inquiry on increased security costs post 9/11, 
note that three work element numbers had been established over a period 
of time to cover increased security costs.

  1.  976407--Established immediately after 9/11. Police along with 
        Engineering charged $11.9M during a period covering Sept. 2001 
        to Nov. 2002.

  2.  976477--Picked up where 976407 left off although there is some 
        overlapping. Charged $489k from May 2002 to June 2002 and then 
        picked up again in March 2004 thru July 2004.

  3.  976494--Totals $1.4M from Sept. 2002 to June 2004 and again, some 
        overlapping with 976477.

    Operating budgets post 9/11 are as follows:

------------------------------------------------------------------------
                      Year                         Budget     Headcount
------------------------------------------------------------------------
FY02                                                $26.9M          412
FY03                                                 30.0M          423
FY04                                                 31.8M          435
------------------------------------------------------------------------

    The FY03 Capital Program consisted of 4 projects totaling $2.4M:

  1.  Security Fencing

  2.  Electronic Message Boards

  3.  Emergency Notification System

  4.  Employee ID Cards (cancelled mid-year)

    The FY04 Capital Program<SUP>*</SUP> consisted of 7 projects 
totaling $1.7M:
---------------------------------------------------------------------------
    \*\ Security Fencing continued in FY04 as an Engineering Department 
initiative.

---------------------------------------------------------------------------
  1.  Electronic Message Boards (continued from FY03)

  2.  Emergency Notification System (continued from FY03)

  3.  Access Control System Improvements

  4.  NCC Technology Improvements

  5.  Automatic External Defibrillators

  6.  Firearms Simulation System

  7.  Police Vehicle Equipment Replacement
                               
                               Attachment
                               
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
      
                           [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
